<html>
<title> - DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 2001</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




         INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 2001

                 DEPARTMENT OF THE INTERIOR AND RELATED

                    AGENCIES APPROPRIATIONS FOR 2001

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS
                             SECOND SESSION

                                ________

   SUBCOMMITTEE ON THE DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES
                      RALPH REGULA, Ohio, Chairman
 JIM KOLBE, Arizona                 NORMAN D. DICKS, Washington
 JOE SKEEN, New Mexico              JOHN P. MURTHA, Pennsylvania
 CHARLES H. TAYLOR, North Carolina  JAMES P. MORAN, Virginia
 GEORGE R. NETHERCUTT, Jr.,         ROBERT E. ``BUD'' CRAMER, Jr., 
Washington                          Alabama
 ZACH WAMP, Tennessee               MAURICE D. HINCHEY, New York   
 JACK KINGSTON, Georgia
 JOHN E. PETERSON, Pennsylvania     
                       
 NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
   Deborah Weatherly, Loretta Beaumont, Joel Kaplan, and Christopher 
                                 Topik,
                            Staff Assistants

                                ________

                                 PART 6
                                                                   Page
 Public Witnesses for Indian Programs.............................    1
   Additional Written Testimony...................................  293

                              <snowflake>


                                ________

         Printed for the use of the Committee on Appropriations

                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
 63-951                     WASHINGTON : 2000





                      COMMITTEE ON APPROPRIATIONS

                   C. W. BILL YOUNG, Florida, Chairman

 RALPH REGULA, Ohio                  DAVID R. OBEY, Wisconsin
 JERRY LEWIS, California             JOHN P. MURTHA, Pennsylvania
 JOHN EDWARD PORTER, Illinois        NORMAN D. DICKS, Washington
 HAROLD ROGERS, Kentucky             MARTIN OLAV SABO, Minnesota
 JOE SKEEN, New Mexico               JULIAN C. DIXON, California
 FRANK R. WOLF, Virginia             STENY H. HOYER, Maryland
 TOM DeLAY, Texas                    ALAN B. MOLLOHAN, West Virginia
 JIM KOLBE, Arizona                  MARCY KAPTUR, Ohio
 RON PACKARD, California             NANCY PELOSI, California
 SONNY CALLAHAN, Alabama             PETER J. VISCLOSKY, Indiana
 JAMES T. WALSH, New York            NITA M. LOWEY, New York
 CHARLES H. TAYLOR, North Carolina   JOSE E. SERRANO, New York
 DAVID L. HOBSON, Ohio               ROSA L. DeLAURO, Connecticut
 ERNEST J. ISTOOK, Jr., Oklahoma     JAMES P. MORAN, Virginia
 HENRY BONILLA, Texas                JOHN W. OLVER, Massachusetts
 JOE KNOLLENBERG, Michigan           ED PASTOR, Arizona
 DAN MILLER, Florida                 CARRIE P. MEEK, Florida
 JAY DICKEY, Arkansas                DAVID E. PRICE, North Carolina
 JACK KINGSTON, Georgia              MICHAEL P. FORBES, New York
 RODNEY P. FRELINGHUYSEN, New Jersey CHET EDWARDS, Texas
 ROGER F. WICKER, Mississippi        ROBERT E. ``BUD'' CRAMER, Jr., 
 GEORGE R. NETHERCUTT, Jr.,          Alabama
Washington                           MAURICE D. HINCHEY, New York
 RANDY ``DUKE'' CUNNINGHAM,          LUCILLE ROYBAL-ALLARD, California
California                           SAM FARR, California
 TODD TIAHRT, Kansas                 JESSE L. JACKSON, Jr., Illinois
 ZACH WAMP, Tennessee                CAROLYN C. KILPATRICK, Michigan
 TOM LATHAM, Iowa                    ALLEN BOYD, Florida              
 ANNE M. NORTHUP, Kentucky
 ROBERT B. ADERHOLT, Alabama
 JO ANN EMERSON, Missouri
 JOHN E. SUNUNU, New Hampshire
 KAY GRANGER, Texas
 JOHN E. PETERSON, Pennsylvania
 VIRGIL H. GOODE, Jr., Virginia     
                   
                 James W. Dyer, Clerk and Staff Director

                                  (ii)




              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




 
DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 2001

                              ----------                              


 TESTIMONY OF MEMBERS OF CONGRESS AND OTHER INTERESTED INDIVIDUALS AND 
                             ORGANIZATIONS

                              ----------                              

                                           Tuesday, April 11, 2000.

                           THE NAVAJO NATION

                               WITNESSES

KELSEY A. BEGAYE, PRESIDENT
EDWARD T. BEGAY, NAVAJO NATION COUNCIL SPEAKER
    Mr. Regula. The committee will come to order.
    We have many people that want to be heard today. We have a 
whole line-up of people.
    I will say at the outset, we have only five minutes per 
person. We are sorry we do not have more time. This timer is 
new this year. We have a little machine here that will be green 
and then amber, and you need to wind up at amber, because at 
red you need to stop. Otherwise, we cannot get through the day 
because we have people scheduled every five minutes. We want to 
have an opportunity to hear from all of you. We will not have 
time for many questions, but I will say at the outset that all 
of your written statements will be made a part of the record so 
please use your time to summarize your concerns.
    Mr. Skeen, did you have any comment?
    Mr. Skeen. No. I just wanted to welcome you folks here. As 
a former employee of the Department of Interior and an engineer 
at Zuni, I feel like we have got a kindred spirit here.
    You are welcome here today, and so forth, but we do need to 
do a rain dance as soon as possible. But thank you for being 
here.
    We will get started. Your time keeper is on the job here. 
Joel is our specialist on these matters. We need the miracle 
they had in the Bible where they fed 5,000 with five fishes and 
five loaves, because if we were to meet all the needs that are 
out there, it would be a monumental task. We do the best we 
can, and we have beefed up the budget for the Indian affairs 
and Indian health very considerably. We are, I think, very 
sensitive to the needs, but of course, there are limits that we 
have on our budget.
    Our first witness this morning is from the Navajo Nation, 
Mr. Kelsey Begaye.
    Welcome. Are you president? Okay. You did not have Air 
Force One, though, did you? [Laughter.]
    Mr. Begaye. No, sir.
    Chairman Regula and subcommittee members, good morning. My 
name is Kelsey A. Begaye, and I am president of the Navajo 
Nation.
    Today I am joined by Speaker Begay of the Navajo Nation 
Council, who will be delivering the Navajo Nation's testimony.
    The Navajo Nation welcomes this opportunity to support the 
proposed bipartisan fiscal year 2001 budget. The recommended 
fiscal year 2001 budget is commendable as a first step in 
bridging the disparity between Indian communities and the rest 
of the United States.
    The Navajo Nation currently has 6,184 miles of roads within 
the BIA Indian roads program, with 4,811 miles unimproved dirt 
roads.
    The Navajo Nation supports the proposed budget in the 
amount of $349 million for the IRR program. There is a 
tremendous need for water and sanitation services within the 
Navajo Nation. Under the IHS budget, there is a proposed 
sanitation construction funding of $96.6 million for fiscal 
year 2001 for Indian Country. This proposal addresses part of 
the backlog of sanitation construction needs, commonly known as 
BEMAR.
    The Navajo Nation is concerned with the fact that neither 
of the Navajo health centers in Red Mesa or Pinon, Arizona, 
were considered for fiscal year 2001 funding. These health care 
facilities are needed to address the Navajo Nation's rural 
health programs and problems.
    The Navajo Nation supports the full funding of $156 million 
for law enforcement for Indian Country. This funding would 
tremendously help address needs for Navajo Nation, providing 
these funding increases are distributed based on need.
    The Navajo Nation continues to be concerned with the lack 
of adequate funding for Indian nation justice systems. The 2001 
budget proposed a mere increase of $1.5 million for all Indian 
judicial systems under the Indian Self-Determination Act, while 
proposing $15 million for unidentified Justice Department 
tribal court program competitive grants. Instead, the Navajo 
Nation strongly recommends that the 15 million be appropriated 
for strengthening Indian judicial systems.
    The Improving American Schools Act of 1994 authorizes 
appropriation for tribal education departments through the U.S. 
Department of Education and the Department of Interior. The 
Navajo Nation recommends this appropriation be funded. Tribal 
education departments would advance self-determination by 
allowing tribes to control and maintain educational standards, 
policies, curriculum, certification, and funding.
    The BIA housing improvement program is slated to receive 
$31.8 million. The funding represents a unique opportunity for 
Navajo individuals to access capital without being penalized by 
the TPA distribution methodology, the funding distributed based 
on eligibility of individuals.
    The Navajo Nation utilizes grant funding for the majority 
of its health, social services, and justice programs. This 
funding is currently distributed through a competitive 
mechanism which is inconsistent with the Federal Government's 
trust responsibility and obligation.
    The Navajo Nation recommends that fiscal year 2001 funding 
for basic services to the Navajo people be based on trust 
principles.
    Thank you.
    Mr. Begay.
    Mr. Begay. Thank you, Mr. Chairman and committee members.
    My name is Edward T. Begay. I am here to present with the 
president of the Navajo Nation on the budget set for fiscal 
year 2001.
    First of all, I would like to thank the Chair and the 
committee members for support that they have given us through 
the Bureau of Indian Affairs and IHS for all the facilities and 
services that are rendered. We are very appreciative of that.
    In the area of education program, Indian Health Service, 
the Navajo people utilize all these services very diligently, 
which oftentimes----
    Mr. Regula. You have one minute remaining.
    Mr. Begay. With that, I think the support is there. We 
really do appreciate that for all the effort that is being 
done.
    In the testimonies we have outlined the numbers that we are 
supporting for Indian Health Service, as well as for Bureau of 
Indian Affairs in replacements, as well as a new construction 
in the area of health, hospital.
    So with that I would like to again thank you for paying 
attention to the presentation.
    Thank you, Mr. Chairman and committee members.
    Mr. Regula. Thank you.
    Mr. Skeen, we have a few seconds left. Do you have 
questions?
    Mr. Skeen. No.
    Mr. Regula. Do you have Navajos in New Mexico?
    Mr. Skeen. Yes, sir.
    Mr. Regula. Okay. Well, thank you very much.
    Mr. Begaye. Thank you.
    Mr. Skeen. Lots of Navajos.
    [The statement of Mr. Begaye follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                           Tuesday, April 11, 2000.

                           PASCUA YAQUI TRIBE


                                WITNESS

BENITO F. VALENCIA, CHAIRMAN
    Mr. Regula. The Pascua Yaqui Tribe, Benito Valencia.
    Good morning. Welcome.
    Mr. Valencia. Good morning, Chairman Regula, Representative 
Dicks, and distinguished members of the subcommittee. It is an 
honor to speak before the Committee on Appropriations knowing 
that a fellow Arizonan, Representative Jim Kolbe, sits on this 
same committee.
    I am pleased to offer my testimony regarding the 
President's budget request for fiscal year 2001 Indian programs 
and services.
    My name is Benito F. Valencia, and I am the chairman of the 
Pascua Yaqui Tribe located in Tucson, Arizona.
    Before I begin my testimony, I would like to submit my 
comments for the record.
    The Pascua Yaqui Tribe are a people steeped in time-honored 
traditions, culture, and heritage. In this new millennium, we 
look back at our history and we look forward to our future. In 
our future, we envision basic health care for all eligible 
tribal members, and the vital economy and development of our 
lands, as well as basic social services. These basic tribal 
services--health, social services, law enforcement, and other 
tribal programs--need to be fully funded in order for us to 
achieve what the rest of the Nation now enjoys in full.
    Even with increased Federal commitments, it is becoming 
increasingly difficult to deliver the types of services our 
people deserve, and, although the tribe is succeeding in 
bringing economic diversity to our reservation, it will take 
several years before we reap the benefits.
    Mr. Regula. When you say ``economic diversity,'' are you 
talking about little businesses other than agriculture?
    Mr. Valencia. We are talking about other ventures that we 
have gone into besides agriculture.
    Mr. Regula. Yes. And are they having some measure of 
success?
    Mr. Valencia. At this point, we have yet to see how 
successful they will be, but hopefully they will become 
successful.
    Mr. Regula. Thank you. Go ahead.
    Mr. Valencia. In all our previous testimony before this 
committee, we have stressed that the health and well-being of 
our tribal members is a priority. We have allocated millions of 
tribal revenue funds to build health facilities on our 
reservations and to our community health programs to supplement 
the funding we receive from the Indian Health Service. The 
tribe has also been able to do this because of the gaming 
revenues generated by our casino.
    There are a number of health issues that directly affect 
the Pascua Yaqui Tribe and other tribes, as well. One major one 
is the reauthorization of the Health Care Improvement Act. The 
draft bill that was presented by the tribes to the Senate 
Committee on Indian Affairs in March includes recommendations, 
modifications, and changes that are necessary to the health and 
well-being of all Indian people.
    We encourage this committee to fully fund all the 
initiatives, in keeping with the Nation's policy and 
obligations to meeting the unmet health needs of Indian people.
    Many of the new initiatives proposed in the draft bill will 
allow tribes such as ourselves to leverage tribal revenues to 
finance future health facilities construction and projects 
without costing the Federal Government money.
    The replacement of the Phoenix Indian Medical Center is an 
issue that is vital to the tribe and tribes in Arizona. As you 
know, PIMC is number one on the inpatient replacement priority 
construction list. We request the committee provide the 
necessary funding in fiscal year 2001 to begin the planning and 
design phase for the replacement of this facility.
    In addition, we encourage the committee to adhere to its 
policy on funding construction projects as they appear on the 
priority list. This facility is needed as much as the Anchorage 
Medical Center, which the committee recently funded.
    Currently, there is no health presence on our reservation. 
All our dental care facilities are provided off-reservation by 
non-Federal entities through contract health services. This 
type of arrangement has restricted the access to services, and 
the per capital funding of $28 per tribal member further 
restricts access.
    The recent analysis we performed showed that only 14 
percent of the eligible tribal population was able to access 
dental services. Utilizing the Pascua Yaqui Tribe's own tribal 
resources, this summer we will begin construction of a ten-
chair dental center. We are requesting that Indian Health 
Service be directed to enter into a joint venture agreement 
with us for operating and staffing our dental center.
    We would like to bring to your attention a continuing 
problem and propose a solution to resolve this ongoing dilemma. 
In the Interior appropriations bills of fiscal year 1997 and 
1998, this committee directed Indian Health Services to work 
with the tribe in resolving the funding shortfalls that have 
plagued our HMO program. I regret to report that Indian Health 
Services has fallen short of complying with the committee's 
directive.
    Although we have received periodic, yet inadequate, 
assistance, IHS appears reticent in their efforts to seek a 
solution. Three years after Congress' edict, we are no closer 
to resolving the funding problems than we were then.
    The information that IHS needs to review before they 
propose various alternatives is not complicated.
    Mr. Regula. You have 20 seconds left.
    Mr. Valencia. Okay. I would also like to address issues on 
our law enforcement area.
    Our problem associated with law enforcement detention, 
simply put, is lack of funding and detention facilities. The 
BIA has funded the tribal law enforcement detention service at 
$238,000 since 1978, and this amount was increased by $60,000 
in 1998, the first increase in over 20 years.
    Simply put, you know, we have a very, very bad situation in 
our reservation about detention facilities.
    Mr. Regula. Thank you very much.
    Mr. Valencia. Thank you.
    Mr. Regula. Do you use some of your casino revenues for 
your tribal needs?
    Mr. Valencia. We use the majority of the casino revenues to 
supplement every program that we have in place.
    Mr. Regula. Okay. Thank you.
    [The statement of Mr. Valencia follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                           Tuesday, April 11, 2000.

                            PUEBLO OF ACOMA


                                WITNESS

LLOYD TORTALITA, GOVERNOR
    Mr. Regula. The Pueblo of Acoma, Lloyd Tortalita.
    Mr. Tortalita. Good morning, Mr. Chairman and the rest of 
the Members of Congress. It is good to be here.
    My name is Lloyd Tortalita. I am currently serving as the 
governor for the Pueblo of Acoma.
    One of my greatest needs right now is infrastructure at 
Pueblo of Acoma. I think throughout the Indian nations we have 
that, but that is my greatest need right now, and I come before 
you because I have a big concern--the need for water, the need 
for wastewater treatment because of the requirements of EPA and 
because of different requirements that were placed on us.
    I have some photographs that are in your packet that was 
given to you. It is a set of copies. I will go right to that, 
where some of our current lagoon systems that are in place are 
failing, are decaying, and everything else, and they have been 
in place for 15 or 20 years.
    Mr. Regula. Are they sewage systems for your----
    Mr. Tortalita. Yes, sir. And it serves our hospitals, our 
schools, and our communities.
    I was over at Indian Health Service yesterday. I have been 
going there for the last ten years. Yesterday they told me it 
would take another ten years for me to move this up on the 
priority listing.
    The pictures show it all.
    Currently we have a dialysis unit that we are opening up 
which serves three tribes. It serves the Pueblo of Acoma, 
Pueblo of Laguna, and part of the Navajo Nation. We are going 
to be opening it up next month. You know, throughout the Indian 
nation diabetes is one of the highest diseases, so we will be 
opening up that clinic, but, because of one of our lagoon 
system failing, we might not even open up. In those pictures, I 
think in the third picture back, it shows the lagoons and all 
of them are over capacity. They are running over. They are 
contaminating the land around the lagoon systems that were 
placed there for us by Indian Health Service.
    Mr. Regula. How many people does this system serve?
    Mr. Tortalita. We have 6,000 tribal members, plus we serve 
probably an additional 2,000 or 3,000 non-Acomas over at the 
clinic, over at the hospital.
    After we open up the dialysis clinic, we will be using an 
additional 8,000 gallons of additional water, so I have that 
need for additional water.
    We have been coming here to Congress for the last nine 
years and asking to develop the Baca water line for us, and 
also in addressing wastewater. You know it takes water to do 
the dialysis treatment, and how much it generates, so that is a 
big problem that I have there.
    Also, my council has placed a limited development on Acoma. 
We have 63 additional houses that we are trying to build for 
our senior citizens and our tribal elders, elderly people, but 
we cannot do that without infrastructure.
    We also have a plan for a new HeadStart building. We cannot 
do that, because we do not have any place to put the water. 
That is our problem--wastewater.
    I have been coming here, like I said, for the last nine 
years----
    Mr. Regula. Do you have a central water system?
    Mr. Tortalita. We have a central water system, and we are 
trying to develop that, but we have 6.7 miles of pipe that we 
need to lay also to get better water back into Acoma, and, 
because of the growing population--we are projecting in ten 
more years Acoma's population will be right around 20,000, from 
6,000 to 20,000 people, with a boom in aging baby boomers 
coming in with more kids now, more kids, more kids, so in ten 
more years there will be about 20,000.
    But my critical need right now is for a new water and 
wastewater facility, equal to about $24 million and for 
community development. That is talking about our Baca water 
well line, a batch reactor water waste system, $4 million. Then 
we are in the process of doing a multi-purpose wellness clinic 
in order to, again, address diabetes, again, the number one 
disease up at Acoma, and also our early childhood education or 
HeadStart building. I know that is from both the President of 
the United States and from Congress in educating our young 
people. That is Acoma's number one priority. Education was 
number one for us, but now waste infrastructure is number one. 
We need that in order for us to fully develop what we need to 
do.
    And we also have a listing of everything that we are asking 
for. I am not asking for very much except for $24 million.
    Also, if you would send some of that rain from Ohio over 
there--and I have been to Chiloquin. I have done some 
performances out there. For one whole week it rained, so I know 
what it is like.
    Also, in closing, I have been coming here for nine years 
now. I started coming here in 1991 as the first lieutenant 
governor. At that time, I heard one of the older chairpersons 
say, ``I have been coming here every year, and I walk away from 
Congress with something.'' And this is my second time that I am 
testifying before Congress. I have not been able to get 
anything from Congress yet. So hopefully the fourth try will 
give me some money to address my infrastructure.
    Mr. Regula. You want to walk away with something.
    Mr. Tortalita. Yes, sir.
    And I brought my big bag. We are ready to put some dollars 
in there so I can take care of my waste water and my water 
problems at Pueblo of Acoma.
    Mr. Regula. Fill that bag for him. [Laughter.]
    Mr. Tortalita. I heard that, so I expect something in Acoma 
in the 2001 budget.
    Thank you very much.
    Mr. Dicks. Have you heard it from the United States Senate? 
[Laughter.]
    Mr. Tortalita. Thank you very much for giving me the 
opportunity.
    Mr. Regula. Thank you.
    Mr. Tortalita. Thank you.
    Mr. Regula. Mr. Skeen, this witness is from your area.
    Mr. Skeen. We have been talking about this Baca waterline 
improvement in the water system for many years now.
    Mr. Tortalita. Yes, sir.
    Mr. Skeen. And diabetes, of course, is epedemic.
    Mr. Tortalita. Yes. The Baca water well can start from 
Ohio.
    Mr. Skeen. And we have gone over the same information, very 
repeated, time and time again, and I am with you. If we can 
find a bag of money, I will help you carry it. [Laughter.]
    Mr. Tortalita. Thank you.
    [The statement of Mr. Tortalita follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                           Tuesday, April 11, 2000.

                NATIVE AMERICAN FISH & WILDLIFE SOCIETY


                                WITNESS

KEN POYNTER, EXECUTIVE DIRECTOR
    Mr. Regula. The Native American Fish & Wildlife Society, 
Ken Poynter, executive director.
    Welcome.
    Mr. Poynter. Good morning, Mr. Chairman. I thank you and 
other members of the committee for allowing me this time in 
front of you this morning.
    First of all, I would like to say thank you for the funding 
we received last year and let you know that from that funding 
we actually have experienced tremendous growth.
    Our claim to fame is providing technical assistance and 
training to tribes in the area of resource management, fish and 
wildlife management.
    Just to make you aware of a few facts, in 1994 our board 
made a promise that we would not come here and ask for 
additional funding, although the cost of doing business goes up 
annually, as well as the growth we have experienced since 1994. 
We went from approximately 40 member tribes to 214, and more 
than doubled our individual memberships. But we bit the bullet 
and said we were not going to do that, and we created a 
foundation, and we are currently trying to raise a $10 million 
endowment, at which time we will be offering an investment 
offering returns. We will be getting off the Federal dole and 
actually starting a small grants program to subsidize tribal 
resource management efforts.
    To give you some highlights of what we were able to 
accomplish with last year's funding, we conducted over 40 
training sessions.
    Because of the fact we do not come here, as administrator 
it is difficult for me. You know, the cost of everything goes 
up annually. We try to do even more with basically less, but 
through being very creative and partnering--we have partnered 
with over 30 different entities to put on these 40 different 
training sessions. It benefitted over 1,800 participants. A lot 
of those sessions dealt primarily with conservation law 
enforcement, protection of the resources.
    This year, to date, in regards to technical assistance, 
which is our other claim to fame, we have so far provided 
technical assistance to over 114 tribes, various Federal 
agencies, State entities and agencies, as well as private 
conservation groups.
    Although we are a membership organization, I must point out 
that we do not exclude anybody from accessing any of our 
programs or services. We have provided everything from a 
pheasant farming feasibility study to full-blown management 
plans.
    One day I had a lady call me from Denver. She found us in 
the phone book and wanted to know how to keep the squirrels out 
of her bird feeder. I spent a few minutes talking to her about 
that.
    We have become very visual. We have got a lot of support 
because of the fact that we are actively trying to raise a 
permanent endowment. We created a separate entity, and we just 
agreed this past year to allow the board of trustees from the 
foundation to solely concentrate on raising those funds, which 
takes some heat off of us and allows us to really concentrate 
on what we do. So that is where we are moving in that 
direction.
    Mr. Regula. Give me an example of what you do to help 
tribes.
    Mr. Poynter. Well, as I just mentioned, I mean, in regards 
to technical assistance, we have done everything from a 
pheasant feasibility study for the Umatilla--that was years 
ago--and management plan we worked on with the Eastern Band of 
Cherokee.
    Our training sessions are really key to what we do, I 
think. We provide these sessions, and these sessions actually 
represent probably the most proactive part of our budget. It is 
at no cost to our members or to anybody who wants to attend. A 
lot of times, we actually fund and give stipends to tribal 
representatives to attend these training sessions.
    For example, there was a session a couple of winters ago in 
the Great Lakes, and it was for conservation law enforcement 
officers on how to rescue people that have fallen through the 
ice, and everything from environmental concerns. We did a lot 
of HAZMAT training last year, in partnership with the 
University of Alabama first responder courses.
    Mr. Regula. Okay. Well, thank you very much.
    Mr. Poynter. Thank you.
    Mr. Regula. Did you have anything to add?
    Mr. Skeen. No.
    [The statement of Mr. Poynter follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                                           Tuesday, April 11, 2000.

                            NORTHERN ARAPAHO


                               WITNESSES

BEN RIDGLEY, CHAIRMAN, NORTHERN ARAPAHO BUSINESS COUNCIL
NELSON WHITE, MEMBER, NORTHERN ARAPAHO BUSINESS COUNCIL
    Mr. Regula. Our next witness group is the Northern Arapaho, 
Ben Ridgley.
    Mr. Ridgley.
    Mr. Ridgley. Good morning, Mr. Chairman and members of the 
committee.
    Mr. Regula. Good morning.
    Mr. Ridgley. I am Ben Ridgley, chairman of the Northern 
Arapaho Business Council. Along with me today I have our other 
Council member with us, Mr. Nelson White.
    I am pleased to have the opportunity to testify. The 
Northern Arapaho Tribe shares the Wind River Indian Reservation 
with the Eastern Shoshone Tribe. The vision of the Northern 
Arapaho Business Council is to protect and provide for the 
Northern Arapaho children and families and others that are 
among us. Our goal is to ensure that comprehensive and 
culturally-acceptable services are available and accessible to 
our people.
    A government-to-government relationship is provided in 
article one, section eight, clause three of the United States 
Constitution, a relation has been underscored by treaties, 
Executive Orders, and Supreme Court decisions over the last 200 
years.
    I am here today to discuss unmet needs in Indian programs 
that provide services to our people from the Wind River Indian 
Agency.
    The Northern Arapaho Indian child welfare request is for 
$144,194 for fiscal year 2001, and is an increase over the 
fiscal year 1999 enacted amount.
    The oil and gas program request is $12,300,000, which is a 
new initiative.
    A new economic development request is $22,830,000.
    A Northern Arapaho natural resource development request is 
for $2,300,000.
    The education request is $198,856 for job placement and 
training. Our total education request is for $500,000.
    The Wind River Community College was established in 1997 by 
an ordinance of the Northern Arapaho Business Council. The 
college is offering classes while development activities are 
continuing.
    Water for land and people is very important to us and the 
Eastern Shoshone Tribe in its operation of the Wind River 
irrigation project. At least $400,000 per year is needed in 
tribal priority allocation just to maintain operations beyond 
ten years. Under the new current infrastructure, the operation 
will last another five to ten years.
    Northern Arapaho self-determination and education 
assistance is expanding, due to the increase and awareness and 
knowledge of ability and responsibilities of creating a future 
for our children and families.
    The Bureau of Indian Affairs needs two additional staff to 
support a lone staff that provides services to both tribes, a 
delegation of authority to the agencies required to provide the 
development and growth opportunities that are available for our 
people.
    The natural resource and forestry branch is responsible to 
provide technical assistance for the administration of about 
1.8 million acres of range land, 70,000 acres of irrigated farm 
land, and 350,000 acres of forest land. Above the current 
level, we need and request three more range land management 
specialists, two more soil conservationists, one more forester, 
and an environmental scientist.
    The Bureau of Indian Affairs has always been under-staffed, 
when compared with other Federal land management agencies. The 
added resources will provide the Bureau with needed resources 
to perform its land stewardship trust responsibility. We are 
entitled to the same level of effort enjoyed by other Federal 
agencies in this effort.
    Services provided to the Northern Arapaho Business Council 
reflect the fact of the under-funding of the level agency. 
About 1,000 documents are processed by the administrative 
service program each month, and support is provided to 
procurement personnel and property management and other areas 
with one staff person.
    A request of four additional staff to carry out the 
responsibilities and to comply with guidelines to protect 
Federal property and resources is hereby made.
    There is a two-year backlog in the real estate trust 
service probate program, which serves about 9,000 members.
    Surface and subsurface services include lease and mineral 
development, trespass, land sales, right-of-ways, probates, and 
others.
    A year backlog of processing payments of leases exists, due 
to staff shortages, and $250,000 will help address the trust 
responsibility.
    I hope you will consider our recommendations seriously. We 
look forward to working with the Federal agencies in carrying 
out our responsibilities for the benefit of our people.
    I thank the committee for this opportunity to provide 
testimony on unmet needs and other programs.
    Thank you.
    Mr. Regula. Thank you.
    Mr. Dicks.
    Mr. Dicks. No questions.
    Mr. Regula. Mr. Skeen.
    Mr. Skeen. No.
    Mr. Regula. Well, thank you for bringing this.
    Time is up, but did you have any comments you wanted to 
make?
    Mr. White. I just wanted to say that for well over 100 
years our people have been coming here. They used to come by 
wagon train. We are still doing that. Hopefully we will get our 
unmet needs considered. I just wanted to say that.
    Mr. Regula. We will do the best we can.
    Mr. White. All right. Thank you.
    Mr. Regula. Thank you.
    [The statement of Mr. Ridgley follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                                           Tuesday, April 11, 2000.

              NORTHWEST PORTLAND AREA INDIAN HEALTH BOARD


                                WITNESS

JULIA A. DAVIS, CHAIR
    Mr. Regula. Northwest Portland Area Indian Health Board, 
Julia Davis.
    Ms. Davis. Good morning.
    Mr. Skeen. Good morning.
    Ms. Davis. It is great to be here this morning. I serve as 
tribal councilwoman for the Nez Perce Tribe. I also serve as 
vice chair of the National Indian Health Board and chair of the 
Northwest Portland Area Indian Health Board. The Northwest 
Portland Area Indian Health Board has 41 member tribes from 
Washington, Oregon, and Idaho.
    It is a pleasure to be here to present testimony today 
regarding the fiscal year 2001 President's budget for IHS and 
the request of $2.6 million.
    In addition to my testimony today, I would like to present 
the committee with a budget analysis for the record that the 
Northwest Tribes do. We grade the President's budget when it 
comes out and we hold a budget workshop, and it is very 
beneficial to all of the tribes that participate.
    Before I get to the analysis and the evaluation of the 
President's proposed budget, I want to thank this committee for 
its work over the past eight years. Over these eight years, the 
committee had the unfortunate task of delivering the message to 
tribes that their health care programs could not receive any 
additional funds to address the health care problems that 
affect our people in greater degree than the general 
population.
    Unlike this committee, the Administration has had an uneven 
record over these years. It is hard to say which budget 
proposed by President Clinton was most disappointing, his 
fiscal year 1995 budget that proposed budget cuts, or the one 
submitted in fiscal year 1999 that proposed a less than 1 
percent increase.
    For fiscal year 2001, it has begun with a promising start. 
First, the President's proposed budget for the Indian Health 
Service includes a $229 million increase. The Senate Budget 
Committee has proposed a budget resolution that assumes a $230 
million increase.
    This year's proposed increase of nearly 10 percent, while 
generous relative to the increases of recent years for the 
Indian Health Service, is less than needed to accomplish the 
goals of the President, Congress, and the tribes.
    The President's fiscal year 2001 request is an improvement 
over its fiscal year 2000 request of 7.6 percent increase, and 
the tribes appreciate the growing understanding by the 
Administration of the true needs of Indian health.
    Unfortunately, the fiscal year 2000, an improved 6.9 
percent increase, became a $6.7 percent, $150 million increase 
after rescissions of $6.7 million were deducted from the Indian 
Health Service budget.
    Tribes were extremely disappointed that the Administration 
did not make the Indian Health Service a protected program in 
the rescissions decision. Tribes remember the fiscal year 1999 
IHS budget increase of 0.9 percent proposed by the 
Administration. If the Congress had not restored funding, 
Indian health programs would have lost over $120 million.
    Indian health programs cannot afford to absorb such a large 
portion of mandatory cost increases year after year. The health 
and the very lives of American Indians and Alaska Natives are 
being put at risk by this chronic under-funding of the Indian 
Health Service budget.
    It is significant that the President now recognizes that 
the Indian Health Service does not have enough resources to 
raise the health status of American Indians and Alaska Natives 
to the level of the general population.
    The budget requested by the Northwest Portland Area Indian 
Health Board in its analysis that I have presented to you 
preserves the present program and provides program increases 
that are responsive to the Indian Health Care Improvement Act. 
It proposes an 18.8 percent increase and $450 million that is 
necessary in the Indian Health Service budget and to achieve 
the needs-based level of 7.5.
    In conclusion, I would like to again thank this committee 
for its steadfast attention to Indian health. The Northwest 
Tribes appreciate the work of their representatives from both 
sides of the aisle that sit on this committee, Representative 
George Nethercutt and Representative Norm Dicks.
    We appreciate your time and attention. Thank you.
    Mr. Dicks. Thank you.
    What do you think is the most serious thing we are not 
doing in terms of Indian health care, besides the money? What 
is not happening out there?
    Ms. Davis. There are so many things happening out there. I 
participated on the Indian Health Care Improvement Act 
workgroup, and all of the areas in that Indian health care 
improvement are a need.
    Of course, you know the funding is very, very important to 
us, and getting our level up to the general population is our 
goal right now, because we are below level, far below.
    Mr. Nethercutt [assuming chair]. Thank you.
    Mr. Skeen. May I ask, too, Ms. Davis--diabetes is still the 
most prominent problem?
    Ms. Davis. Yes, it is. It is prevalent in all the tribes 
across the United States. The Northwest Tribes, I am sorry to 
report, the Nez Perce Tribe is the highest in the northwest of 
Washington, Oregon, and Idaho.
    Mr. Skeen. But across the board, for every Indian tribe, 
diabetes is the number one problem?
    Ms. Davis. Diabetes and cancer and other diseases are the 
highest. Yes. Alcohol and substance abuse.
    Mr. Skeen. Thank you.
    Ms. Davis. Yes.
    Mr. Nethercutt. We have also got the Diabetes Research 
Working Group Report----
    Ms. Davis. Right.
    Mr. Nethercutt [continuing]. That has been done. The 
Congress has supported that and funded it. The recommendations 
are for a greater amount of money than is currently allocated 
through the National Institutes of Diabetes, Digestive, and 
Kidney Diseases.
    The Indian community has been great in supporting 
additional research efforts for diabetes, and we thank you for 
that. It is a cause that has to be pursued. I think Members of 
Congress need to hear more about the need to cure this disease, 
because it affects dental problems for Native Americans and 
Alaska Natives as well as people in Mr. Skeen's region and in 
our region of the country in Washington State. I encourage you 
to keep speaking out on the need to cure this disease.
    Ms. Davis. Thank you.
    Mr. Nethercutt. Thanks for being here.
    [The statement of Ms. Davis follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                           Tuesday, April 11, 2000.

                        NORTHERN CHEYENNE TRIBE


                               WITNESSES

JOSEPH WALKS ALONG, SR., PRESIDENT
BERNIE ROBERTSON, COUNCILMAN
    Mr. Nethercutt. The Northern Cheyenne Tribe, Joseph Walks 
Along, Sr.
    Welcome, sir. We are glad to have you.
    Your statement will formally be placed in the record, and 
we are delighted to have you summarize your testimony today.
    Mr. Walks Along. Thank you.
    Good morning. My name is Joe Walks Along, Sr. I am the 
president of the Northern Cheyenne Tribe. Today I have one of 
the councilmen with me, Bernie Robertson.
    It is a pleasure to be here today to present our testimony 
before the House Appropriations Subcommittee.
    The Northern Cheyenne Tribe is a small tribe located in 
southeastern Montana. The enrollment is about 8,000. Our land 
base is approximately 450,000 acres. Unemployment is around 55 
to 65 percent, depending on the season.
    The Northern Cheyenne Tribe provides the following 
statement, and I am going to ask the councilman to make it.
    Mr. Robertson. Good morning.
    First of alternative, I would like to say over these last 
years Congress has helped us considerably in times of need--
helped us with a new public high school on our reservation, 
which is completed. Our kids are going to school, and our 
basketball team took fourth place in the State this year.
    Mr. Regula. Good.
    Mr. Robertson. We were beaten out by another tribe, 
Browning, and their best player, of course, was a Northern 
Cheyenne player. He is coming back to Lame Deer.
    Mr. Dicks. Good for you. [Laughter.]
    Mr. Nethercutt. Get your recruitment going.
    Mr. Robertson. You have helped us over the time with a new 
tribal office, which is complete. You have helped us with 
ratifying our water rights back in 1991, too. Since then, we 
have implemented the terms and conditions of that, which was 
working with the State of Montana and the Bureau of Reclamation 
in rehabilitating a dam, a $64 million project, and it is 
completed successfully.
    So, as we come before you, there are a lot of problems in 
this. We try to depend on some of the special interest groups 
that we belong to--Tribal Chairmen's Association, Inter-Tribal 
Health Boards, Native American Fish and Wildlife Society--to 
bring up the message and the issues, but we fight it out in the 
trenches.
    But we come today with some special interests, and dialysis 
is one. We have 8,000 members, of which we have about 6,000 
that live on the reservation. One in 14 is stricken with 
diabetes from early stages to late stages. Every family is 
faced with this problem, and it is not an older-person disease 
any more. We have kids in HeadStart before two years old on 
through the life span, and we are losing people in every area 
to this disease, and it is a progressive thing.
    We have started out----
    Mr. Dicks. How much would it cost to have a dialysis unit 
at the tribe? What would it cost?
    Mr. Robertson. We are asking for $500,000 for 2,500 square 
feet to add on to our health facility. Right now, our people 
travel from, depending on where you live on the reservation, 25 
to 125 miles a day, and a lot of them have to get up early in 
the morning, wait for everybody to go through, so it is just an 
existence. It is not really a life for a lot of these people, 
and we could sure appreciate the help.
    Mr. Nethercutt. Is that a result of diabetes in your 
population that they need dialysis?
    Mr. Robertson. Yes, it is. We need dialysis, and we are 
working on programs. A part of what was in our request, in 
working towards better foods, which we will raise on our 
reservation--we know what will go into them. Prevention is 
going to be the cure of the future, but for the time being and 
for a generation we are going to need to deal with what is in 
our community.
    With that, our fish and wildlife funding, one of the things 
is Bureau of Indian Affairs has not done anything for us, to 
speak of, for the last 100 years. Right now, if we were to take 
over what they have in the budget, it is $32,000. We own about 
99.8 percent of our reservation, which is 454,000 acres. We 
have no way to control it.
    Over this next six years, with the Lewis and Clark 
anniversary, with the Little Big Horn Battle anniversary, they 
expect up to 40 million people to come in through Montana, and 
they are going to be interested, and they are going to come on 
our reservation, and we are not prepared in any way to deal 
with just managing them for health, safety, and welfare, more 
or less the property of our reservation.
    So we support the new budget of the President, including 
$1.2 billion. It is too bad we could not get more, but we do 
support this.
    We do have an irrigation project that has been here for 
several years, and we ask for your help, and, again, on the 
education bill, that is an area we would like to have your 
support.
    Thank you.
    Mr. Nethercutt. Thank you very much.
    Mr. Walks Along. Thank you.
    Mr. Nethercutt. We will do our best.
    Any questions from either of you?
    [No response.]
    Mr. Nethercutt. All right. Thank you, gentlemen.
    [The statement of Mr. Walks Along follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                                           Tuesday, April 11, 2000.

                       ALAMO NAVAJO SCHOOL BOARD


                               WITNESSES

BURTON APACHE, PRESIDENT
MARCEL KIRKMANS, EXECUTIVE DIRECTOR
    Mr. Nethercutt. The next witness will be the Alamo Navajo 
School Board. Burton Apache is the witness today.
    Welcome, gentlemen.
    Mr. Apache. Good morning. It is good to see you.
    Mr. Nethercutt. We will make sure your statement is placed 
in the record. We are delighted to have you take a few minutes 
to summarize today.
    Mr. Apache. Okay. Thank you. Good morning, Mr. Chairman and 
members of the committee, Mr. Skeen. My name is Burton Apache. 
I am the president of the Alamo Navajo School Board, tribal 
organization of the Navajo Nation.
    Our school board organization does much more than run the 
BIA-funded school. Our ten-square-mile reservation is isolated 
in south-central New Mexico, 250 miles from the big 
reservation. Because of our remote location, the Navajo Nation 
and its political subdivision, the Alamo Chapter, authorized a 
school board to administer the education, health care, job 
training, HeadStart, and other community programs that serve 
nearly 2,000 of our people.
    On an annual basis, we operate over nine million Federal 
and State support programs.
    Here is a summary of our request: obtaining further detail 
about BIA proposed relocating of school facility maintenance 
funds into the construction facilities improvement and repair 
account. One is to fund school facility maintenance at $57 
million. Two, fund school facilities operations at $55.6 
million, as requested by BIA. Three, fund administrative cost 
grant at $57.9 million.
    We support the budget request for education facilities 
improvement and repair.
    Five is providing $150,000 for replacement of a fire truck 
on Alamo Navajo Reservation. That fire truck we have got there 
came from, like, World War I and only goes, like, 50 miles an 
hour.
    Mr. Skeen. With you pushing it?
    Mr. Apache. Pushing it, pulling it. And that thing has got 
a 700-gallon tank, and it shoots out 400 gallons per minute, so 
you have got to really aim at the flame. [Laughter.]
    Mr. Skeen. How is your aim?
    Mr. Apache. Not too good.
    For now, I have my executive director, Marcel Kirkmans. I 
will turn it over to him.
    Thank you.
    Mr. Kirkmans. Basically, all of our requests are an attempt 
to get the administrative cost formula up to 100 percent 
funding. The Bureau has asked for 80 percent. We are saying, 
``Let us bring it up to 100 percent.''
    Facilities operations and maintenance--I am sure the 
committee is aware of how many problems we have got in those 
areas. Alamo Navajo School Board has got $1.5 million now in 
backlog items that need to be repaired, which are items that 
cost in excess of $1,000 to repair, and this would not have 
happened, I think, if we had had facilities operation and 
funding at 100 percent of the formula instead of currently I 
think it is about 65 percent, and I know the proposal is to put 
it up around 70 percent. We need it at 100 percent, and so does 
every other school that is running it, whether it is the Bureau 
or contract and grant.
    So, basically, we are just going in and saying fund these 
formulas at the appropriate amount. You have spent an awful lot 
of money in developing the formula. Fund it.
    The fire safety issue we have with the fire truck is one 
that is real important, I think, to understand. The formulas 
for school operations do not include any dollars for fire 
prevention and training and equipment. Because of that, the 
Bureau has pulled that money out of facilities operation and 
maintenance to try to handle those issues individually at the 
Bureau-funded schools, and what is really needed is a funding 
mechanism so that all schools have the capability of getting 
that fire truck.
    We have $20 million worth of Federal facilities at Alamo, 
and the pump does pump out 750 gallons per minute, and there is 
only 450 gallons. We have got 45 seconds of water is what it 
amounts to, so it is a real problem. I think that last year we 
requested specifically to get some funding for a fire truck. We 
are coming to you again to do the same request.
    Basically, we need to get all of our programs funded at 100 
percent level, and we will do all right if we get that done.
    Mr. Nethercutt. You seem to indicate in your testimony that 
there is some concern about the BIA administrative costs. There 
is some criticism of your testimony, hearing the statement in 
that respect.
    Mr. Kirkmans. We have some concerns, in particular, about 
the Bureau moving funds from one area of the budget to a new 
area of the budget, and I have since--when we raised the issue 
initially, I talked to several Bureau officials, and we talked 
to Mr. Kaplan here, and he rather assured me that there is not 
a problem with this thing, and I hope that there is not, but we 
tend to get a little paranoid when the Bureau starts moving 
money around.
    Mr. Nethercutt. Thank you for your testimony.
    Mr. Apache. Thank you.
    Mr. Nethercutt. Mr. Dicks.
    Mr. Dicks. No thanks.
    Mr. Skeen. I want to say this is one of the most isolated 
tribes that we deal with in New Mexico, and thank goodness, for 
the kind of help that we get from you folks, particularly you 
and your education program and so forth. It is the most 
isolated place you could imagine, and they do everything they 
can do moving that pumper around over there with water. But 
they certainly have not wasted any money at any time. It is 
well applied.
    Mr. Nethercutt. Thank you, Mr. Skeen.
    Mr. Skeen. I am a great admirer.
    Mr. Nethercutt. Thank you very much for your testimony. We 
will do the best we can this year on a tight budget. We are 
going to do our best to help you.
    Mr. Apache. Thanks. But, with all respect, this is our 
council delegate, Christine Apache, for Alamo. Thank you.
    Mr. Skeen. There is a saying in the tribes over there, ``If 
you want a job done right, get a woman to do it.'' [Laughter.]
    Ms. Apache. Thank you.
    Mr. Skeen. But men get the last word, and that is ``Yes, 
ma'am.'' [Laughter.]
    [The statement of Mr. Apache follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                                           Tuesday, April 11, 2000.

                      LUKACHUKAI COMMUNITY SCHOOL


                                WITNESSES

PHILLIP BELONE, EXECUTIVE DIRECTOR
MARGE BEGAY, BOARD SECRETARY
    Mr. Nethercutt. The next witness will be the Lukachukai 
Community School, Phillip Belone, executive director. Welcome 
to you both.
    Mr. Belone. Good morning.
    Mr. Nethercutt. Good morning.
    Mr. Belone. Mr. Chairman and members of the subcommittee, I 
have never heard my fellow Native Americans talk so fast in my 
life. [Laughter.]
    I am going to try to match that.
    With me today is our board Secretary, Marge Begay. My name 
is Phil Belone. I am the executive director of the Lukachukai 
Community School Board of Education, which oversees BIA-funded 
schools serving 400 students from grades K through eight in our 
area of Navajo Reservation. I thank you for this opportunity to 
appear before you regarding several areas of concern to us in 
the fiscal year 2001 budget.
    We commend the BIA for their request in the area of new 
school construction for 2001, but behind this short list waits 
dozens of schools like our own with pressing facility needs 
that have yet to be even considered.
    The structures and utility system of our existing school 
facilities at Lukachukai are in extremely poor condition. My 
written testimony describes a laundry list of health and safety 
risks posed to our students by our current facilities.
    High-density archeological burial sites on the existing 
school grounds make construction to update or expand our 
existing facilities prohibitive and almost impossible.
    To counter these deficiencies, the Board of Education for 
the school proposes to construct a new facility to serve 450 
youths from the three communities we serve.
    The proposed new school at Lukachukai is project ready, and 
the need is great, but, to our dismay, we were ranked 66th on 
the BIA priority list for new school construction at this time. 
We ask your help in assuring that our pressing need for 
adequate school facilities is addressed promptly.
    In the meantime, some of our immediate needs for classroom 
space would be alleviated if the BIA would complete renovation 
of a large building on our campus that was begun several years 
ago but never completed. We estimate the remaining work would 
be accomplished for under $200,000. It is a waste for this 
building to sit unfinished when BIA has already devoted 
substantial Federal dollars to the renovation.
    Another issue that is of great concern to our school is 
formula funding for facilities O&M. These budget areas have 
been consistently under-funded, with the previous combined line 
item often barely covering utility costs for schools. Now, in 
BIA's proposed budget for fiscal year 2001, facilities 
maintenance has been merged into the budget for facilities 
improvement and repair. We are deeply alarmed by this shift as 
SI&R funds are distributed on a project-by-project, one-time 
basis. Any reduction in the already inadequate formula 
distribution facilities O&M would be devastating for contract 
and grant schools.
    We hope that you will ask the BIA to explain why the 
facility maintenance line item was removed from the school 
operations budget and what beneficial result will be obtained 
by this move. If this move will merely result in more BIA 
bureaucratic red tape, we ask that you reject that.
    In addition, funding for facilities and facilities 
operation accounts should be increased to $57 million each.
    BIA skimming of O&M funds--despite the acknowledged 
shortfalls in facilities O&M monies distributed to schools, the 
BIA has developed a troubling habit of skimming money off the 
top of a school's formula distribution. Currently, the 
education line officers have already established a distribution 
formula that covers costs for oversight and technical 
assistance provided to schools. Further skimming from schools' 
much-needed formula funds is thoroughly indefensible.
    Please include language in the fiscal year 2001 Interior 
appropriations bill to bar the BIA from skimming monies from 
the facilities O&M accounts.
    Administrative cost grants--administrative cost funding has 
been held at the $42.2 million level for three years. Despite 
the current shortfall, SC grants were increased by only four 
million in this year's budget request project to cover only 80 
percent of the need for AC grants.
    With more school planning to convert to grants status, 
shortfalls in funding for AC grants could even get worse in 
fiscal year 2000 if Congress does not increase the funding 
level to at least $57.9 million.
    Student transportation--Lukachukai is located at the 
foothills of Chuska Mountains, elevation 7,000 feet, with 
students spread among the three Navajo chapters over a radius 
of 20 miles. Access to our community is primarily via dirt 
roads. The closest bus maintenance and service location is 250 
miles round trip.
    The Bureau's request of $38.3 million for transportation in 
fiscal year 2001 falls far short of both the national average 
and the actual cost of student transportation for a school like 
ours. We have been forced to use a distressing 28 or 29 percent 
of our classroom funds to supplement our inadequate 
transportation budget. To prevent this, we ask that the BIA 
budget for student transportation to be at least $50 million.
    Thank you very much.
    Mr. Nethercutt. You did very well.
    Mr. Belone. I did not finish. And I practiced real hard, 
but----
    [Laughter.]
    Mr. Belone. Our language is spoken real softly.
    Mr. Dicks. I think you hit the O&M skimming too many times. 
[Laughter.]
    Mr. Nethercutt. Any questions from any of the Members?
    Mr. Hinchey. Well, you may have hit it too many times, but 
I want a little clarification on this further than what you 
have been able to do. What do you mean by ``skimming,'' and 
where are they skimming the money to?
    Mr. Belone. This year, sir, the operation and maintenance 
funds have gone to the education line officers on what we call 
normally the ``Bureau side,'' BIA. And then there is the Office 
of Indian Education Programs. The Office of Indian Education 
Program line officers have assumed responsibility for those 
funds to disperse to all of the schools; however, they took 5 
percent from my school, but I understand that it goes as high 
as 16 percent in some schools.
    Now, $25,000 might not mean much to a lot of places, but 
them taking $25,000 from my operation and maintenance makes a 
tremendous impact on my school. But if they were considering 16 
percent, that would mean about $80,000 from our O&M funding.
    Mr. Hinchey. And your transportation situation sounds 
pretty desperate?
    Mr. Belone. It is desperate.
    Mr. Hinchey. Taking money from the educational activities 
and putting it into transportation because of the needs there, 
the desperate needs there?
    Mr. Belone. Yes, it is. We are funded based on mileage, and 
we received only $130,000 for our transportation cost; yet, the 
actual cost is $180,000, so we spent about $50,000 more. We 
take that from our instructional funds, ISET funds.
    Mr. Nethercutt. Thank you very much. We are delighted to 
have you and we are going to do all that we can within our 
budget constraints to try to help as many as we can. I 
appreciate your testimony very much.
    Mr. Belone. Thank you very much, sir.
    Mr. Nethercutt. Thank you both.
    [The statement of Mr. Belone follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                                           Tuesday, April 11, 2000.

               NATIONAL INDIAN CHILD WELFARE ASSOCIATION


                               WITNESSES

TERRY CROSS, EXECUTIVE DIRECTOR
DAVID SIMMONS, POLICY DIRECTOR
    Mr. Nethercutt. National Indian Child Welfare Association, 
Terry Cross, executive director.
    Welcome, gentlemen.
    Mr. Cross. With me today is David Simmons, our policy 
director.
    Mr. Nethercutt. Welcome, Mr. Simmons.
    Mr. Cross. Mr. Chairman, members of the subcommittee, my 
name is Terry Cross, and I am the executive director of the 
National Indian Child Welfare Association. The Association is 
based in Portland, Oregon. We have a 23-member, all-Indian 
board, 400 members across the Nation. Our major job is to make 
sure that tribes are able to meet the needs of their children 
and families in the area of child welfare and children's mental 
health. We do three major areas of information exchange and 
training, building that capacity, providing technical 
assistance to tribes, and building programs, and also doing the 
policy analysis to keep them informed about what is happening 
at the national level.
    The National Indian Child Welfare Association does not 
receive any BIA or IHS dollars directly, and we have a strict 
policy to not take those dollars because we do not want to be 
in conflict or competition with tribes who believe those 
dollars ought to be directly out there in the community, so we 
raise it elsewhere.
    Now, I am here to recommend that the committee provide an 
increase of $4 million over BIA's 2001 budget request, from 
$11.5 to $15.5 million related to the Indian Child Welfare Act 
under the tribal priority allocations.
    Let me say why we think that increase is necessary and why 
we think it is not in the BIA's budget.
    The BIA's budget is based on what was spent last year. What 
they do is they send out to tribes, ``Here is how much money 
you have for the year. Here is 75 percent of it.'' A quarter 
later they say, ``How much have you spent'' and that is what 
the tribes get to spend for the year.
    At the end of the year they look at their budget and say, 
``Oh, my gosh, we spent this year this much, so that is how 
much to put in the budget for next year.''
    Meanwhile, since 1993, the Justice Department estimates 
that child abuse in Indian Country has raised 18 percent, while 
the funding for child welfare in Indian Country has stayed flat 
because of this way of budgeting.
    The Bureau of Indian Affairs provides virtually no 
information to the budgeting process or to anyone else about 
how many children are served, where they are, how long they are 
in care, and what happens to them.
    We know from historical data that one of the things that is 
most important for Indian children is to be able to be in their 
own homes and with their own families, but in this type of 
situation, where tribes are continually under-funded, children 
tend to go into care and remain in care, often outside of the 
tribal community because it is the only resort that the tribe 
has to get care for their children. We think that needs to 
change.
    The second aspect that we need to address today is to 
restore the historical funding of the Indian Child Welfare Act, 
title two, for off-reservation programs under the special 
projects and pooled overhead portion of the BIA budget.
    This is important, and often of hidden importance because 
it is in the urban settings that our Indian children tend to 
get lost to the tribal setting.
    There is a Federal law, as you know, the Indian Child 
Welfare Act, that is supposed to protect our Indian children 
from being placed outside of the tribal community, but there is 
no provision in that act for any kind of enforcement, so, 
unless you have somebody in those urban areas where our Indian 
people live watching what is happening at the State level, they 
tend not to pay attention to the act or they tend not to 
enforce the act, and the tribe, many, many miles away, unless 
they have somebody to call on in that urban area to be their 
advocate in the courts, are not going to be able, given the 
budgets that they have, to send people several hundred or 
several thousand miles to enter into a court process to return 
the jurisdiction of a child.
    Those programs that have now not been funded for the last 
several years need to be restored, because we continue to lose 
our children without those advocates in those urban communities 
and places.
    The next item I want to mention is mental health services 
under the Indian Health Services.
    The Indian Health Service, in their data in providing a 
budget, do not even have a count of how many Indian children 
have serious emotional disturbance. We estimate, from a study 
that we did in 1996, that as many as 25 percent of all Indian 
children are at risk for serious emotional problems. And if you 
take a look at the suicide rate, if you take a look at the 
dropout rate, you take a look at the gangs issues, all of those 
issues relate to mental health.
    For every 25,000 Indian children, there is only one 
practitioner in the BIA who knows how to work with Indian 
children and do any kind of diagnosis. That means a case load 
of 2,500 children, gentlemen. That is no way to provide 
services to Indian children.
    We do not even have a firm count. We do not know how many. 
We would request that you require both the Bureau of Indian 
Affairs and IHS to provide more-detailed information in this 
budgeting process. We think that is essential.
    Mr. Nethercutt. Thank you very much.
    You illustrate a very serious problem. Our State of 
Washington, at least in the east side of the State, has 
representatives on the Adoption Services Panel that participate 
when there is an Indian child involved so that they can make 
sure the tribes are protected adequately. I do not know about 
the rest of the States in the country, but at least our State 
does have that.
    Any questions from any Members?
    Mr. Dicks. Thank you for your very compelling testimony.
    Mr. Skeen. When you get your money from the Interior 
Department, evidently they are skimming some of that off the 
top before you ever get a hold of it?
    Mr. Cross. It is hard to tell, because there are several 
ways that that money flows out.
    Mr. Skeen. I understand that, but it is not always to 
remedy a problem that you folks----
    Mr. Cross. Right. It does not make it to the kids is the 
problem. Yes.
    Mr. Skeen. It becomes the Department of the Interior 
mandate.
    Mr. Cross. Right.
    Mr. Nethercutt. Thank you very much.
    Mr. Cross. Thank you.
    [The statement of Mr. Cross follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                                           Tuesday, April 11, 2000.

                      PORT GAMBLE S'KLALLAM TRIBE


                                WITNESS

MARIE HEBERT, SECRETARY
    Mr. Peterson [assuming chair]. We will next hear from Marie 
Hebert, secretary of Port Gamble's S'Klallam Tribe.
    Welcome, and good morning.
    Ms. Hebert. Good morning, Mr. Chairman and gentlemen.
    My name is Marie Hebert, and I am testifying in place of 
the Port Gamble S'Klallam tribal chairman, Ron Charles. I am 
the tribal secretary.
    I appreciate this opportunity to present this testimony 
regarding the President's fiscal year 2001 budget request for 
tribal programs in the BIA and IHS on behalf of the Port Gamble 
S'Klallam people.
    Our written testimony addresses four particular program 
areas for which the tribe urges Congress to support funding 
increases. I will summarize these four programs very briefly.
    Point No Point tribal wildlife program--the wildlife 
program serving the four Point No Point Treaty Tribes has 
become the premier tribal wildlife program in western 
Washington and has been critical in achieving the necessary 
cooperation between our tribes and the State for responsible 
wildlife management, particularly for the culturally-important 
elk herds on the Olympic Peninsula.
    The wildlife program has been funded since 1993 by a 
combination of grants; however, the source of funding is 
extremely precarious and it is impossible to conduct long-term 
planning without a permanent source of program funding.
    We request funding for this crucial program in the amount 
of $300,000.
    Cleanup of the Kitsap County landfill--100 percent of the 
Port Gamble S'Klallam Reservation in Washington State is held 
in trust by the United States for the benefit of the tribe. 
None of our lands have ever been individually allotted.
    In 1962, the Hansville Landfill was sited uphill from the 
Port Gamble S'Klallam Reservation by Kitsap County. For nearly 
40 years, virtually all of the hazardous chemicals from the 
landfill flowed directly into the reservation groundwater and 
soils. Although there has been monitoring of groundwater, we do 
not know how much pollution to expect or how long it will 
persist.
    It is also not known whether the pollution has impacted the 
tribe's drinking water or our shellfish and the salmon reared 
in our hatchery, both of which are important to our diet and 
our economy.
    We do know that three streams which flow by our reservation 
hatchery, our longhouse site, and homes of tribal members have 
been declared unsafe.
    It appears that at least 25 percent of the tribe's land may 
be subject to use restrictions to protect public health.
    We need financial and technical support for adequate 
sampling and monitoring of the reservation's environment, a 
risk assessment on the hazards to the health of tribal members, 
protection of our legal rights, and an alternate source of 
drinking water.
    Contract support--as a self-governance tribe, the Port 
Gamble S'Klallam Tribe has assumed the responsibility for 
delivering governmental services directly to the local 
community. The result of self-governance has been the more 
cost-effective and efficient delivery of services. Because of 
the contract support shortfall, however, the gains we make in 
program delivery have been significantly diminished.
    The Port Gamble S'Klallam Tribe has consistently been at 
the bottom of the heap on IHS contract support costs. Funding 
levels have been at 70 percent from 1994 through 1998, with a 
slight increase in 1999.
    The tribe waited for five years on the Indian self-
determination list for full funding, only to have the new 1999 
funds distributed to all tribes, rather than those that had 
been on the list the longest.
    We urge this subcommittee to support the proposed increases 
for fiscal year 2001 for contract support costs in both BIA and 
IHS.
    Tribal courts--finally, we urge the subcommittee to support 
the proposed increase of $1.3 million within BIA for tribal 
courts as initial funding pursuant to the Indian Tribal Justice 
Act of 1993. The Port Gamble S'Klallam Tribe's court is part of 
the Northwest Inter-Tribal Court system and hears cases on 
criminal, civil, traffic, child welfare, juvenile, domestic 
violence, hunting, fishing, housing, and adult protection 
issues.
    Adequate funding for our court and all tribal courts 
enables all tribal governments to provide the necessary 
judicial services to all the citizens of the reservation, both 
Indian and non-Indian, and to respect the civil rights of each 
individual in that judicial system.
    We hope that the Congress will look favorably on the modest 
but very important proposed increase for tribal courts.
    Thank you.
    Mr. Peterson. We thank the lady for her fine testimony.
    Does anyone have any questions?
    Mr. Dicks. Thank you for your statement. We will take a 
very close look at it.
    Mr. Hinchey. I have a question.
    Mr. Peterson. The gentleman from New York.
    Mr. Hinchey. With regard to this landfill, you said there 
is monitoring of the groundwater?
    Ms. Hebert. Yes.
    Mr. Hinchey. Who is doing that monitoring?
    Ms. Hebert. I think it is Department of Ecology, and 
Environmental Protection Agency has become involved in this 
issue.
    Mr. Hinchey. EPA is involved with it?
    Ms. Hebert. Yes, they have become involved.
    Mr. Hinchey. To what extent? Do you know the extent of the 
involvement? Do you have attorneys? Are you represented by 
counsel in this?
    Ms. Hebert. Yes.
    Mr. Hinchey. You are?
    Ms. Hebert. Yes.
    Mr. Hinchey. And is there a legal proceeding that is going 
forward?
    Ms. Hebert. We just responded to the RI, the remedial 
investigation, and we finally sent in our response to the 
Department of Ecology, and----
    Mr. Hinchey. The Washington State Department of Ecology?
    Ms. Hebert. Yes. And so that was turned in. And this has 
been ongoing for several years, this project. It has been----
    Mr. Hinchey. Yes. It has been there since 1962, hasn't it?
    Ms. Hebert. Right. And we have been really watching it, 
because it affects our land.
    Mr. Hinchey. And is your water supply from groundwater, 
from wells?
    Ms. Hebert. Yes.
    Mr. Hinchey. Are the wells located in down-gradient from 
the landfill?
    Ms. Hebert. Yes.
    Mr. Hinchey. And is the landfill contaminating the wells? 
Do we know that or not?
    Ms. Hebert. We hope not.
    Mr. Hinchey. Have the wells been checked?
    Ms. Hebert. We have been doing testing on our water. We 
test our water.
    Mr. Hinchey. You test the well water?
    Ms. Hebert. Yes, we do. We have a water system, water 
department, and they have been testing our water almost on a 
weekly basis, but we want to do more testing on the water just 
to make sure that there are not any bad toxins getting into it.
    Mr. Hinchey. Do you know the kind of tests that are going 
on? Are they testing for heavy metals?
    Ms. Hebert. We are not sure about that part of it. I am not 
really sure. I cannot say.
    Mr. Hinchey. I would like to find out more about it. Do you 
think you could put someone in touch with me?
    Ms. Hebert. Yes, sure, if you can give me your card.
    Mr. Hinchey. Sure. Thanks very much.
    Ms. Hebert. Thank you.
    Mr. Peterson. Thank you.
    Ms. Hebert. All right. Thank you.
    [The statement of Ms. Hebert follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                           Tuesday, April 11, 2000.

                       SAUK-SUIATTLE INDIAN TRIBE


                                WITNESS

JASON L. JOSEPH, CHAIRMAN
    Mr. Peterson. Our next witness will be Jason L. Joseph of 
the Sauk-Suiattle Indian Tribe.
    Please proceed. Welcome. Good morning.
    Mr. Joseph. Thank you. Good morning.
    My name is Jason Joseph. I am the Chair of the Sauk-
Suiattle Tribe. We have 245 tribal members and we are also a 
signatory to the Point Elliott Treaty in 1855.
    We had a land and survey done, but it was never finalized, 
due to the fact that the surveyor died. We were a landless 
tribe prior to 1980, at which time we purchased 23 acres for 
our reservation near the original homelands in the foothills of 
the Cascades.
    As a small tribe, our needs are magnified, as the basic 
tribal government support resources just are not available. All 
operations are under the grants and contracts, as there are no 
tribal funds, meaning shortfalls and reductions cannot be 
covered by the tribe.
    The requests for increase are to be added to the base 
begining in the fiscal year 2001 for the following, and the 
tribe's total request is $7.89 million.
    We are requesting $189,000 to be put to our tribal-based 
budget. We are also requesting that we get full 100 percent 
contract support.
    We are in a process now of requesting $3.5 million for an 
imminent threat to our reservation due to the river flow change 
that shifted over 50 yards.
    Mr. Dicks. Which river is that?
    Mr. Joseph. What is that?
    Mr. Dicks. What is the name of the river?
    Mr. Joseph. Sauk.
    Mr. Dicks. Sauk?
    Mr. Joseph. Yes. It is classified as wild and scenic, so we 
cannot really do anything as far as shoring it up.
    We have been lucky so far on the rivers that we have not 
had any real high waters as of the last two years. I mean, it 
is real close to our reservation now, to the point where we may 
have to do something about our septic system, as well as our 
well system.
    We are requesting $1.5 million for safe drinking to replace 
our water tower and piping system. We have a real hard water 
system right now. As a matter of fact, it has started chewing 
on some of our pipes and stuff, and it is time for change.
    We are also requesting $350,000 for cultural research 
funding for anthropological studies specific to our tribe, also 
for land acquisition studies and tribal history studies and 
restoring our language. We request that it be added to our BIA 
Office of Trust Responsibility account.
    We are also wishing to add $75,000 to our Indian child 
welfare program to cover for administrative staff and 
additional counselors to work with children in dysfunctional 
families.
    We are asking for $50,000 to be added to our housing base 
funding for HIP and administrative program management. We are 
getting a large number of our children becoming of age to where 
they will buy homes or get repairs done to their homes.
    We are working along with the U.S. Forest Service and 
Washington State on trying to save the mountain goats, and we 
are requesting $1.6 million for a six-year study and research 
so we do not lose that. It is culturally relevant to our tribe.
    We are requesting $100,000 be added to our BIA law 
enforcement for additional operation, increase in salary, 
equipment, training, and jail contract funds, and we also wish 
to have that moved back to the BIA TPA.
    We are requesting $50,000 for higher education scholarships 
and overall program money for our BIA education program for our 
tribe, because we have got a lot of kids that are moving 
towards college.
    We are requesting $375,000 to develop economic enterprises 
for places for our tribal members to go and work. We do not 
have any real hard dollars or any place for our tribal members 
to work nearby.
    We are requesting $100,000 to do a needs assessment, which 
is a one-time non-recurring cost to our TPA.
    We are also requesting streamlining of the fee-to-trust 
process, making it less complicated.
    We are also requesting for our 13 acres and 50.8 acres of 
tribal land that we just recently purchased, to get that put 
into trust.
    Thank you.
    Mr. Peterson. We thank you.
    Any questions?
    Mr. Dicks. No, but I appreciate your statement. We will do 
our best under difficult circumstances.
    Mr. Hinchey. Can I ask you when that survey was being done?
    Mr. Joseph. That was being done in 1894.
    Mr. Hinchey. In 1894?
    Mr. Joseph. Yes.
    Mr. Hinchey. And that was the original survey, which was to 
lay out the lands of the tribe?
    Mr. Joseph. Yes.
    Mr. Hinchey. As a result of the death of the surveyor, that 
was never completed, and so your lands were never laid out?
    Mr. Joseph. Yes.
    Mr. Hinchey. Consequently, you were landless as a result of 
that?
    Mr. Joseph. Yes.
    Mr. Hinchey. So simply, the act of failing to complete the 
survey, because the surveyor died----
    Mr. Joseph. Yes.
    Mr. Hinchey [continuing]. Left the tribe landless?
    Mr. Joseph. Yes.
    Mr. Hinchey. If that survey had been completed, you would 
have had some suitable property?
    Mr. Joseph. Yes. That would be correct.
    Mr. Hinchey. That was never corrected?
    Mr. Joseph. No.
    Mr. Hinchey. And you bought 23 acres?
    Mr. Joseph. Yes. We bought 23 acres, and then we had it 
converted to reservation status.
    Mr. Hinchey. And that is in danger of being flooded out?
    Mr. Joseph. Yes. And that is currently in danger of being 
flooded out.
    Mr. Hinchey. Thanks.
    Mr. Peterson. Thank you very much.
    Mr. Joseph. All right. Thank you.
    [The statement of Mr. Joseph follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                                           Tuesday, April 11, 2000.

                 NATIONAL INDIAN EDUCATION ASSOCIATION


                                WITNESS

JOHN W. CHEEK, EXECUTIVE DIRECTOR
    Mr. Peterson. Next we will hear from John W. Cheek, 
executive director of the National Indian Education 
Association.
    Good morning. Welcome.
    Mr. Cheek. Good morning, Mr. Chairman, Vice Chairman, 
members of the committee. My name is John Cheek, and I am the 
executive director with the National Indian Education 
Association. I am a member of the Muskogee Creek Tribe of 
Oklahoma and have been involved in Indian education for over 20 
years now.
    Our president, Dr. Gloria Sly, was unable to make it today, 
so I will be presenting testimony on behalf of the Association.
    As you are aware, the President's fiscal year 2001 budget 
recommended $1.2 billion in new funding for 2001. Over half of 
that is targeted for education programs across the different 
Federal agencies, including the Department of Education and the 
Bureau of Indian Affairs. Over half of the money going into 
that is designated for education, and over $300 million of the 
new dollars would be going into school construction, if that is 
allowed to be funded this year.
    NIA fully supports all the recommended increases in the 
different education programs for the BIA and also the 
Department of Education.
    What I will do now is just go through some of the different 
line items that we have presented testimony on and just make 
our recommendations. Even though we support the President's 
budget, we feel that there are areas that could use some 
improvement.
    Under the tribal priority allocation system, there is an 
adult education program that is recommended for funding at $2.5 
million. NIA recommends $5 million for that program.
    Adult education is a high priority for our Association, 
because we see that as the gateway to getting our Indian adults 
through their high school equivalency, and also give them the 
avenue to get into college.
    Back in 1995 and 1996, the combined total between the two 
agencies--Department of Education and Interior--for adult 
education was over $10 million. Now there is only $2.5 million 
allocated for adult education programs, and that is within the 
BIA system. So we would ask for an increase in that area.
    The Johnson O'Malley program provides supplemental services 
to over 270,000 Indian kids in local and public schools 
throughout the country. There has been a moratorium on the 
number of students that could be added to the program, and, as 
a result, many of the programs that I am aware of are serving 
more students with the same amount of funding that they had 
gotten even with less students, so we would recommend that the 
President's request of a little over $17 million for JOM be 
increased to 24 million.
    Scholarships are an obvious need in Indian Country. The 
request under TPA is a little over $30 million. We would 
request $35 million to ensure that our Indian adults have the 
opportunity to go to college.
    There used to be a scholarship program within the 
Department of Education that would allow applicants or awardees 
to go to any field. It was an open program where you could go 
into medical school, engineering, natural resources. That 
program has not been funded since 1996, and the funding in 
scholarships in the BIA did not go up to really compensate for 
that reduction on the education side.
    As a result, we have fewer dollars available for Indians to 
go to higher education, and the amount of money now that is 
going into scholarships serves approximately 20,000 Indians, 
and we understand, from the Department of Education, that they 
estimate there are about 130,000 American Indians attending 
higher education, so there is really a lack or a gap there in 
terms of funding. We are not sure how these students are 
getting to college. They are probably paying for a lot of the 
funding out of their own pocket.
    The National Indian Education Association considers 
education a trust responsibility of the Federal Government from 
grades K through 12, all the way through post-secondary and 
adult education, so we would like to see more money going into 
that area.
    We fully support the President's request for school 
construction. We know last year that the bonding initiative did 
not go through. We would like to see that money funded, because 
that would allow for some of the costs to be picked up by the 
different schools that have to secure the bonds and be able to 
pay them off eventually.
    In regards to other fundings, I will submit my statement 
for the record. I just wanted to make one mention of a tribal 
college concern that we just became aware of lately.
    As you are aware--and we have the AIHEC coming up shortly--
the tribal college amount in the President's request is $38 
million. We would request at least $40 million for that. We did 
some searching on the web of the historically-black colleges. 
One was Howard University here locally. On the website it said 
that they serve 10,000 students and their Federal appropriation 
was over $190 million. Tribal colleges serve about 25,000 to 
26,000 students, and Federal funding within BIA is a little 
less than $40 million. So there is an obvious gap there, and we 
would like to see that corrected.
    Thank you.
    Mr. Peterson. I have one question. Does anyone know whether 
they would qualify--you were asking how so many of those 
attended college.
    Mr. Cheek. Right.
    Mr. Peterson. Do they qualify for the normal Pell grants?
    Mr. Cheek. Yes.
    Mr. Peterson. So they would be able to get grants. So that 
is probably how it is happening, then. They are applying for 
the normal grants.
    Mr. Cheek. Probably, but we would like to see more 
scholarship opportunities really targeted for Indians, and we 
do not really consider higher education programs for American 
Indians to be race-based. They are more of a trust 
responsibility.
    Mr. Peterson. Sure.
    Mr. Cheek. You cannot really use an affirmative action 
argument in that.
    Mr. Peterson. Any questions? The gentleman from New York?
    Mr. Hinchey. You represent the elementary and secondary 
education interests as well as the college interests?
    Mr. Cheek. Yes. We represent all levels.
    Mr. Hinchey. How do you interact with the local school 
boards, for example? For example, the Alamo Navajo School Board 
in Navajo Station in Magdalena, New Mexico, do you interact 
with them?
    Mr. Cheek. Occasionally we do. They attend our convention. 
We hold an annual convention.
    We are a nonprofit association and we get our funds through 
memberships from individuals. So our funding every year 
fluctuates depending on sometimes where we are at and the 
number of people that join our Association.
    We do have a website where we get information out on the 
web, and we have had a lot of success with that.
    Mr. Hinchey. How would you describe yourself? Are you 
primarily an advocacy organization?
    Mr. Cheek. Yes. We are a national, nonprofit, advocacy 
organization, and we have over 3,000 members currently.
    Mr. Hinchey. Thank you very much.
    Mr. Peterson. Thank you very much.
    [The statement of Mr. Cheek follows:]
            [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 



                                           Tuesday, April 11, 2000.

              AMERICAN INDIAN HIGHER EDUCATION CONSORTIUM


                                WITNESS

DAVID M. GIPP, PRESIDENT
    Mr. Peterson. Next we will hear from Dr. David M. Gipp, 
president, American Indian Higher Education Consortium.
    Welcome. Good morning.
    Mr. Gipp. Thank you, Mr. Chairman. As you indicated, my 
name is David M. Gipp, and I am president of the American 
Indian Higher Education Consortium, and also president of my 
own institution, the United Tribes Technical College, where I 
have been serving for the past twenty-two-and-a-half years.
    Today our statement represents the 32 tribal colleges and 
universities throughout the United States.
    I would, Mr. Chairman, request that our statement be 
recorded for the record.
    Mr. Peterson. So ordered.
    Mr. Gipp. Our top priority has been and remains achieving 
full funding for what I will call the AIHEC institutions, for 
lack of spelling that out at every point. They receive core 
operation funding for title one and title two under the 
Tribally-Controlled College and University Act, commonly 
referred to as the ``Tribal College Act.''
    We are seeking full funding for the act under these 
authorized programs; however, we recognize the budget 
constraints that Congress is operating under and realize 
incremental increases in this area is a way that we can meet 
our goal over a period of time.
    Currently, these colleges are funded at about $34.2 million 
for this past fiscal year, but we are requesting an additional 
$10 million for title one and title two of the College Act, 
which would cover 25 of the 32 institutions that are covered 
under that part of the law.
    This modest request would result in funding title one 
tribal colleges at about $4,539 per full-time Indian student, 
slightly less than the average amount under which mainstream 
community colleges and universities operate, and only 75 
percent of the authorized amount of $6,000.
    Mr. Chairman, we also support the request by the Bureau of 
Indian Affairs for a number of other institutions funded under 
the Bureau of Indian Affairs. Those include the Haskell Indian 
All Nations University in Lawrence, Kansas; the Southwest 
Indian Polytechnic Institute in Albuquerque, New Mexico; the 
Crown Point Institute of Technology, which is located in 
eastern Navajo; and the United Tribes Technical College, where 
I am also the president.
    I am also requesting, Mr. Chairman, that a statement by 
United Tribes be submitted and entered into and accepted for 
the record.
    Mr. Peterson. Without objection.
    [Editor's note: See ``Additional Written Testimony'' for 
statement of United Tribes.]
    Mr. Gipp. We would request and support the request of the 
Crown Point Institute of Technology for 1.5 million, by the 
way, Mr. Chairman. We also support the additional request of 
$300,000 additional for the United Tribes Technical College.
    Getting back to Title One and Title Two colleges under the 
College Act, as you know, this act authorizes funding for the 
basic operating budgets of one qualifying institution per 
Federally-recognized tribe. It is funded basically on an Indian 
student formula basis. In order to qualify for such funding, a 
college must be fully accredited, or it must be recognized as a 
candidate toward that accreditation.
    The amount appropriated under the act has, unfortunately, 
never come close to the authorized level, as I indicated 
before.
    Despite an increase this past year, our colleges are funded 
at roughly $3,433 per full-time student, an amount far short of 
the $6,000 authorized by law. That is about 57 percent of the 
authorized level, Mr. Chairman.
    We appreciate the support, but, nevertheless, because we do 
not receive State appropriations or local tax-based dollars, 
there funds are very, very critical for our serving 
institutions.
    We serve over 25,000 American Indian students, by the way, 
throughout the Nation, and we are the fastest-growing, if you 
will, college population throughout the United States.
    I might add we do a far better job than even our mainstream 
colleagues. Although there are many commendable institutions 
out there, only 4 percent of our people graduate from those 
institutions at the four-year degree level. So the issue here 
is that we are doing, I would say, a better job in the sense 
that we are graduating a higher degree of our students, and 
more of them tend to be more successful when they have gone to 
four-year programs, by the way, so I would just add that as a 
note.
    Tribal colleges in many ways are victims yet of their own 
success. Dramatic enrollment increases, coupled with the 
growing number of tribally-controlled colleges, have forced us 
to cut the pie, if you will, into smaller pieces. Right now we 
have a number of upcoming colleges that are on the verge of 
coming throughout Indian Country, as well.
    We look at the kinds of increases we have had, and 
basically we have had about an average of a 1 percent increase 
over the past 19 or 20 years.
    I mention these things because they are very critical to 
get a perspective of what our request is about.
    One other misconception I want to point out is the fact 
that there are those who think that we are beneficiaries of the 
gaming issues. Frankly, only a handful of those tribes really 
are a part of that whole larger domain, and our colleges, for 
the most part, are not recipients of gaming funds.
    Mr. Chairman, that pretty much concludes our statement, but 
we would request that you take a hard look at the Interior 
appropriations, particularly as relates to all of the 
institutions that we have mentioned.
    Mr. Peterson. I have one question. What kind of programs do 
you offer at your technical school?
    Mr. Gipp. We are doing 14 different areas, things like 
tribal management. We are entering the field of computer 
technology, by the way, nursing, criminal justice, obviously 
the hard trades, which include things like construction 
technology, a wide range of nursing areas and health 
information technologies, by the way.
    Mr. Peterson. Okay. Thank you very much.
    Any questions?
    [No response.]
    Mr. Gipp. Thank you, Mr. Chairman.
    Mr. Peterson. Yes.
    [The statement of Mr. Gipp follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                                           Tuesday, April 11, 2000.

          CHIPPEWA-OTTAWA TREATY FISHERY MANAGEMENT AUTHORITY


                                WITNESS

FAITH A. McGRUTHER, EXECUTIVE DIRECTOR
    Mr. Peterson. Next we will hear from Faith A. McGruther, 
executive director of the Chippewa-Ottawa Treaty Fishery 
Management Authority.
    Good morning, and we welcome you. Please proceed.
    Ms. McGruther. Good morning, gentlemen.
    My name is Faith McGruther. I am the executive director of 
the Chippewa-Ottawa Treaty Fishery Management Authority, which 
is in the process of becoming the Chippewa-Ottawa Resource 
Authority. Thank you for allowing the time to outline my needs, 
and I would like to take this opportunity to thank you for your 
past support of our programs.
    The current funding that we have was created in 1981 to 
provide inter-tribal fishery management and regulation of the 
Great Lakes resource under the Treaty of 1836. Its member 
tribes then were the Bay Mills Indian Community, the Sault Ste. 
Marie Tribe of Chippewa Indians, and the Grand Traverse Band of 
Ottawa and Chippewa Indians. Funding for its activities was 
provided under the Bureau of Indian Affairs.
    There are seven components under that: biological, 
conservation, enforcement, information, education, access to 
the water, and administration.
    COTFMA operates under an annual budget of $1,858,000. It is 
all included in base funding to its original member tribes, two 
of which have gone to self-governance--the Sault Ste. Marie 
Tribe and the Grand Traverse Tribe. Both of these tribes enter 
into subcontracts for the seven components under the program 
each fiscal year.
    It is kind of deceptive in the green book, because it 
appears like our budget is $680,000, but that is because of the 
self-governance. It only shows the money that comes down to the 
Bay Mill Community.
    The Little River Band of Ottawa joined the management 
authority in 1998 after they were Federally-recognized, but 
they have yet to receive any base funding for these seven 
components. Its programs have had to be provided by COTFMA with 
no additional funds to us, which has over-extended our staff 
and our funds and has put a tremendous burden on us.
    COTFMA member tribes have made a commitment to create a 
successor organization named the Chippewa-Ottawa Resource 
Authority, or CORA, to manage and regulate the harvesting of 
fish, wildlife, and plants on the lands and waters subject to 
the usufructuary rights reservation in article 13 of the Treaty 
of 1836. The Little Traverse Band, which at this point is not a 
member, have also made this commitment, which has resulted in a 
2001 request on behalf of all five tribes.
    All five tribes are plaintiffs in the Great Lakes treaty 
fishery case known as United States v. Michigan. In 1985, a 
consent order was entered by the court which addressed 
allocation issues among the parties. It expires May 31 of 2000.
    The tribes filed their proposal for a successor agreement 
in January, 1999, and have engaged in negotiations with the 
State and the United States concerning this subject since April 
of 1999. Joint reports to the court on the status of these 
discussions were made in June and September of 1999. six months 
ago, the parties also voluntarily engaged the services of a 
mediator, who has facilitated their discussions and 
negotiations for a successor agreement.
    The Federal court has permitted the parties to exclusively 
negotiate. A litigation schedule has been amended several times 
over the last six months to free the parties from the demands 
of litigation preparation. A final extension was granted by the 
court on March 21, 2000, which requires the parties to resolve 
the issues concerning nature and scope of a successor agreement 
by May 20 of 2000.
    Under these seven components that the management authority 
has, Little River and Little Traverse have not been able to 
fully participate. The $2,232,548 I am requesting as an add-on 
to our program would allow for the Little Traverse Band 
$728,270 to establish a base program, and for the Little River 
Band, $838,860 to establish a base budget. This would allow 
them to have ongoing programs each year in their base.
    The strong point I want to make here is this is the third 
year I have come. We knew that these tribes were coming in as 
soon as they were Federally-recognized. They had treaty rights 
to fish and hunt. So this is my third year asking for a base 
budget for these programs.
    Especially with this consent agreement coming to an end and 
being renegotiated, these tribes need base programming.
    I thank you for your time and hope that you will seriously 
consider this.
    Mr. Peterson. Thank you, Faith, for your fine testimony.
    Mr. Dicks. Thank you.
    Mr. Peterson. Any questions?
    Mr. Hinchey. I would like to ask you about the United 
States v. Michigan. You are coming up on a deadline on that 
pretty quickly?
    Ms. McGruther. Yes.
    Mr. Hinchey. Is that going to be resolved, do you think?
    Ms. McGruther. We do not know. The judge has said that at 
that May deadline he will not give another extension unless 
there are very serious, strong extenuating circumstances, so it 
is going to be fish or cut bait, if you will excuse the pun.
    Mr. Hinchey. So what happens if you do not get an 
extension?
    Ms. McGruther. We will have to litigate. We will not have 
any choice.
    Mr. Hinchey. And if you go into litigation, what are the 
immediate consequences of that?
    Ms. McGruther. I am not sure. The judge did----
    Mr. Hinchey. Will the fishery rights continue?
    Ms. McGruther. Yes. The judge did extend the regulations 
that they had been fishing under for the past 15 years. He kept 
that in place in the January hearing. He put that into place 
for the fishing year of 2000, so, no matter what, they will 
still be fishing under those regulations while we litigate.
    Mr. Hinchey. Thank you.
    Mr. Peterson. Thank you very much.
    [The statement of Ms. McGruther follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                                           Tuesday, April 11, 2000.

                         QUINAULT INDIAN NATION


                               WITNESSES

PEARL CAPOEMAN-BALLER, PRESIDENT
JOSEPH DAVIS, FIRST COUNCILMAN, TRIBAL COUNCIL
    Mr. Peterson. We will now hear from the president of the 
Quinault Indian Nation, Pearl Capoeman-Baller.
    Good morning and welcome.
    Ms. Capoeman-Baller. Good morning. Joining me this morning 
is Mr. Joseph Davis, first councilman for the Quinault Indian 
Nation Tribal Council.
    Mr. Davis. Good morning.
    Mr. Peterson. Good morning. Welcome.
    Ms. Capoeman-Baller. Mr. Chairman, thank you for inviting 
me to appear before this committee again this year. I would 
like to report that, since I was here last year, all of the 
issues that I spoke about have been corrected, but that is not 
the case. Our issues continue to be the same, and some of them 
have even gotten worse throughout this past year.
    The Quinault Nation urges the members of this committee and 
other Members of Congress to support the Administration's 
entire budget request for Indian Country. Every additional 
dollar included in the Administration's proposal is needed. 
This budget request recognizes the changes that must occur 
within the systems of our trustee, especially in the area of 
trust fund management, as well as within our tribal community, 
but we know that the needs of Indian Country have been 
neglected for far too long, and this increase in resources will 
not result in an equal amount of positive change.
    The problems that we face as tribal leaders are complicated 
and expensive to fix. We know that we are far behind the rest 
of the country in almost any measure of quality of life and 
opportunity for our people. Although this budget request 
represents more support for tribal programs that we have had or 
seen historically, we know that the difference between what we 
can provide for our people with these resources and their unmet 
needs will still be unacceptable.
    As you have heard several times today, the increases 
requested are very much appreciated, but we need more. In the 
IHS budget, alone, although this year the Administration 
requested significant increases and the budget has increased 
slightly each year, there has been at least an 18 percent 
decline in the purchasing power of IHS dollars in the past five 
years.
    Health services for Indian people have always been at the 
lowest levels per capita of anyone in the country. Inflation 
and inadequate infrastructure have eaten up any gains that 
should have been resulted from the increase in raw dollars.
    The President called this country's attention to the 
conditions that exist in many Native communities when he 
visited the Pine Ridge Reservation last July. The President 
said that the Federal Government wants to know what we think 
should be done for our community. It seems that he might have 
listened, because the Administration's budget request for 
Indian Country does bring more resources to problems we have 
lived with for a long time--problems like not enough police and 
inadequate health, education, and housing opportunities.
    The decisions you will be making about the Administration's 
budget request and the testimony that you are hearing today 
will let us know if Congress is listening, too.
    Like you, part of my job is to listen to what my 
constituents have to say. About two weeks ago, the Quinault 
General Council met and they reminded me that their highest 
priority was to assist our elders on our reservation. They 
would like to see us build an assisted living center. There is 
no facility near the reservation that our elders can reside in 
and be near their families and have better health care and 
better access to tribal programs. We have not accomplished any 
of the things that our elders wanted us to do. I am asking this 
committee to help me to find a way to accomplish this task.
    In fiscal year 2000 we are asking for $350,000 to plan and 
design an elders assisted living center.
    Two weeks ago, I was told that our tribal members who live 
in our other main village of Queets are very discouraged 
because they have become even more isolated than they were 
before.
    Our reservation used to have a bridge that connected the 
main villages. Because of the storms last year, the bridges 
were washed out. What took 30 minutes to give us access to each 
other now takes two hours each way for our members to connect, 
to there is a major distance factor there.
    And then, with the State initiative, I-695, that happened 
in the State of Washington, the transit system is shutting down 
all access to both villages on the reservation, so we really 
would like to be able to communicate our main villages through 
better roads and telecommunications.
    Adding to the sense of isolation is the fact that the 
economy in Washington State is the best it has ever been, 
except in the most rural areas. Our reservation is located on 
one of the most economically-depressed areas of the United 
States. For the Queets people, the only employment available is 
with the tribal government or as fishermen, but with the time 
factor to commute to work and the small building from which our 
fishermen in Queets sell their catch is dangerously unsafe, but 
because it is the only place available, they continue to use 
it.
    In order to break down the communications and economic 
walls that isolate my tribal members, we need help to build new 
facilities and infrastructure. We are asking for $500,000 to 
build a safe buying station in Queets, $200,000 to install 
needed telecommunication systems, and $250,000 to retrain our 
tribal fishermen so they do not have to depend on the dwindling 
salmon resources to survive.
    Finally, as members of the Washington State delegation are 
well aware, the Quinault nation has worked patiently for five 
years to resolve a dispute between the Department of the 
Interior and the Nation over the use of tribal lands for 
endangered species. Because of this dispute, money and jobs 
that were once the mainstay of our economy have disappeared.
    Although I am very frustrated at how long it has taken to 
find a solution to this dispute, I look forward to continuing 
to work with members of this committee to see solutions to 
this.
    Thank you very much.
    Mr. Peterson. Thank you very much.
    Any questions?
    Mr. Dicks. Thank you for an excellent statement. Hopefully 
we will have a chance to get together tomorrow and discuss 
certain aspects of this.
    Ms. Capoeman-Baller. Thank you.
    Mr. Peterson. Thank you very much.
    Mr. Dicks. Congratulations on your re-election, too.
    Ms. Capoeman-Baller. Thank you.
    [The statement of Ms. Capoeman-Baller follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                                           Tuesday, April 11, 2000.

                       JAMESTOWN S'KLALLAM TRIBE


                                WITNESS

W. RON ALLEN, CHAIRPERSON/EXECUTIVE DIRECTOR
    Mr. Peterson. Next we will hear from W. Ron Allen, 
Chairperson/Executive Director of the Jamestown S'Klallam 
Tribe.
    Mr. Allen. Good morning, Mr. Chairman.
    You have my testimony, and I request that it be submitted 
to the record.
    It is always an honor to be here to share with you some of 
the concerns that we have for our tribe in Washington State. We 
are a sister tribe to the Quinault Nation. We only live a few 
hours away from them.
    Our tribe has three specific priorities that we are asking 
this Administration to consider, or this Congress. The first 
one is dealing with the health and dental plan that we are 
asking. It is a one-time cost. We have very modest little 
health clinics right now, and we have some huge needs for 
dental services, as well. We would like to construct a facility 
on our site that would accommodate both the dental and the 
health services. It is a one-time cost. We have been doing a 
lot of the planning for it, and so we have got it narrowed down 
to what we believe the cost would be for this particular 
project.
    The second aspect of it is relative to our overall 
projections of what we are needing for our community. We have 
asked for a number of years now for assistance in some land 
acquisitions that is adjacent to our reservation. We have a 
small, four-acre reservation and there is a four-acre piece 
that lies next to us, and there is a ten-acre piece that is 
very close to us. The two go hand-in-hand. One is relative to 
the actual facilities we need for our operation for community 
facilities and for additional operational/programmatic needs 
that we have for our tribe, and the other one is for 
infrastructure because we live right on the bay on North 
Olympic Peninsula in Washington State and we need to get our 
infrastructure for our sewage and water system off of the bay 
and back behind us, upland. There is an ideal piece that is 
behind us that is ten acres, and we are seeking assistance from 
the Congress to help us purchase that property so that we can 
develop that infrastructure for the future of our tribal 
operations.
    The third item is a modest one. Because of requirements 
from EPA and IHS and other Federal agencies, we are required to 
establish a sewage and water treatment program, and so we are 
asking for a base adjustment to accommodate that cost for that 
responsibility, which is $35,000.
    Locally, we are a part of a consortium called the Point No 
Point Treaty Council, which represents four tribes that manage 
our treaty fishery and hunting responsibilities. We have a very 
modest hunting program. The program is being jeopardized, and 
obviously we have a very large wildlife operation for elk and 
deer and wildlife in our area, and so we are asking for a base 
adjustment for that program of $300,000.
    We continue to support the recommendations of the Northwest 
Affiliated Tribes of Indians and the Northwest Portland Area 
Indian Health Board and the Northwest Indian Fish Commission, 
who have come to this committee making requests specific to 
those particular matters that affect all of our tribes in the 
northwest.
    I also want to emphasize that we really believe, as a 
tribe, as a part of the self-governance initiative, that we 
believe that the $1 million for planning grants for tribes that 
are moving into self-governance needs to be restored. Those 
tribes that want to engage in that effort need those resources 
and they need resources in order to plan and prepare for 
entering into the self-governance initiative.
    The second item, which we also think is important 
nationally, is the contract support issue, which has always 
been an issue that we discussed extensively here. We believe 
that we should close the gap. Quite frankly, these are 
contractual obligations the United States Government has to the 
tribes. We have worked for 15 years on this particular topic. 
We have justified over and over why it is appropriate and 
right, and we believe that for $25 million we can close the gap 
on the BIA.
    We believe the Administration has not asked for enough and 
we think that Congress should help us close that gap.
    On the IHS side, we are very appreciative of IHS asking for 
$40 million more, but we believe that we have got to close that 
gap. It is a much bigger set of contracts, and we need $60 
million to close that gap in terms of closing that agenda.
    There are some other initiatives in here--you can read them 
for yourself--in terms of what we believe should be adjusted. 
Some are very significant. The 200 million, in terms of 
inflationary cost and increased population cost to our 
operation, it is a big deal to us and we think that there has 
been a great deal of oversight on that matter.
    Now, my last point, Mr. Chairman, would be that we have 
worked hard with IHS to put together a CSC policy, and we have 
been in an interesting tug-of-war here between the Congress and 
the tribe and the Administration over that policy.
    We believe we have done a good job, and we believe that it 
is very respectful of the government-to-government 
relationship, and we would hope this committee would work with 
us in solidifying a policy we think that is fair and reasonable 
for all tribes and provide certainty about how we will deal 
with this subject matter in the future.
    Mr. Peterson. Thank you very much for being right on time.
    Do you have any questions?
    Mr. Dicks. Thank you again, Ron, for being here. We look 
forward to working with you this year.
    Mr. Allen. Thank you, Congressman.
    [The statement of Mr. Allen follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                                           Tuesday, April 11, 2000.

                     LUMMI INDIAN BUSINESS COUNCIL


                               WITNESSES

WILLIAM E. JONES, CHAIRMAN
CAROL HALERA, COUNCILWOMAN
    Mr. Peterson. We next have William E. Jones, chairman of 
the Lummi Indian Business Council. It is still good morning, 
and welcome.
    Mr. Jones. Good morning.
    This is Carol Halera, a councilwoman for Lummi Nation.
    Mr. Peterson. Thank you for coming.
    Mr. Jones. Thank you for the opportunity to testify. My 
name is Willie Jones, chairman of the Lummi Nation.
    Our first request is for our replacement school 
construction program. We are requesting $18 million, $2.4 
million over and above the original, based on our student 
count, and we had to go out and do a student count in our 
community and get them--what do you call it--notarized and sent 
in to Albuquerque, so our new number is 750. That is what we 
are basing that number on, and so that is what we are 
requesting. We are number two school in the new division, so I 
wanted to explain what that was.
    Also, we are requesting a Semiahmoo reinterment recovery 
project, $3.5 million. We have had our tribal cemetery--the 
city of Blain built a sewer plant over our cemetery and 
disturbed 100 burials, and they removed 100 cubic meters, or 
the equivalent of 450 truck loads, out of there onto a site 
seven to eight miles away from there to private property. The 
person that got the material thought that he was receiving 
landfill. That was okay. And so now he is suing the city of 
Blain and we cannot do nothing with our landfill, so there are 
all kinds of complications going on there. But, in the 
meantime, our ancestors are out in the open and we need help 
and support to get our ancestors re-buried, and so we are 
asking support for this.
    We are asking for water and sewer infrastructure planning 
money, $750,000. Lummi Reservation supports a population of 
about 5,200 people, which has pushed the water system to their 
capacity, and we want to redesign and upgrade and, in the long 
term, we want to do additional treatment capacity water source 
location development.
    Lummi Nation recommends an IHS sanitation facilities 
construction program to receive earmarked funds to support 
tribal planning, water delivery, and sewage treatment system 
infrastructure to assist the project on the Lummi Indian 
Reservation.
    Those are the three major ones. The other ones are there 
and you can read them for yourselves, but those are our top 
three priorities. But we also believe in the regional areas of 
the Affiliated Tribes Northwest, the Portland Area Indian 
Health Board, and the Northwest Indian Fish Commission, all of 
the stuff that they recommend, we support wholeheartedly.
    Mr. Dicks. What has happened with the Fraser River Fishery?
    Mr. Jones. We had none this year. The sockeye salmon, we 
did not have one day of fishery. It is a total disaster. That 
is one of our requests down there for next year.
    Mr. Dicks. Do you have any idea what happened?
    Mr. Jones. I think it is the combination of things, but it 
is the El Nino that happened three or four years ago that 
happened two years in a row, and we can expect it again this 
coming year. It is going to be a bad year this coming year, and 
so these two years are--I mean, last year we expected one or 
two days fishing. A lot of people invested their money in the 
fishing, and I am talking everybody. This is not just Indian. 
This is everybody.
    Mr. Dicks. Right.
    Mr. Jones. They invested their money in fishing, and we did 
not have any fishery, so it was a total disaster. We got people 
losing their boats and homes and it is a total disaster, and so 
I would like to really have you take a good look at that. We 
are putting a lot of training and a lot of--we have a college 
and everything there, and we are putting a lot of effort into 
that and any support that we can get in that area.
    We have been back here two or three times already asking 
for help on that, and we came back and asked FEMA to look at 
their appeal. I would think anything you can do in that area--I 
think they are looking at that now, so we should have an answer 
on that pretty soon.
    Mr. Dicks. Thank you.
    Mr. Peterson. Thank you very much.
    Mr. Jones. I would like to thank you for allowing us the 
time.
    Mr. Dicks. Thank you.
    Mr. Peterson. Thank you very much.
    [The statement of Mr. Jones follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Peterson. Next we will hear from Don Abney, principal 
chief, Sac and Fox Nation.
    [No response.]
    Mr. Peterson. Next we will have Art George, chairman of 
Nooksack Indian Tribe.
    [No response.]

                                 --------




                                           Tuesday, April 11, 2000.

                      HOOPA VALLEY TRIBAL COUNCIL


                                WITNESS

DUANE SHERMAN, SR., TRIBAL CHAIRMAN
    Mr. Peterson. Next we will have Duane Sherman, Sr., tribal 
chairman, Hoopa Valley Tribal Council. Good morning and 
welcome.
    Mr. Sherman. Good morning. Or good afternoon, I guess.
    Mr. Peterson. No, we are still morning.
    Mr. Sherman. [Remarks in native tongue.]
    Just a little greeting there in Hoopa.
    Good morning, Mr. Chairman and honorable members of the 
House Appropriations Subcommittee, Interior and Related 
Agencies. I am Duane Sherman, Sr., chairman of the Hoopa Valley 
Tribe. I appreciate the opportunity to provide testimony on the 
fiscal year 2001 budget in relationship to the Bureau of Indian 
Affairs.
    I will try to summarize and be as brief as possible in my 
testimony as it follows.
    The Hoopa Tribe supports the BIA community development 
technical assistance grant program and requests that $200,000 
be appropriated to the Hoopa Valley Tribe's continued tribal 
business code development project. The Hoopa Tribe also 
supports the increase in the BIA's probate program and requests 
that $240,000 for the California Trust and Reform Consortium 
probate project.
    The Hoopa Tribe also requests the subcommittee to reject 
the Administration's proposal to remove road maintenance, the 
home improvement program, and the general assistance and 
contract support from tribal-based budgets.
    Just to give you some background, the Hoopa Valley Indian 
Reservation consists of approximately 92,000 acres and is 
located in the remote mountains of northern California. The 
Hoopa Valley Tribe was one of the original tribes to 
participate in the self-governance demonstration project when 
it was first authorized in 1988. Since then, some of our 
successes under the project have been with or in relationship 
to on-reservation activities that were previously handled or 
contracted by the Bureau of Indian Affairs. The Hoopa Tribe has 
completed almost nine Federal Highway Administration road 
projects, administering agreements with the Bureau of 
Reclamation for the management of Trinity River fish and water 
resources since 1992, and, using both the technical expertise 
and funds acquired under the self-governance initiative, we 
have developed and implemented comprehensive tribal business 
codes that allow our individual tribal members to establish 
business ventures under tribal law using our business codes to 
create innovative methods to attract outside businesses to the 
reservation. We are presently projecting 170 new, non-local, 
non-timber, non-gaming jobs by the end of this year, and 470 
new, non-timber, non-gaming jobs within three years.
    As I testify before you today, I am awaiting confirmation 
from one of our private businesses incorporated under our 
tribal business codes that has secured a multi-million-dollar 
loan to construct and operate a manufacturing plant on the 
reservation. This new plant is expected to start its business 
this August.
    Mr. Chairman, I cannot emphasize enough that none of these 
successes could have been or become a reality without the 
continued support of the tribal self-governance initiative by 
this subcommittee.
    With respect to my appropriations request, I would like to 
offer the following testimony for your consideration: that this 
committee support the BIA community development technical 
assistance grant program and research $200,000 for the Hoopa 
Valley Tribe's business code project.
    As mentioned earlier, we are a remote area that has a total 
population of approximately 10,000 residents, many of which are 
of Native American descent. Like most Pacific northwest 
communities, our area has suffered from a loss of jobs and 
community-based economies following the downturns in the timber 
markets. In more recent years, the environmental and endangered 
species concerns have further dampened or damaged our area's 
economy.
    Today, according to the BIA's Indian labor force data, the 
unemployment rates for the Hoopa, Yurok, and Karuk Tribes are 
64 percent, 75 percent, and 61 percent respectively. 
California's average Native American unemployment rate is over 
50 percent. Employment and business opportunities for non-
Indians, both on and off the reservation in our area, are just 
as staggering. The combined effect, with our remote location, 
limited community infrastructure, and limited labor force, and 
confusion about Federal, State, and tribal jurisdictions, have 
made it extremely difficult to attract new businesses.
    Approximately three years ago, the Hoopa Tribe initiated 
and funded a project that was designed to find ways to overcome 
many of the limitations in our area. A key part of this project 
was finding ways to identify new and innovative ways to offset 
past problems by using the sovereign powers of the tribe, and 
one of these has been the development of the tribal 
comprehensive business codes. These codes have been designed to 
allow local businesses to be governed by regulations that are 
more compatible with the needs of our local community.
    I am pleased to report that with this we expect 170 new, 
non-gaming jobs.
    Mr. Peterson. You have about a minute left.
    Mr. Sherman. I would just ask further that this committee 
support the BIA's probate program and request $230,000 for the 
California Trust Reform Consortium's project, as well as 
request that the subcommittee reject the Administration's 
proposal to remove road maintenance, housing improvement 
program, general assistance, and contract support from these 
tribal base budgets.
    That is all.
    Mr. Dicks. Thank you.
    Mr. Peterson. Thank you, Duane.
    Any questions?
    [No response.]
    Mr. Peterson. We thank you very much.
    Mr. Sherman. Thank you.
    [The statement of Mr. Sherman follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                                           Tuesday, April 11, 2000.

                 NORTHWEST INDIAN FISHERIES COMMISSION


                               WITNESSES

BILLY FRANK, JR., CHAIRMAN
TERRY WILLIAMS
JIM ANDERSON
    Mr. Peterson. Next we will have Billy Frank, Jr., chairman 
of the Northwest Indian Fisheries Commission.
    Good morning. It is still morning. Welcome.
    Mr. Frank. Good morning, Mr. Chairman. I see my Congressman 
sitting right over here.
    Mr. Dicks. Welcome. It's always good to see you.
    Mr. Peterson. If you need some help keeping him straight, 
let us know.
    Mr. Frank. Yes.
    Mr. Peterson. He is a pretty good guy.
    Mr. Frank. Mr. Peterson, has he invited you out to the 
northwest?
    Mr. Peterson. Oh, yes. Continually.
    Mr. Frank. Good.
    Thank you. I am Billy Frank, chairman of the Northwest 
Indian Fisheries Commission, on behalf of our tribes in the 
northwest. With me today I have Terry Williams here, and he is 
going to do some shellfish talking, and I have Jim Anderson 
that will talk a little bit about our timber and our 
management, and then I will say the last word.
    Mr. Peterson. Okay. Please proceed.
    Mr. Williams. Mr. Chairman and members of the committee, it 
is, indeed, a pleasure to be here. My name is Terry Williams. I 
am with the Tulalip Tribes and also a member of the Northwest 
Indian Fisheries Commission.
    I just wanted to speak briefly about our shellfish 
initiative. We are looking for support in funding for $6.5 
million for implementation of the court order that has been 
decided in the shellfish case. There are a couple outstanding 
issues, but about 95 percent of the case has been resolved now.
    The funding is towards management, enforcement, and 
implementation of this court order. The court order basically 
addresses, for our tribal concerns, commercial, ceremonial, and 
subsistence types of harvest; also, to address the sharing 
arrangements between the tribes and the State of Washington.
    In the sharing arrangements, we were required to develop 
management plans for each species. That means literally dozens 
of species that need to be worked through in terms of process 
and functions of these planned development steps that are 
identified by the court order, and each one of these steps 
needs to be not only identified, but, in terms of regulations, 
how we structure those and how we follow through with 
enforcement on the ground.
    Mr. Peterson. Please proceed.
    Mr. Anderson. I am Jim Anderson. I am the executive 
director at the Fish Commission. I would like to talk about the 
timber, fish, and wildlife funding needs for the tribes.
    During the past several years, detailed negotiations 
occurred regarding timber practices and their impacts on 
salmon. As you know, there is an Endangered Species Act, a 
series of listings that are impacting all of us in the 
northwest, and this negotiation was aimed at putting in place a 
State-wide response to that on forested lands.
    The tribes, as co-managers, have a very strong habitat 
interest and need additional resources in order to participate 
in the perfection of this agreement and the ultimately 
development of that into a habitat conservation plan.
    Last year we received $3.048 million as a result of this 
committee's support. We are seeking that amount plus an 
increase of one million dollars for further adaptive management 
and monitoring work.
    Finally, I just would like to hand over a preliminary 
report regarding accountability. We have heard from this 
committee that you all are concerned about what we and others 
are doing in terms of resources that we are receiving for 
salmon, and this is a start, just a very preliminary start, at 
reporting information to you on a fairly regular basis, 
consistent with what we understand to be Congress' interest of 
keeping track of these monies and knowing what is going on.
    We can talk with you more about that later.
    Mr. Frank. Mr. Chairman, I just want to thank the committee 
again for us. We come here every year and ask for money for our 
management, for infrastructure, and that is working with the 
State, the Federal Government, all the neighbors, the local 
government, and everyone.
    United States v. Washington is 26 years old now, and we 
just went through a shellfish--the United States Supreme Court 
would not hear the shellfish case, so that is all done now. It 
is behind us. Now we have to go forward and try to implement 
that decision, but also manage with the local governments and 
private landowners and everyone.
    And so we are here to work with the local people and keep 
moving forward and kicking the can down the road, and we will 
be back next year to tell you some good things about all the 
money that you gave us and we will have a report for you.
    Mr. Peterson. We thank you for your candid testimony.
    Mr. Dicks. Thank you. We look forward to having further 
discussions on these issues.
    Mr. Peterson. Yes.
    Mr. Frank. Thank you.
    Mr. Peterson. We appreciate your doing it.
    Mr. Dicks. We appreciate the report, too.
    [The statement of Mr. Frank follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                                           Tuesday, April 11, 2000.

               TLINGIT AND HAIDA INDIAN TRIBES OF ALASKA


                                WITNESS

EDWARD K. THOMAS, PRESIDENT
    Mr. Peterson. Now we are officially after noon. For the 
final witness for this morning half, Edward K. Thomas, Tlingit 
and Haida Indian Tribes out of Alaska.
    Good afternoon, and welcome.
    Mr. Thomas. Good afternoon. Greetings from Alaska, Mr. 
Chairman. I want to thank you for the opportunity to provide 
this testimony today.
    I have some written testimony that has been disseminated, 
and my comments are beside that.
    I also want to thank the committee for the amount of effort 
put into Indian program funding over the last several years. I 
really appreciate that.
    For years I used to come to these hearings religiously, and 
about five years ago I gave up on that because it did not 
appear to be doing much good. In the last four or five years, 
however, I have seen some great things come out of the Congress 
on Indian programs, and I am very pleased, and it appears that 
our testimony is making a difference and that we are working 
together on some of our problems.
    I also want to commend Congress for its wise and sound 
fiscal policy that frees up the dollars to allow you to do 
these things for the needy Indian people across the country. I 
commend you for that.
    About the most pressing unresolved funding issue facing 
most tribes is that of indirect costs, and I did meet with some 
of the House leadership about this issue, and the 
recommendation was to make it our priority, and so we have been 
making it our priority.
    We have taken it to the National Congress of American 
Indians, and they endorsed some of the solutions. We have taken 
it to the Senate side and continue to work on that.
    For our tribe, unless this indirect cost issue--not just 
the funding, but also the policies--are changed, even if there 
is increased money, we will not be able to participate as we 
would like.
    For example, if you have a 20 percent deficit in indirect 
costs on $1 million, it increases when you get $2 million, so 
you end up with substantially more deficit in the way our 
indirect cost rates are calculated by the Inspector General.
    For example, this past year my tribe proposed to get 
involved in Health and Human Services compact with them as well 
as with the State of Alaska, and, because of the way our 
indirect costs are put forth and audited, we would have 
experienced about a $500,000 deficit on a $5 million contract.
    Now, we just cannot find $500,000 somewhere. There are no 
gaming tribes in Alaska. We are not a gaming tribe, never have 
been. And so we have to go out and raise money from non-Federal 
sources just so we can manage the Federal programs on behalf of 
our needy people.
    Now, the State does it because they are able to go to their 
Legislature and they are able to impose taxes on things so that 
they can administer these programs without having to worry 
about indirect costs.
    Now, I am going to summarize by saying that I feel that it 
is time for us to fully fund the indirect costs. Of course, I 
would like to see it on all programs, but we need to start 
somewhere. I think we need to fully fund the BIA on direct 
costs, and it will take about another $25 million and 
approximately $60 million on the IHS side.
    Now, what this will do is it will at least stabilize that 
one aspect of our indirect cost program.
    Now, I feel very strongly that we also need to take out the 
caps on other non-BIA programs, but if we do not, at least in 
the short term I think that all non-BIA and all non-IHS 
programs need to be awarded, along with their indirect cost, as 
though the indirect cost was a lump sum, and that way you can 
extract it from the total base and extract it from the indirect 
cost pool so that it is not distorted the way it is now.
    Our communities that we serve, the villages that we serve, 
are among the highest unemployment rates in the country. In 
some communities we have as much as three times what it is 
during a depression. We are talking about 66 percent 
unemployment rate during the winter months.
    So when we are trying to deal with those problems, it is 
nearly impossible for us to do so effectively at the same time 
trying to find ways to raise money to make up the difference 
between what we are awarded by the Federal Government for our 
administration and what it really costs.
    Mr. Chairman, on behalf of Congressman Young and myself, I 
want to thank you for honoring his request that I testify 
today. I appreciate your attention on this very important 
matter, and I will be happy to answer any questions on my 
testimony today.
    Mr. Peterson. We thank you.
    Do we have any questions?
    Mr. Dicks. How have the tribes done, after the legislation 
in the 1970s that created these various companies in Alaska? 
How has that worked?
    Mr. Thomas. You are talking about the corporations?
    Mr. Dicks. Right.
    Mr. Thomas. Yes. Corporations were, number one, a good idea 
for a transition into corporate society, but the corporations 
were set up under State law, separate from tribal government, 
so they ended up becoming like any other corporation--there to 
generate revenue and things of that nature, but not under the 
jurisdiction of tribes.
    Mr. Dicks. So they are completely separate?
    Mr. Thomas. Totally separate, yes, legally and 
structurally.
    Mr. Dicks. Have they been successful?
    Mr. Thomas. Some have, but for the most part they have 
relied entirely upon the resource extraction and exploitation 
of the resources, so----
    Mr. Dicks. When you do not have resources, they do not do 
as well?
    Mr. Thomas. Right. And in many parts of our State the cost 
of extracting resources is so severely high that even 
corporations of significant size are not able to do so any more 
because the market is not as strong as it used to be.
    Mr. Dicks. Thank you very much.
    Mr. Hinchey. Just a question about the contract support 
funding.
    Mr. Thomas. Okay.
    Mr. Hinchey. Your testimony says that over a three-year 
period you were short-changed about $1 million?
    Mr. Thomas. Right.
    Mr. Hinchey. What was the impact of that?
    Mr. Thomas. Well, the impact is that we cannot go out and 
expand, like HeadStart programs. There is a tremendous 
opportunity and a tremendous need to expand the HeadStart 
programs. We have to hold that down because we cannot afford to 
go to that next level of deficit.
    Mr. Hinchey. So it affects education?
    Mr. Thomas. Education. Right.
    Mr. Hinchey. HeadStart and education, generally?
    Mr. Thomas. Generally. Those are the main programs, the 
education programs and, quite frankly, all of the non-BIA 
programs. The economic development programs require--I mean, 
they have a cap, and so we have to make up the difference on 
those.
    Mr. Hinchey. So it is education, economic development?
    Mr. Thomas. Those are the main ones right now. Now, we do 
not contract for IHS, but I know for a fact that that is also a 
very serious concern in our area.
    Mr. Hinchey. What percentage of your children participate 
in HeadStart now?
    Mr. Thomas. Percentage-wise, I really have to say it is 
only about 10 percent. There is a lot more need, as I 
mentioned, particularly in our villages.
    Mr. Hinchey. Thank you very much.
    Mr. Peterson. Thank you, Mr. Thomas, for your fine 
testimony.
    Mr. Thomas. Thank you.
    [The statement of Mr. Thomas follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    Mr. Peterson. This Interior Subcommittee hearing is in 
recess until 1:30 p.m.
                              ----------                              


                           Afternoon Session

                                           Tuesday, April 11, 2000.

                   BAD RIVER BAND OF CHIPPEWA INDIANS


                                WITNESS

EUGENE BIG BOY, SR., CHAIRMAN, BAD RIVER BAND, LAKE SUPERIOR CHIPPEWA 
    INDIANS OF WISCONSIN
    Mr. Regula. Next, we have the Lake Superior Band of 
Chippewa Indians, Eugene Bigboy, Sr. Are you Eugene?
    Mr. Bigboy. That's right.
    Mr. Regula. Well, we're happy to have you. Tell us about 
your interests as briefly as possible. We have only five 
minutes for each of you, so you understand the rules.
    Mr. Bigboy. I sure do.
    Mr. Chairman, members of the Committee, I am Eugene Bigboy, 
Chairman of the Bad River Band of Lake Superior Chippewa 
Indians of Wisconsin. I appreciate this opportunity to provide 
the Committee with testimony for the year 2001 appropriation.
    I'm just going to go ahead and name the categories that I 
am going to address. Number one is law enforcement, number two 
is Indian Health Service, number three is education, number 
four is natural resources management. Gentlemen, I would like 
to inform you that Bad River, right at this moment, has no 
police force whatsoever.
    Mr. Regula. How many people do you have in your tribe?
    Mr. Bigboy. We have about 7,000 enrolled, we have about 
1,700 on the reservation.
    Mr. Regula. Do you have a casino, or what's your source 
income?
    Mr. Bigboy. Our source of income is about $11 million a 
year.
    Mr. Regula. From what?
    Mr. Bigboy. From casino and programs.
    Mr. Regula. And you don't have money for a police force?
    Mr. Bigboy. No, we don't. We do have a part time contract 
with the county that we pay $57,000 a year for part time police 
services.
    Mr. Regula. Okay.
    Mr. Bigboy. Some of the concerns we have with the police 
services that we do get from the county is their response time 
to the reservation is way too long. It ranges from a half hour 
to an hour and a half before somebody gets there. We don't like 
that. We could die 100 times over in an hour and a half.
    Some of the things that happen on the reservation is gang 
related arson, car arson, vehicle arson. We have aggravated 
assault with deadly weapons. So we have a lot of crime and 
stuff going on on the reservation that needs to be addressed. 
At this time it's not.
    I'd like to talk about contract health services. The need 
for health services has risen drastically in the last nine 
years, ten years. At Bad River, our user population increased 
from 1,100 in 1991 to about 3,739 today. But funding has never 
kept pace with this thing. We just continue to get a large load 
of patients and no money to take care of them.
    Some of those things that we suffer with today, when we 
left home, we had $65,000 left in our budget for emergency care 
services. That's all we have until August 31st. It's a sad 
state of affairs.
    Some of the things that we provide today, just emergency 
services, you really have to be sick or dying before we can 
touch you today and take you to the hospital. An example of 
that would be gallstones. If you have to have a gallstone 
operation, we can't do this until it becomes to a point where 
you're almost dead, or going to die over this, then we'll help 
you. That's not the way to treat Indian people or any people 
whatsoever.
    Our dental service is bad. We have a lot of elderly people, 
that in all their whole lifetime never had proper dental work 
done to their teeth. There are a lot of cavities, a lot of 
things missing. They don't have the teeth to chew the proper 
food today. So then we have a nutrition problem, when they 
don't get the right foods in them. It leads to further, more 
serious benefits and more medical problems. We don't like that. 
It shouldn't happen.
    Our education system, we have a tribal school on our 
reservation that is funded by the tribe. We put about $140,000 
in that thing a year. We have also about 40 kids on our 
reservation that just cannot survive in the public school 
system for many various reasons. So we have to look out for 
these kids, and we do, and we will, if we have to. Because at 
the present time, we had a graduation group of about 22. Five 
of these guys are now in college, two are in the armed services 
and nine are working other jobs. If we didn't have this school 
on the reservation, they would have been lost, they would have 
been lost. They probably would have been in some prison some 
place. We don't like that.
    Mr. Regula. You have about a minute.
    Mr. Bigboy. Forty seconds--I'm watching.
    We have also other tribal education programs, vocational 
training, Johnson-O'Malley programs. We use these programs to 
the max, we do all the training we can. I'm a former teacher 
myself, a former principal. I work at a school, I know that 
education is very important to the Indian people.
    Natural resource management is part of our culture, our 
heritage. We need natural resources.
    Mr. Regula. Do you have oil and gas, timber, any of those 
things?
    Mr. Bigboy. We have a timber and a lot of swamp area that's 
real pristine. They put us in the swamp areas at treaty time, 
now they want to take it back from us.
    [The statement of Mr. Bigboy follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    Mr. Regula. Thank you for your testimony.
    Mr. Bigboy. Thank you.
                              ---------- 


                                           Tuesday, April 11, 2000.

        JAMUL INDIAN VILLAGE AND SOUTHERN INDIAN HEALTH COUNCIL


                               WITNESSES

KENNETH MEZA, SECRETARY/TREASURER
JAMUL MICHAEL GARCIA, TRIBAL REPRESENTATIVE, EWIIAAPAAYP BAND OF 
    MISSION INDIANS
ROBERT BROWN, MEMBER, VIEJAS RESERVATION
JOSEPH BULFER, EXECUTIVE DIRECTOR, SOUTHERN INDIAN HEALTH COUNCIL
    Mr. Regula. Southern Indian Health Council, Mr. Ralph Goff. 
Mr. Goff?
    Mr. Meza. I'm sorry, Mr. Goff couldn't make it today. I am 
Kenneth Meza, I'm the tribal chair for the Jamul Indian 
Village. Also Secretary for the Southern Indian Health Council.
    Mr. Garcia. I'm Michael Garcia, I'm a tribal representative 
from the Ewiiaapaayp Band of Mission Indians.
    Mr. Brown. I'm Robert Brown, a member of the Viejas 
Reservation.
    Mr. Bulfer. I'm Joe Bulfer, I'm the Executive Director of 
the Southern Indian Health Council.
    Mr. Regula. Where are you located?
    Mr. Meza. San Diego County. And I would like to have Joe 
Bulfer, our Executive Director, take over.
    Mr. Bulfer. Good afternoon. The Southern Indian Health 
Council, as we just mentioned, is in the San Diego County area. 
We serve approximately 8,000 Indian people, seven tribes. It's 
a health consortium.
    We testify every year, we were here last year. There's a 
six page testimony that we provided. We want to go in more 
detail on only about three subjects, since we only have five 
minutes.
    The first item has to do with the funding for our youth 
regional treatment center. It's an alcoholism treatment center 
for youth age 13 to 18, male and female, 20 beds. In 
California, I think you remember the testimony from last year, 
we came here seeking assistance on funding. What we have done 
since the last year is worked very diligently to add language 
into the Indian Health Care Reauthorization Act. We were able 
to do that. It sits in there right now.
    What we want to do is make sure that language does not get 
removed. We're seeking the assistance of the Committee here to 
make sure that doesn't happen.
    Obviously our goal is to seek full funding for the youth 
regional treatment center. Our board if you recall a couple of 
years ago, spent $1.2 million to build the facility. Our budget 
is $1.8 million. We get about $500,000, $600,000 from Indian 
Health Services as a non-reoccurring funding item. The rest has 
to come from insurance monies, whatever else we can do, third 
party monies, however we can make the place run.
    Our goal is to provide these services to Indian youth 
without regard to ability to pay. That's why this is crucial. 
We only have two facilities in California. Southern Indian 
Health Council is the only one that is medically supervised. We 
want to see what we can do about, again, getting full funding. 
We're still pursuing that. But right now, we want to make sure 
that the authorization act keeps that language in there, and 
it's not removed.
    The second item is contract support costs. We talked at 
various meetings before about the necessity for tribes to have 
their contract support costs fully funded. Without full 
funding, what tribes are forced to do is a reallocation of 
their direct funding and basically reduce health care services 
to an already underserved population.
    So we want to urge this Committee to do what they can to 
see if we can add at least $500 million in the contract support 
costs. I know there has been some improvements this year, but 
it still is not appropriately handled until there is full 
contract support costs being apportioned back into the act.
    The third item I want to talk about is something new this 
year. The California area office for the Indian Health Services 
is basically being forced by an executive order 12072 to move 
from its current location where it has been for quite a while 
to downtown Sacramento. The executive order was under Jimmy 
Carter's era, and basically what the intent was is to get 
Federal agencies to combine their operations together for the 
purpose of saving funding.
    What is happening is, that is not going to save funds. It's 
been proven it's not going to save funds. There has been an 
appeal from Dr. Trujillo to OMB to stop this move. From the 
calculations that we have obtained from the Indian Health 
Services, their current rent is $250,000 a year. The rent is 
going to increase to $412,000 a year, plus it's a $1.2 million 
increase in funding for that move to occur.
    The California office has been told that they are going to 
be charged for this move. If they are charged for the move, who 
is going to pay for it? The tribal programs. Since we are 
underfunded already, it is going to come out of our programs. 
It's senseless. OMB has sent a letter to Dr. Trujillo saying, 
sorry, it's an executive order. We would like the Committee to 
tell OMB, this is foolishness. It is not going to save the 
Government any money, in fact it is going to cost money. So the 
executive order is improper in this particular instance.
    We have 23 seconds left. There are other items in the 
testimony. There is child support enforcement, welfare reform, 
family preservation, foster care, Indian Health Care 
Improvement Act eligibility. In essence what these provisions 
talk about is enabling the tribes to be able to provide those 
services instead of the State.
    We want to thank you very much, and the Committee, for 
hearing our testimony.
    [The statement of Mr. Bulfer follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Regula. Thank you.

                              ---------- 



                                           Tuesday, April 11, 2000.

                             PUYALLUP TRIBE


                                WITNESS

HERMAN DILLON, VICE CHAIRMAN, PUYALLUP TRIBE
    Mr. Regula. The Puyallup Tribe, Larry LaPointe.
    Mr. Dicks. Herman, how are you.
    Mr. Dillon. Fine, Norm, yourself?
    Mr. Dicks. Good.
    Mr. Dillon. I'm Herman Dillon, the Vice Chairman of the 
Puyallup Tribe. Unfortunately, Larry LaPointe wasn't able to be 
here. He was in a car accident.
    Mr. Dicks. I'm sorry about that.
    Mr. Dillon. Nothing serious, just his car.
    In our testimony, I have five different points I'd like to 
make. One is the tribe's administration building and nurses 
quarters. Back in 1988, there was a study done by the U.S. 
Department of Interior and Bureau of Indian Affairs. The 
building was condemned. There has been a study completed by 
NEPA and NHEPA, funded by the tribes and BIA through 2001. 
Based on the fiscal year 1999 study $2,800,000 will be needed 
in the year 2001 to demolish said buildings.
    Under our community health and safety, the tribal health 
clinics, we are experiencing an increasingly difficult time in 
keeping up with the increasing costs of delivery of care. We 
provided services to over 100,000 annual patient visits to the 
clinic every year. The number of patient visits is accelerating 
due to the population growth, expansion of employment 
opportunities, as well as our location in serving a rapidly 
increasing urban Indian population.
    We urge the Congress to fund the mandatory cost increases 
delineated by OMB, fund medical and general inflation costs, 
fund the increased expenses due to the population growth, fund 
the President's request for a $41 million increase in contract 
care, and fund the proposed $6 million increase to $12 million 
earmarked for the Catastrophic Health Fund.
    Under law enforcement, our 18,061 acre reservation is 
located in the urbanized Seattle-Tacoma area of Washington 
State. It contains approximately 83,000 plus residents. This 
urban area contains 10,000 plus Native Americans from over 200 
tribes and Alaskan Villages. Current staffing levels do not 
provide minimum level of community law enforcement services.
    As we grow, our police department don't grow, 
unfortunately. So we'd like to see a fund based budget add-on 
of $200,000 for additional officers, related equipment and 
patrol vehicles to ensure the public safety of the Puyallup 
Tribe and other Native Americans within our jurisdiction.
    The law enforcement headquarters, which houses the police 
department, also serves as a minimum security jail facility. 
The Puyallup has the only tribal jail facility in western 
Washington and currently contracts with more than eight other 
western Washington tribes to house tribal offenders in our 
facility. We are in need now of either replacing it, major 
repair and renovation to the building itself.
    Under our fisheries and natural resource management, our 
resource management responsibilities cover thousands of square 
miles in the Puget Sound region of the State of Washington with 
an obligation to manage production of anadromous, non-
anadromous fish and shellfish resources. We seek support and 
endorsement in the following areas:
    Restoration site catalogue for the Puyallup River. Funds 
are needed for land acquisition, project management, design and 
construction. White River Spring Chinook Recovery Program, this 
program has recently received funding from various resource 
agencies and recovery efforts have been accomplished. The 
Hatchery Reform Federal Appropriations needs to be extended to 
at least a full brood cycle for chinook salmon, five years.
    There are other things in there that we would like. I think 
one of our main concerns in the western Washington fish and 
timber and wildlife program, we request Committee support for 
base funding level of $3,048,000 to the TFW fiscal year 2001 
budget, an increase in funding of $1 million.
    Under tribal priority allocation and contract support 
costs, the President's fiscal year 2001 budget calls for $2.2 
billion to be allocated to the Bureau of Indian Affairs, which 
is an increase of $332 million over the fiscal year 2000. This 
request includes a request for a $761 million tribal priority 
allocation, a $500,000 increase.
    We seek support by the Congress for the President's fiscal 
year 2001 request for an TPA increase of $60,500,000 for a 
total request of $761 million for the fiscal year 2001 TPA 
funding.
    Another concern of the tribe with the 2001 budget request 
is the ongoing issue of contract support costs. Support by the 
Congress for the President's fiscal year 2001 request for an 
increase in contract support costs funding to $3,500,000 and 
the $5 million requested for the Indian Self-Determination Fund 
for new Bureau of Indian Affairs programs contracted by the 
tribes.
    [The statement of Mr. Dillon follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Regula. Thank you.
    Mr. Dicks, do you have any questions?
    Mr. Dicks. Well, I just want to thank you for a very 
comprehensive statement.
    Mr. Dillon. I thought it was very dry.
    Mr. Dicks. Well, you did your best, and you did it well.
    How are those chinook doing? Are they coming back? It seems 
like there are more people out there fishing every year.
    Mr. Dillon. We have our fisheries biologist back here, Russ 
Ladley.
    Mr. Ladley. They're doing good. It's one of the few success 
stories in Puget Sound.
    Mr. Dicks. Good. Thank you for being here.
    Mr. Regula. This is our resident fisherman here. He gets 
all the fishy questions.
    Thank you.
                              ----------                              

                                           Tuesday, April 11, 2000.

                            BLACKFEET NATION


                                WITNESS

WILLIAM OLD CHIEF, CHAIRMAN, BLACKFEET NATION
    Mr. Regula. Blackfeet Nation, Mr. William Old Chief. Go 
ahead.
    Mr. Old Chief. Thank you, Congressman. I appreciate this 
opportunity to speak here today for the Blackfeet Tribe.
    Mr. Regula. By the way, do you still have the pencil 
factory?
    Mr. Old Chief. It is not in operation as of today.
    We have a number of funding appropriation initiatives that 
we would like to present. Number one for our priority is our 
fish hatchery. The tribe has over time relied on the U.S. Fish 
and Wildlife Service for trust responsibility of our fish. And 
what we have seen over the years is a number of declines in the 
production rate that we receive.
    This is reorientation of a policy for the U.S. Fish and 
Wildlife Service to go towards native endemic fish. This has 
seriously impacted us and with any future cutbacks, impacts our 
tribe quite a bit.
    Our interest in trying to obtain a fish hatchery is based 
on a lot of economic development. We believe that this could 
provide the foundation from which the tribes could expand in 
many different areas regarding commercialization of local 
economies, not only on reservation, but outside. Our fisheries 
support many commercial establishments that are not on the 
reservation, but off the reservation, through our vending of 
our fishing permits.
    We have international use of our fisheries on our 
reservation. One of the ideas that the tribe has in visions is 
to enlarge the fisheries, so that they become once again the 
foundation for the law enforcement and conservation management 
of our overall fisheries. The reservation is 1.5 million acres. 
We have about 19,000 acres of glaciated pothole lake systems, 
35 of which we stock, roughly about 13 square miles of lakes.
    They are pristine, they are the fly fisherman's best kept 
secret in the northwest. We do have 10, 15 pound rainbow trout 
that we are able to raise. That is a big draw for us. It's in 
our good interest to try and provide for these fisheries.
    In addition, we have other items that include current P.L. 
93-638 contract contracts that we receive for fish and wildlife 
management and for threatened and endangered species 
management. Those contracts are roughly 13 years old, and have 
not seen any cost of living increases. So we're asking for 
addendums to those existing contracts.
    In addition, we are asking for funding to look into the 
bull trout, which is an endangered species on our reservation. 
It is the only population east of the Continental Divide that 
exists. We believe we have a recipe for success unlike anywhere 
else in the lower 48 in that all Federal agencies that are 
participating, including the tribe, given the natural condition 
of our habitat, which we have here on our reservation, we think 
we can recover these fish in no time at all. It's just a matter 
of funding and the right management plans in place.
    In addition, there is the St. Mary Milk River Irrigation 
Project, which sits in the St. Mary's River drainage. It is a 
dilapidated irrigation project system. It is close to 100 years 
old, and some of it is inoperable. It provides the only 
obstruction and limiting factor to the existence of the bull 
trout in the St. Mary's drainage. We are asking funding so that 
we can address some of the key working systems within that 
irrigation project to facilitate recovery of the bull trout.
    In addition, we are asking for funding for supplementation 
of Westslope Cutthroat. They are a candidate in endangered 
species as well. We are looking to rejuvenate our 900 miles of 
end stream, streams on the reservation with native endemic 
species, bull trout and Westslope Cutthroat being those 
species.
    In addition, I'd like to add that it is a hot potato out 
there in fisheries world, but our hatcheries envision to 
produce fish only for our closed lake systems, not for our 
streams. We would rely on the U.S. Fish and Wildlife Service 
and their policy of native endemic fishes within the protection 
of their systems.
    That concludes my testimony. Thank you.
    [The statement of Mr. Old Chief follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Regula. Thank you. I was out there several years ago, 
you had a new hospital at the time. Is that working well?
    Mr. Old Chief. Yes, it is. And we're enlarging on that as 
we speak. It's working out really well.
    Mr. Regula. Thank you.
                              ----------                              

                                           Tuesday, April 11, 2000.

                    AMERICAN PSYCHIATRIC ASSOCIATION


                                WITNESS

JAMES THOMPSON, DEPUTY MEDICAL DIRECTOR, AMERICAN PSYCHIATRIC 
    ASSOCIATION; MEMBER, ASSOCIATION OF AMERICAN PHYSICIANS
    Mr. Regula. The American Psychiatric Association, Dr. James 
Thompson. Welcome.
    Dr. Thompson. Good afternoon. I am Dr. Jim Thompson, I'm 
Deputy Medical Director of the APA, a national medical 
specialty society whose 40,000 physician members specialize in 
the diagnosis and treatment of mental disorders and substance 
abuse. I am also a member of the Delaware Tribe of Oklahoma, 
and in my early career, served in the IHS. I have been a member 
of the Association of American Physicians for 27 years. I am 
testifying today on behalf of both organizations on IHS 
appropriations.
    First, I would like to thank the Subcommittee, particularly 
the Chairman, for your continued commitment to the IHS and the 
health of Indian people. Your efforts in fiscal year 2000 to 
improve IHS's budget were critically important in fulfilling 
the Nation's obligation for the health and welfare of Native 
Americans.
    But while APA and AAP are pleased to see that the 
Administration's fiscal year 2001 budget request provides an 
increase for IHS, still more funding is needed if IHS is to 
adequately address the health needs of the American Indian and 
Alaska Native populations.
    As a first step, we would request that the Subcommittee 
support the President's request for a $229 million increase for 
the IHS budget, including $6 million earmarked for mental 
health services expansion. While this amount will not fully 
meet the disease prevention and treatment needs of Indian 
people, it nevertheless will help IHS maintain the 
infrastructure necessary to stop further deterioration in the 
health status of Native Americans.
    I would like to take a few seconds today to focus on a 
crucial and historically overlooked aspect of health care 
services for Indian people, the effective treatment for mental 
illness and substance abuse disorders. As an example, suicide 
is a large problem, as you know, in some Indian communities. It 
is often the result of missed opportunities to treat such 
problems as depression and alcoholism. Yet in the IHS, there is 
only one mental health provider for 23,000 children and 
adolescents.
    As a second example, IHS has identified alcoholism and 
substance abuse as one of the most significant health problems 
for Indian people. Although IHS continues to work to develop 
alcoholism and substance abuse treatment and prevention 
programs, the effort has to be much, much greater if we are 
going to end this scourge for Indian communities.
    Improvements in mental health have not kept pace with 
improvements made in physical health for Indian people. Mental 
health staffing is only 43 percent of that needed to provide 
even minimal services. Most service units in tribal programs 
are operated with one or two providers, and they mainly provide 
crisis related services. Often there is not a single backup 
psychiatric physician.
    I can speak personally to this point, as my father, who 
died about a year ago, developed Alzheimer's and late life 
paranoia in his later years. He thought my mother was an 
imposter, and his modest home was worth a million dollars. And 
on we went.
    The IHS simply did not have the psychiatric services 
necessary to care for him. He was lucky, because my sister and 
I could afford to have him cared for outside of the IHS. But 
most Indian people are not so lucky.
    My dad's case also illustrates the particular need for 
psychiatrists in the IHS, as his case was very medically 
complicated. Psychiatrists as physicians bring medical 
expertise coming from eight long years of training in medicine. 
Only a physician has the training to perform a medical 
diagnostic examination, differentiate a physical from a mental 
illness, and safely use psychotropic medications which despite 
their name, can and do affect every organ in the body.
    We are particularly concerned that physicians, including 
psychiatrists, are accessible in IHS, and that there be no 
experimentation in the IHS on Indians by allowing such 
practices as prescribing by non-physicians. The American Indian 
and Alaska Native people do need your leadership to ensure the 
adequate delivery of health care, particularly for those who 
suffer from mental illness and substance abuse.
    We do request your support of the President's request of an 
additional $229 million for IHS in fiscal year 2001. This will 
go a long way in helping the IHS maintain its clinical and 
preventive services.
    Thank you again, and I'll be glad to answer any questions.
    [The statement of Dr. Thompson follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Regula. Thank you.
    Do you work on the reservation?
    Dr. Thompson. I worked in the Indian Health Service in 
Shawnee, Oklahoma, which is a small town surrounded by a number 
of Indian communities.
    Mr. Regula. Do you operate from a clinic?
    Dr. Thompson. I don't now. I'm a bureaucrat here in 
Washington now. This was in my earlier years, yes, it was a 
clinic. That's correct.
    Mr. Regula. Okay, thank you very much.
                              ----------                              

                                           Tuesday, April 11, 2000.

                            NEZ PERCE TRIBE


                                WITNESS

JAIME PINKHAM, TREASURER, NEZ PERCE TRIBAL EXECUTIVE COMMITTEE
    Mr. Regula. Nez Perce, Mr. Pinkham.
    Mr. Pinkham. Thank you, Chairman Regula.
    My name is Jaime Pinkham, I'm the Treasurer for the Nez 
Perce Tribal Executive Committee. On behalf of Chairman Penney, 
who is unable to be here today, I am grateful for this 
opportunity to provide testimony on behalf of the Nez Perce 
Tribe.
    The projects that the tribe would like to see support in, 
the first one is the Snake River Basin Adjudication, which is 
the largest water rights adjudication going on in this country 
at this time. It will determine all the water rights in the 
Snake River Basin; approximately 185,000 claims had been filed 
on this. Much of the Snake River is within the aboriginal 
territory of the Nez Perce Tribe. So it is a process we have 
been involved in since 1987, which was brought by proceedings 
within the State legislature.
    For fiscal year 2001, the tribe requests that Congress 
earmark $875,000 in the Bureau's Indian Rights Protection 
Account for water rights negotiation litigation for the tribe 
and the Snake River adjudication. Another program which has 
been really a flagship for the tribe----
    Mr. Regula. Has it been water rights for irrigation or why 
are they important?
    Mr. Pinkham. Basically for the tribe, our water rights, the 
basis of our water rights are for instream flows for the 
fisheries recovery. But also there is on-reservation domestic 
irrigation as well.
    Additionally, Mr. Chairman, the gray wolf recovery program, 
which the tribe has a contract with the U.S. Fish and Wildlife 
Service, successfully, the wolves are returning to Idaho. 
Unfortunately, though, the funding level has not kept pace with 
the level of effort it takes to monitor the success of 
recovery. The tribe would like to request an increase in this 
year's budget of $300,000 for the U.S. Fish and Wildlife 
Service.
    In addition, Mr. Chairman, the Nez Perce police department 
is stretched woefully thin on the reservation. The Nez Perce 
reservation covers about 1,200 miles, four county governments, 
five city governments. We provide services to both the Indian 
and the non-Indian population, about 30,000 people. We 
appreciate Congress' support in the past to increase the 
staffing level for the Nez Perce Tribe. However, we continue to 
fall short to provide around the clock funding of law 
enforcement as well as communications and dispatch. Therefore, 
the tribe will be seeking an increase to elevate the law 
enforcement services on the reservation.
    In addition, we are deeply committed to better futures for 
our families and children. We would like to see additional 
funding for 638 contracts to run our social services program. 
In the past, services to individuals on the reservation have 
increased by 300 percent, while funding levels for contract 
support have decreased. This has seriously hampered the tribe's 
social services department and has kept us from updating 
equipment and hiring adequate staff to meet the needs of our 
clients in assistance.
    We have water systems on the reservation that are 
continually in desperate need of upgrade and improvement. 
Several of these systems are required to provide services to 
tribal members, who either receive very little or no services 
at all. We are requesting $300,000 to do an assessment of the 
current drinking water and wastewater systems within the 
reservation as well as to upgrade existing systems and to 
identify future needs and further enhance the tribe's ability 
to independently manage the drinking and waste water systems 
within the reservation.
    Along with the water rights, we will see coming forth the 
relicensing of dams on the Snake River system, three dams known 
as the Hells Canyon complex. The Federal Energy Regulatory 
Commission, FERC, will relicense all non-Federal dams 
developing protection and mitigation enhancement measures to 
address the impacts of the operation of these dams. These areas 
provide pretty significant historic, cultural and natural 
resource importance to the tribe. The tribe has been struggling 
to participate in the relicensing process since it began in 
1996. So we would like to request $200,000 to allow the tribe 
to participate more fully in the FERC relicensing progress.
    The final one, Mr. Chairman, is a project that the tribe 
has initiated and is working in full cooperation with the State 
and Federal governments within the region, and that is to 
overcome the noxious weed problem that exists on the 
reservation. The tribe has begun a biological control station 
which would look at providing alternative means to help curb 
the tremendous spread of noxious weeks that is occurring on the 
reservation, weeds that hinder our ability for grazing, 
traditional foods and medicines, and some of our land 
management activities. We are asking for $92,000 for that.
    Mr. Chairman, I appreciate this opportunity to provide 
testimony. I would be happy to answer any questions that you 
have.
    [The statement of Mr. Pinkham follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Regula. What's your main economic source? Farming?
    Mr. Pinkham. Currently, Mr. Chairman, it's spread between 
forest products and gaming.
    Mr. Regula. Do you have gaming income?
    Mr. Pinkham. Yes, we do. The gaming revenues have been able 
to help fill some of the voids in the funding that we've been 
experiencing over the past few years.
    Mr. Regula. Okay, thank you very much.
    Mr. Pinkham. Thank you, Mr. Chairman.
                              ----------

                                           Tuesday, April 11, 2000.

                            PUEBLO OF ISLETA


                               WITNESSES

ALVIN LUCERO, GOVERNOR, PUEBLO OF ISLETA
CURTIS DEBATA, PRESIDENT, ISLETA TRIBAL COUNCIL
    Mr. Regula. Next is the Pueblo of Isleta.
    Mr. Lucero. Good afternoon, Mr. Chairman.
    Mr. Regula. Mr. Governor.
    Mr. Lucero. I am the Governor, my name is Alvin Lucero, the 
Governor of the Pueblo of Isleta. Also with me is Mr. Curtis 
Debata, he's the president of the Isleta Tribal Council.
    Mr. Regula. How big is your tribe?
    Mr. Lucero. My tribe is getting very close to 5,000 people.
    Mr. Regula. What is your chief source of income for people, 
work off the reservation?
    Mr. Lucero. We have a farming enterprise, and we have 
gaming. We have recreation areas, fishing lakes, small things 
like that.
    Mr. Regula. How many members do you have?
    Mr. Lucero. Very close to 5,000.
    Mr. Regula. Okay, go ahead.
    Mr. Lucero. Mr. Chairman, thank you very much for giving 
the Pueblo of Isleta an opportunity to come before you and the 
Committee this afternoon. Mr. Chairman, our pueblo is seeking 
funding for aid in restoring agricultural lands, sewer and 
water system improvements, road construction and building the 
historic facility, a K-12 school and a health center. I will 
summarize as follows:
    BIA K-12 school facilities, $13,750,000. Subsurface 
drainage, $2,160,000. Road construction, $1,320,000. Indian 
Health Service new health center, $6,860,455. Sewer and water 
system, $6,253,500. New Head Start facility, $3,500,000. The 
new K-12 school facility, we urgently need a new facility to 
provide for the education and care of our children from 
kindergarten through grade 12.
    The present school facility has served our community for 
more than 60 years and is sorely inadequate. The library is 
housed in a portable building, there is no gymnasium, the 
cafeteria cannot serve all of our students, and the aging and 
natural deterioration of the building pose fire, safety and 
health problems which grow steadily.
    A new facility for approximately 800 new students, 
constructed within our reservation, would rectify these 
problems and aid in the preservation of our cultural and 
traditional and family values of the Pueblo. The estimated cost 
would be $13,750,000. We are ready to undertake the necessary 
studies, planning and design process. The Pueblo would supply a 
site which would provide adequate space, be aesthetically 
pleasing and would match the Federal funding for the facility 
by providing one half of the required construction costs as a 
monetary contribution in the amount of $6,875,000.
    Subsurface drainage--our reservation lies on either side of 
the Rio Grande, a major river body in New Mexico. We are 
heavily dependent on our irrigated lands for subsistence and 
commercial crops, such as alfalfa, wheat, oats and corn. Our 
people have been irrigating this portion of the river valley 
for hundreds of years, since ancient times.
    In recent years, much of our formerly productive irrigated 
farm lands and patches have become water saturated and either 
are totally unproductive or have suffered a dramatic reduction 
in productivity. The practices of our farmers are not unsound 
and have not been the cause. Rather, the problems have been 
largely caused by the middle Rio Grande Conservancy District's 
failure to properly maintain the drainage system.
    Fortunately, there is a solution. We have formulated within 
the assistance of the BIA a project to drain the saturated soil 
by laying subsurface perforated drain pipes and fittings. The 
underground piping also serves to prevent the recurrence of 
this harmful saturation, and once in place, the farm land will 
be protected for the future.
    The broader benefit is the return of more water to the 
river, thus protecting the endangered riparian habitat, 
enhancing the natural vegetation, and increasing the available 
water in the river, which is critical to native fish and plant 
life. More than eight years ago, using limited funding, a pilot 
project was undertaken and proved successful. The costs of 
restoring the remaining farm lands have been estimated to BIA 
to a total of approximately $2,160,000. Therefore, our request 
for funding is $2,160,000.
    Roadways on our pueblo, many of which are unpaved, unsafe, 
and may not be passable during inclement weather are of great 
concern to us, particularly because our school buses carrying 
Head Start, kindergarten and other children must traverse this 
road several times a day during most of the year. The cost to 
bring approximately four miles of road up to safer standards 
through grading, compacting and paving, would be $1.32 million.
    It should be noted here as well that present allocations 
for road maintenance through the Southern Pueblo Agency are 
grossly inadequate to provide proper upkeep for our roads. Such 
appropriation should be increased, particularly sums allocated 
to the Southern Pueblo Agency.
    New health center--the present structure housing the Isleta 
dental and medical clinic facilities is over 22 years old, and 
has outlived three-fourths of its engineered design life. A new 
building, fully equipped to meet our needs, is imperative. The 
patient control log at the Isleta Health Clinic shows that an 
average of 1,000 patients per month receive care. Isleta people 
are served there as are eligible Indians from other 
reservations.
    The health facility is also the site of other tribal 
community health programs. The building is overcrowded and 
cannot adequately serve the needs of all the uses to which it 
is put. A new health center, approximately 44,261 square feet 
in size, complete with state of the science medical equipment, 
would assist in meeting the needs of the community in a much 
more efficient and effective way.
    The plans for the facility are in final design and 
estimated construction costs of $6,860,455 have been 
determined. The final facility plans and program design clearly 
document and justify the need for the new health care center 
and services for Pueblo Isleta.
    Sewer and water systems--the populated areas within the 
Pueblo Isleta reservation boundaries are generally along the 
Rio Grande and within the valley created by the river. Some 
populated areas are found along higher terrain, bordering the 
valley and among highway infrastructure. With the exception of 
the old pueblo and some of the higher terrain, the common type 
of wastewater collection treatment and disposal is on-site 
systems.
    The Pueblo of Isleta has undertaken a major study to 
examine the existing conditions concerning the long term use of 
on-site treatment and disposal systems and impacts to the 
groundwater. Included with this study are analyses of 
alternative collection systems, alternative treatment and 
disposal processes, recommended engineering solutions and 
opinions of probable cost. Based on the findings of the 
feasibility study and report, it is recommended that the Pueblo 
Isleta proceed with funding acquisition of $6,253,500 to begin 
land allocation for a centralized treatment and disposal 
facility, proceed with preliminary engineering and design of 
the collection systems and for the treatment of disposal 
facility.
    Water quality concerns have increased dramatically over the 
past few years, as the EPA has mandated tougher standards. As 
growth continues within the reservation, particularly aerified 
on-site systems will no longer be acceptable. The program that 
is proposed is critical to high water quality in the future. We 
have completed an initial step to resolving this problem, and 
with the acquisition of $6,253,000 we can bring this problem to 
an end.
    I have one more, the new Head Start facility. The Pueblo of 
Isleta Head Start child care and child fund programs are the 
only comprehensive child and family development service 
available to young children birth to age 5 and their families 
on the Pueblo Isleta reservation. These services have been an 
integral part of the lives of our community's families for 35 
years. Current programs are housed in a 29 year old structure 
that is in need of replacement because of many deficiencies and 
adherence to building codes, ADA requirements, life safety and 
cost of maintenance and operations.
    The community has an extreme need for day care and as the 
tribal population increases, so does the need for the type of 
programs currently offered by the Head Start program. The 
Pueblo proposes to build a new facility at an estimated cost of 
$3.5 million.
    This is the end of my testimony, Mr. Chairman. I hope that 
the Committee will be favorable, and if you have any questions, 
I'll be happy to answer them.
    [The statement of Mr. Lucero follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Kingston [assuming Chair]. Thank you, Governor. It 
sounds like you are going for the basics, health care, roads, 
water quality. I think you are headed in the right direction. 
We will be in touch with you.
    Mr. Lucero. Thank you very much.

                              ----------



                                           Tuesday, April 11, 2000.

         CONFEDERATED TRIBES OF GRAND RONDE COMMUNITY OF OREGON


                                WITNESS

KATHRYN HARRISON, CHAIRPERSON, CONFEDERATED TRIBES OF GRAND RONDE 
    COMMUNITY OF OREGON
    Mr. Kingston. We have the Confederated Tribes of the Grand 
Ronde Community of Oregon.
    Ms. Harrison. Good afternoon, Mr. Chairman and members of 
the Committee. My name is Kathryn Harrison, I'm the chairperson 
of the Confederated Tribes of Grand Ronde. I bring you 
greetings from our 5,000 member tribe in beautiful Oregon 
coast.
    As a terminated tribe for 29 years, I'm proud to say we are 
rebuilding. We are bringing in our culture, teaching our 
children the language and our young people. We are reviving the 
basketry and all those things that were almost lost during 
those terminated years. So along with that, we have the same 
needs that most other tribes have, with health care, especially 
since we were without for 29 years.
    We have lost some members we feel could have still been 
here if we had had the health care that came through our 
treaties. But that's beside the point. We miss them terribly 
but we're doing the best we can now with what we have.
    With the Bureau of Indian Affairs, we feel we have a good 
working relationship. Coming here today, I was remembering 
times of old when our ancestors must have come here and talked. 
I think then they went directly to the White House and made 
their talks directly to the President and made their needs 
known and also thanked him for the cooperation they received.
    Mr. Kingston. That was around 1810, in that neighborhood?
    Ms. Harrison. Right around there, there's pictures in the 
White House, I'm sure.
    On behalf of my people again, and on behalf of the people 
that are waiting to testify, I am not going to go through the 
list that we have, and just want to thank you for allowing me 
to come here and agree with you and to present our testimony. 
We hope you will take it into consideration.
    [The statement of Ms. Harrison follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Kingston. I appreciate that, Ms. Harrison. Just on a 
side here, related to your situation, you probably know that 
there are some other countries which have lost their native 
language and reached back and there's been a resurgence of it. 
So I'm real proud of you for doing that. I think it's real 
important to teach the children. I hope that the health care is 
helpful. I see you have money in here for diabetes and drug and 
alcohol treatment. You also have all your priorities in order.
    If you want to submit that, that would be fine.
    Ms. Harrison. Yes, and again, I will just say I hope you go 
through it and have people take our needs and requests into 
consideration.
    Mr. Kingston. Okay. Thank you very much for coming here.
    Ms. Harrison. Thank you very much.
                              ----------


                                           Tuesday, April 11, 2000.

       CONFEDERATED TRIBES OF WARM SPRINGS RESERVATION OF OREGON


                                WITNESS

OLNEY PATT, JR., CHAIRMAN, CONFEDERATED TRIBES OF THE WARM SPRINGS 
    RESERVATION OF OREGON
    Mr. Kingston. The Confederated Tribes of the Warm Springs 
Reservation of Oregon, Mr. Olney Patt.
    Mr. Patt. Mr. Chairman, I am Olney Patt, Jr., Chairman of 
the Warm Springs Tribal Council. I have four requests today.
    First, we request that you statutorily extend the 1979 BIA 
loan to Warm Springs for hydroelectric development to help us 
build a new school. The local public school district does not 
believe it can fully pass a bond to fully fund a new school we 
need on our reservation for our children.
    Last year, the BIA told us they can't fund construction of 
public schools. If the 1979 loan can be extended at the same or 
near the same terms, we believe we can get the school built.
    Second, we request BIA law enforcement funding be made 
eligible to pay for tribally hired law enforcement personnel 
whose Justice Department COPS grants are expiring. Over the 
past several years, BIA has received a substantial and 
permanent increase in its law enforcement funding.
    But most of that money has been directed to locations 
served by BIA police. Other locations, such as Warm Springs, 
have had to rely on the COPS grants, which are beginning to 
expire. To help prevent COPS tribes from slipping back into 
insufficient law enforcement situations, please assure us 
access to the BIA's funding.
    Third, as you may recall, Warm Springs entered a joint 
venture with the IHS back in 1991 when we built IHS a new 
clinic at Warm Springs. They equipped it, staff it and run it. 
As part of this unique arrangement, it is our understanding 
that IHS was to preserve the new level of service. But today we 
find that personnel funding is eroding.
    We now have to supplement personnel costs with third party 
collections, preventing those funds from being used for the 
training and replacement equipment necessary to maintain 
accreditation. After only seven years, the quality of service 
under this unique joint venture has started to slide. We ask 
that the Committee direct IHS to fully live up to the joint 
venture by providing staff funding sufficient to maintain 
personnel established at the start of this unique demonstration 
project.
    Fourth, we ask that the subcommittee direct the IHS to 
conduct an assessment to measure the financial impact of self-
governance activity on direct service tribes such as ours. Warm 
Springs has lost close to $200,000 a year as a result of self-
governance, and we are aware of the other direct service tribes 
that also believe they are suffering reductions. An assessment 
conducted in consultation with the direct service tribes should 
help cast more light on this situation.
    We have submitted additional requests in our written 
testimony. And Mr. Chairman, that concludes my testimony. Thank 
you.
    [The statement of Mr. Patt follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Kingston. Thank you, Mr. Patt. I wanted to ask you 
again how much you've lost a year, that's $200,000?
    Mr. Patt. Yes.
    Mr. Kingston. Okay, just wanted to make sure.
    Mr. Patt. This was in specialty pay. There was a 
reallocation of funds, and we are obligated to pay the 
specialty pay to doctors who perform such things as surgery and 
so on at our clinic. That had to come from somewhere. So it 
comes out of the portion that would normally go to services to 
the people of the reservation.
    Mr. Kingston. Okay, well, thank you very much for your 
testimony. Do you want to introduce the gentlemen with you?
    Mr. Patt. On my left is Vice Chairman Garland Bruno, and on 
my right is Warm Springs Chief Del Vaceef.
    Mr. Kingston. Thank you very much for being with us.
                              ----------


                                           Tuesday, April 11, 2000.

       LAC COURTE OREILLES BAND OF LAKE SUPERIOR CHIPPEWA INDIANS


                               WITNESSES

GAIASHKIBOS, CHAIRMAN, LAC COURTE OREILLES BAND OF LAKE SUPERIOR 
    CHIPPEWA INDIANS
LARRY LEVENTHAL
    Mr. Kingston. Lac Courte Oreilles Tribal Governing Board.
    Mr. Gaiashkibos. Good afternoon, Mr. Chairman. My name is 
Gaiashkibos, I'm the Chairman of the Lac Courte Oreilles Band 
of Lake Superior Indians. Accompanying me today is one of our 
tribal attorneys, Mr. Larry Leventhal.
    I too would like to just take a few moments to recite that 
the tribe's population for Lac Courte Oreilles is approximately 
5,300 members. Currently we have 79,000 acres of land located 
in northern Wisconsin. Our lands were established through 
treaty of 1854.
    I won't read the testimony that is before you, but I would 
like to take a few moments, please, to highlight a few of the 
concerns that we would like to raise today. We also have for 
the record included additional copies for the Chairman and 
other members of the Committee, supplemental, that I would like 
to include for the record.
    This past June, 1999, Lac Courte Oreilles put in $2 million 
into a bond to complete the school, the K-5 school. This was 
cited in the OIG audit. I was here last year, I sat here and 
listened to testimony provided by Assistant Secretary of 
Interior Kevin Gover before Chairman Regula and Congressman 
David Obey. They were quite concerned about the OIG audit, and 
the $450,000 of questionable costs.
    Since that time, the dollars have been reconciled, and it 
went before the chief administrative judge for the U.S. 
Department of Interior, Office of Hearing Appeals, February 
1st, 2000. There was $450,000 in questioned costs, and the 
judge ruled through the arbitration mechanism that the tribe is 
responsible for repayment of $13,032. I believe that the 
auditors and the FBI agents and others that came to Lac Courte 
Oreilles to investigate perhaps fraud, spent much more than 
that on the investigation.
    Also, the tribe, our four areas that we like to testify on 
today is IHS. I serve on a task force for the Bemidji Area. The 
funding at the IHS for Bemidji Area, there are 12 areas, is 
funded at 41 percent. It is the lowest of all IHS areas. There 
needs to be $37 million in the funding appropriation for 
Bemidji Area to bring it up to the 60 percent level of need.
    On the Lac Courte Oreilles clinic, our funding level is at 
34 percent of need. We need for our own health center 
$1,558,000. That is needed to reach the 60 percent LNF level, 
the funding level. We currently have two doctors at our health 
facility. There is a shortfall each year in indirect costs for 
our health care. The tribe does use its third party billings 
through insurance revenue and other areas that generate support 
to put back into the clinic, and we are still short.
    In terms of conservation, the Lac Courte Oreilles tribe is 
requesting that a shortfall of $791,566, we currently have two 
full time wardens. There is an additional need for three 
wardens to patrol the 79,000 acres on the Lac Courte Oreilles 
Reservation, the many lakes and rivers and islands. Each year, 
Lac Court Oreilles, this past year, in our fish hatchery, we 
also have a fish hatchery, we put in six and a half million 
walleye fry. I heard earlier, the Chairman talked about 
fishery. So we do restocking of lakes. We put in 120,000 muskie 
fry as well.
    So we put back into the local lakes. It is good for the 
economy and for tourism. But we are badly in need of equipment, 
the radio equipment, new vehicles.
    Also at Lac Courte Oreilles, we have Ojibway Community 
College. There are 32 tribal colleges, and they are shining 
stars in Indian Country today. However, our funding level is 
only at $2,900 per FTE, whereas the University of Wisconsin 
system, for the same students, they receive $6,000 per FTE. So 
you can see the discrepancy there. We have about 300 Native 
American students and 100 non-Indian students. There is no 
funding for the non-Indian students.
    We have an open door policy, we do not discriminate or turn 
anyone away. So we provide the educational needs, we meet the 
educational needs in that area.
    So we would ask you to consider that, the college, for 
additional professors, equipment and labs, buildings and 
infrastructure. We are asking for $1,059,580.
    The next is the Head Start. We have three sites on the 
reservation for Head Start early child program. We are asking 
for $1,146,706 for a new Head Start facility.
    Mr. Kingston. Mr. Chairman, because of the time constraint, 
could you just--on the indirect cost shortfall--submit it?
    Mr. Gaiashkibos. Indirect costs, yes. And I provided some 
supplemental information. This was in 1981, there was a 
shortfall of indirect costs for Lac Courte Oreilles tribe. 
There is a bill, P.L. 97-112, H.R. 4894, and we would like to 
have reimbursed $450,000 plus interest back to Lac Courte 
Oreilles tribe. We have to use our judgement claim funds for 
that shortfall.
    [The statement of Mr. Gaiashkibos follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Kingston. Okay, thank you very much. I appreciate it. I 
see you have been corresponding with John Podesta. Is that 
moving?
    Mr. Gaiashkibos. No, it hasn't been, but we would like to 
see you, perhaps, get that moving for us. But yes, we did stop 
that bill last year. There was a special earmark appropriation 
by the subcontractor, U.K. We were able to kill that bill. But 
we were not consulted on a timely basis.
    Mr. Kingston. Thank you very much.
                              ----------                              

                                           Tuesday, April 11, 2000.

                      AMERICAN DENTAL ASSOCIATION


                                WITNESS

ARTHUR F. EDDY, CHAIRMAN, ADA GOVERNMENT AFFAIRS COMMITTEE
    Mr. Kingston. Now we are switching to the American Dental 
Association, Dr. Eddy.
    Dr. Eddy. Good afternoon. On behalf of the American Dental 
Association, thank you, Mr. Chairman, for the opportunity to 
testify on the fiscal year 2001 appropriations for the Indian 
Health Service. I am Dr. Arthur Eddy, Chairman of the ADA's 
Council on Government Affairs, and a practicing dentist in 
Shirley, Massachusetts.
    The Association would like to thank you and this Committee 
for its continued support for improving oral health care for 
Indian people. We believe that the Committee's strong 
directives last year are responsible for the Administration's 
commitment in its fiscal year 2001 budget to eliminate the 
significant disparities in the oral health status of Indian 
people.
    Specifically, we are pleased that the Administration has 
included funding for increased community fluoridation, three 
new clinical and preventive dental support centers, more 
marginal dental units and three new diabetes dental centers 
that will focus on treating periodontal disease that 
accompanies diabetes.
    However, Mr. Chairman, in spite of your efforts and the 
Administration's to increase funding for the IHS dental 
program, we believe this program is still underfunded. I am 
here to seek important additional increases.
    Three years ago, based on an ADA site visit to the Navajo 
Area, we reported to this Committee our concerns about staff 
shortages. Since that time, vacancies of staff have doubled. 
The IHS dental program urgently needs 134 dentists. At this 
time, the IHS dental program is only servicing 25 percent of 
the population. We predict that number will fall further if 
immediate action is not taken to fill the vacancies.
    The ADA believes that the IHS conducts an excellent 
recruiting program. Last year, over 100 graduating dentists 
contacted the IHS to inquire about employment. However, after 
learning that only a few dentists would receive loan repayment, 
actual applications fell to 30. The ADA believes that loan 
repayments is one of the most effective ways to recruit and 
retain dentists, especially in remote areas.
    The ADA believes that to fill the 134 vacancies, the 
Committee needs to earmark $2 million for loan repayment for 
dentists.
    Opportunities for enhancing access to dental care in more 
populated regions could be immediately and significantly 
enhanced through the contract health services program. 
Unfortunately, funding in this program for dentistry has 
declined from about $12 million in 1992 to $7 million last 
year. In that same period, the overall contract health services 
budget increased by $77 million.
    This is a very disturbing trend since it occurred at a time 
when oral health status and access to dental care for Indian 
people are declining. We are pleased that the Administration 
has chosen to make dental care a priority by requesting a $1 
million increase earmarked for dental care. However, the ADA 
recommends earmarking $12 million in the contract dental 
services to restore its funding to the 1992 level.
    The Association was pleased to see that the Administration 
had included $222,000 to increase training in dental 
specialties. The IHS needs more specialists, particularly 
periodontists to treat diabetic patients, and pediatric 
dentists to treat children. Native American children suffer 
twice as much tooth decay as children in the white population. 
It is not uncommon to hospitalize an Indian child with severe 
oral infection.
    One of our IHS dentists has reported that so many children 
have severe tooth decay, he has formed a 20-20 club. These are 
children who have 20 crowns on 20 teeth. Mr. Chairman, a child 
only has 20 teeth.
    To adequately address the oral health needs of the American 
Indians and Alaska Natives, the ADA requests an additional $1.8 
million to train more specialists. The ADA believes that our 
request represents a relatively bare bones approach to 
rebuilding the IHS dental infrastructure, which is essential 
for improving access to care for Indian people.
    We recognize the multitude of funding priorities the 
Committee must reconcile. However, the continued inadequate 
funding of the IHS dental program impairs its ability to meet 
the growing needs of Indian people.
    Finally, the Administration budget request is an important 
first step and must not be reduced. But to truly make progress, 
the Association respectfully requests that the Committee 
support the program enhancements in our written statement. We 
believe the additional $6 million requested will help restore 
access to dental services to at least the 1992 level.
    Mr. Chairman, once again, on behalf of the American Dental 
Association, I'd like to thank you for the opportunity to 
appear before the Committee today.
    [The statement of Dr. Eddy follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Kingston. Thank you, Dr. Eddy. And thank you for 
everything that you are doing personally out of your own 
practice to help this situation.
    Dr. Eddy. You're welcome, Mr. Chairman.
                              ----------                              

                                           Tuesday, April 11, 2000.

                            PUEBLO OF LAGUNA


                                WITNESS

HARRY D. EARLY, GOVERNOR, PUEBLO OF LAGUNA
    Mr. Kingston. The Honorable Harry Early, Laguna Pueblo.
    Mr. Early. First of all, good afternoon.
    Mr. Kingston. Same to you.
    Mr. Early. I hope you've had a good day.
    Mr. Chairman, members of the Committee, I am Harry Early, 
Governor of the Pueblo of Laguna. On behalf of the Pueblo of 
Laguna, I thank you for the opportunity to testify in support 
of funding for critical improvements needed for the water 
delivery system that serves our Pueblo.
    Before I discuss the specifics of our request, I would like 
to briefly inform you about our Pueblo. The Pueblo of Laguna 
consists of over 500,000 acres in western central New Mexico, 
west of Albuquerque. We have a population of approximately 
7,500 tribal members and we provide governmental services to 
all who reside on or near our reservation. Interstate 40 and 
historic Route 66 cross our reservation, and we are usually the 
first response to traffic related and other emergency matters.
    Our tribal government consists of a 21 member council, 
composed of 2 members elected from each of the 6 villages on 
our Pueblo, as well as 9 staff members elected at large. In 
1949, we adopted a constitution under the Indian Reorganization 
Act of 1934, and we now maintain our own judicial system, 
police force and fire and rescue departments.
    Since the adoption of our constitution, the Pueblo has 
experienced a significant amount of economic growth from the 
impoverished conditions that existed prior to the Indian 
Reorganization Act. In that time, we started the Laguna 
Industries, which employs 185 employees and operates as a 
contractor for the United States Army. We also formed the 
Laguna Construction Company to complete the reclamation of a 
uranium mine site, which we successfully completed.
    Most recently, we formed the Laguna Development 
Corporation, to oversee commercial and retail development 
projects, including a newly opened casino. I am very pleased to 
report that our Pueblo has been long known for our own economic 
self-sufficiency, years before the implementation of casinos on 
Indian lands. Unfortunately, our continued economic growth is 
now threatened, due to the inadequate water system on our 
reservation. Increasing demands and the age of the water system 
have caused a situation in which water availability, pressure 
and safety are compromised, especially in the high elevation 
areas. We are losing a significant amount of water to leakage, 
due to the age of the system.
    These inadequate conditions have caused water outages at 
our elderly center, and make water unavailable to fight against 
fires. In addition, the rapidly deteriorating system poses a 
serious health threat to the Pueblo. We have recently been 
notified that the system is in danger of being held in non-
compliance of the Safe Drinking Water Act. Our water system 
also has been included on the Indian Health Service's 
sanitation deficiency list.
    To ensure compliance under the Safe Drinking Water Act, it 
will be necessary to replace the asbestos, cement, steel and 
galvanized piping of the water system, which threatens the 
quality of our drinking water. With funding provided by the 
State of New Mexico, we conducted preliminary engineering work 
to study possible remedies. The most cost effective and 
efficient approach is what we have defined as the Pueblo of 
Laguna Water Development Project.
    This project has several components and will take one year 
to complete. The estimated Federal share is $2.5 million. I 
have included a budget and summary of the specific components 
of the project. I respectfully request that this document be 
included along with my written remarks. I have provided a 
package to the person at the door.
    The Pueblo of Laguna has worked very hard to raise the 
quality of life for our residents, neighbors and visitors. With 
new construction of our proposed project, the Pueblo plans to 
undertake additional initiatives, such as increased services to 
the elderly, more housing programs, and improvements to our 
education system. Unfortunately, until we are able to ensure a 
safe and consistent source of drinking water, economic 
development and public health will remain in jeopardy.
    We believe that the solution to the current crisis is the 
construction of the Pueblo of Laguna Water Development Project. 
We are very appreciative of your time and consideration of our 
request. We hope that you can help us identify and secure 
funding in the Interior Appropriations to meet the $2.5 million 
very necessary to meet this urgently needed project.
    This concludes my remarks. I am very pleased to answer any 
questions. Thank you.
    [The statement of Mr. Early follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Kingston. Thank you very much, Governor. We will look 
at it.
    Just geographically, Capulon Volcano, is that north of you?
    Mr. Early. Would you repeat the name?
    Mr. Kingston. I think it's Capulon.
    Mr. Early. Oh, Capulon, that is northeast of Albuquerque.
    Mr. Kingston. Where is that in relation to you?
    Mr. Early. We are located about 45 miles west of 
Albuquerque on Interstate 40. So we are pretty far removed from 
the Capulon Volcano. We do have others, we are close to a place 
called Mount Taylor, which is one of the highest peaks in the 
State of New Mexico.
    Mr. Kingston. It's a beautiful area.
    Mr. Early. Very volcanic in that area. If you're out our 
way, we have opened a small casino, and if you ever come to 
Laguna, I invite you to come by and pay me a visit and we'll 
have dinner together.
    Mr. Kingston. I appreciate it. You would have to put me on 
a table where I'm guaranteed to come back with something, or my 
wife won't let me visit. [Laughter.]
    Thank you very much.
    Mr. Early. You're welcome.
                              ----------                              

                                           Tuesday, April 11, 2000.

                    FRIENDS OF INDIAN HEALTH SERVICE


                                WITNESS

MICHAEL BIRD, FRIENDS OF THE INDIAN HEALTH SERVICE
    Mr. Kingston. Mr. Michael Bird, Friends of Indian Health.
    Mr. Bird. Good afternoon, Congressman Kingston. I am 
Michael Bird, the first Native American President-Elect of the 
American Public Health Association in 127 years. However, I am 
here today on behalf of the Friends of Indian Health. The 
Friends were organized in 1997, it was a coalition of 35 health 
organizations and individuals, including the American Public 
Health Association, dedicated to improving the health care of 
Indian people.
    The Friends' coalition would like to thank you, Congressman 
Kingston, and members of this Committee for your past efforts 
to improve funding levels for the Indian Health Service. The 
actions taken by the Committee have sent a strong signal to the 
Administration that its budget requests must be realistic in 
order to sufficiently address the health care needs of Indian 
people.
    We are pleased to see that the Administration has responded 
to your direction and requested an increase of $230 million for 
the IHS for fiscal year 2001. However, as health care 
organizations and providers aware of the health status of 
American Indians and Alaska Natives, we cannot accept that 
funding level as adequate.
    Mr. Chairman, we know that you are always aware of what the 
loss of spending power for the IHS has meant in terms of 
statistics. But I would like to share with you some of my 
personal observations. I am the director of preventive health 
programs at the Santa Fe PHS. I have been with the IHS for over 
20 years.
    During that time, I have seen an increased demand for 
services while funding levels have declined. In my area, 
prevention, we have had to prioritize our delivery of care into 
three categories: inpatient care, outpatient care, and 
community prevention. Of the three, community prevention has 
the greatest capacity to reduce overall disease burden. The 
community is the patient. We can identify and promote healthy 
lifestyles which will reduce disease rates.
    However, because we have limited funding, we must focus on 
inpatient care first and then outpatient care. That leaves very 
little resources to assist communities. As you know, diabetes 
afflicts as many as 80 percent of adults in some tribes. The 
most devastating aspect of diabetes is that it reduces the 
quality of life. It robs people of their eyesight and their 
lower limbs. For those on dialysis, their lives revolve around 
their treatment schedules.
    Diabetes does not just rob individuals of their quality of 
life, it also robs the community. When elders and adult leaders 
can't participate, it impacts on the continuity of tradition 
and the teaching of family and tribal values to children.
    Congressman Kingston, to reverse this trend, the Indian 
Health Service needs an additional $53 million to meet 
inflation costs, and $39 million to address population growth 
in fiscal year 2001. If these costs are not addressed, the IHS 
will be forced to take funding out of programs like community 
prevention. Such actions will continue a downward spiral in the 
delivery of health care to Indian people, and continue to 
reduce the quality of life and the perpetuation of Indian 
culture.
    Another key aspect to reducing the disease burden is having 
an adequate work force. There is disparity in access to care 
throughout the Indian health care system. In 1998, there were 
74 physicians for every 100,000 American Indians and Alaska 
Native beneficiaries, compared to 242 per 100,000 in the 
overall U.S. population.
    In that same year, there were 232 registered nurses per 
100,000 American Indian beneficiaries, compared to 876 per 
100,000 in the overall U.S. population. We know you are aware 
of the need for more dentists. A similar situation is 
developing for pharmacists and optometrists. One of the most 
successful recruiting and retention tools the IHS uses is loan 
repayment. The Friends recommends the loan repayment program be 
increased to $24 million to ensure an adequate health care 
provider work force.
    Congressman Kingston, adequately funding the IHS would send 
a strong message for the new millennium that the leaders in 
Washington intend to honor past promises of health care for 
Indians. If the IHS budget is funded below the President's 
request at a time of record high national prosperity, it would 
represent yet another broken promise to the first Americans.
    Thank you for allowing the Friends to testify today. We 
would be glad to answer any questions you might have.
    [The statement of Mr. Bird follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Kingston. Thank you very much, Mr. Bird. It was a great 
testimony, very succinct.
    Mr. Hinchey, did you have a question?
    Mr. Hinchey. I'm just interested in the assertion that 
since 1992, the Indian Health Service has had a decline of 20 
percent in spending power. Is that correct?
    Mr. Bird. Yes. Based on the information I have available, I 
have had provided to me, that is in fact the case. We would be 
happy to follow up with that data, we would be willing to 
provide that to you.
    Mr. Kingston. This Committee pushed for an increase of $229 
million, and that's in the Administration's budget.
    Mr. Hinchey. Two hundred twenty-nine million in this year's 
budget?
    Mr. Kingston. Yes.
    Mr. Hinchey. Do we have that in our----
    Mr. Kingston. No, it's in the Administration's budget, but 
it's been in conjunction with the Committee.
    Mr. Hinchey. The Administration is asking for $229 million 
more?
    Mr. Kingston. Correct. But this Committee has pushed for 
that. Otherwise, you're on record doing the right thing. 
[Laughter.]
    Mr. Hinchey. Well, I'm sure of that. [Laughter.]
    I'm just concerned about some of my compatriots, that's 
all.
    Mr. Kingston. Well, you and I are looking good.
    Mr. Hinchey. Well, thank you very much. Are you satisfied 
with the Administration's proposed increase? Is that going to 
bring you back to where you were in 1992?
    Mr. Kingston. No, they want $53 million more for inflation 
and $39 million more for outreach, keeping up. So they are 
asking for more than the $229 million.
    Mr. Hinchey. Thank you very much.
    Mr. Kingston. Thank you, Mr. Bird.
    Mr. Bird. Thank you for your time. I appreciate it.
                              ----------                              

                                           Tuesday, April 11, 2000.

                       KARUK TRIBE OF CALIFORNIA


                               WITNESSES

ALVIS JOHNSON, TRIBAL CHAIRMAN, KARUK TRIBE OF CALIFORNIA
MAGGIE PETERS, OFFICE OF SELF-GOVERNMENT
LEAF HILLMAN, DIRECTOR, DEPARTMENT OF NATURAL RESOURCES
    Mr. Kingston. The Karuk Tribe of California. Chairman 
Johnson?
    Mr. Johnson [greeting given in native tongue]. I'm Alvis 
Johnson, of the Karuk Tribe. I have with me Maggie Peters, 
Office of Self-Government, and Leaf Hillman, Department of 
Natural Resources, to make a presentation.
    Ms. Peters [greeting given in native tongue]. We are 
honored to be here today and have this opportunity to testify 
requesting support for the Karuk comprehensive natural 
resources stewardship initiative.
    The Karuk Tribe is the second largest tribe in all of 
California, serving tribal populations in eastern Humboldt and 
all of Siskiyou County. We continue to inhabit our ancestral 
territory between the Marble and Siskiyou Mountain ranges, 
along the Klamath River in northwest California.
    Today we wish to briefly describe the three major 
components of the comprehensive natural resources stewardship 
initiative. As traditional stewards of the lands, this 
initiative intends to support cultural preservation and tribal 
trust responsibility, as well as complement Federal, State and 
environmental policies.
    As Federal, State and local agencies do not have stable 
funding mechanisms to support this initiative, we are here to 
request appropriations in the amount of $680,000. In previous 
years, we have requested funds to address the much-needed 
recovery of native anadromous fish populations within the 
Klamath River Basin. With the recent listing of coho salmon and 
steelhead trout as endangered species, we again request 
appropriations to support and continue our fisheries division. 
This is the first component of our initiative.
    We proposed to use funds to construct and operate a 
hatchery on Indian Creek and to continue to operate hatcheries 
on Red Cap and Tishawn-nik Creeks, all of which are tributary 
streams to the Klamath River. Operation of these hatcheries 
propose an annual release of 500,000 chinook, 250,000 coho and 
steelhead. In order to properly monitor the impacts of this 
effort, we also propose to record outward migrations of spring 
and fall runs. Complementary to actually releasing fish into 
the river, we also propose to monitor and record water 
temperatures and habitat conditions of many sites along the 
Klamath River Basin.
    The second component of the comprehensive natural resources 
stewardship initiative is anadromous fishery habitat 
preservation implemented through the watershed restoration 
division. Our intention is to build the integrity of the 
fishery by building adequate habitats to accommodate healthy 
growth and spawning of our very valuable fishery.
    Finally, the third component of our initiative is wildlife 
and cultural resources preservation and protection through our 
fire and fuels management division. For the past few years, we 
have hired small hazardous fuels reduction crews to remove 
accumulated forest fuels, including thinning for cool burns, 
reducing the risk of catastrophic wildland fires.
    At this time, I would offer to answer some questions.
    [The statement of Ms. Peters follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Kingston. Thank you very much. Mr. Hinchey.
    Mr. Hinchey. Is the entire amount you're asking for here 
$680,000? And that's for the resource management for the 
fisheries. So what you're trying to do is, you're trying to 
bring back the coho and steelhead?
    Mr. Hillman. And chinook. Recently, approximately a year 
and a half ago, chinook were listed under the Endangered 
Species Act in the Klamath River Basin. And this initiative is 
largely a response to that. The Federal Government agencies in 
the area who have responsibilities here have been very slow to 
react to the listing of the coho. And in fact, the tribes in 
the Basin have been attempting to respond to the need prior to 
the listing, but have been unsuccessful as of yet to secure 
dollars to adequately respond to the need to address the coho 
decline.
    Mr. Kingston. Sounds like an exciting project. Any other 
questions?
    Mr. Hinchey. Well, there is a very clear need. I think that 
we owe you a debt of gratitude for identifying the need and for 
trying to move in this way to correct it. I certainly hope that 
we will be able to provide these funds.
    Ms. Peters. Thank you very much.
    Mr. Kingston. Thank you very much. We appreciate it.
                              ----------


                                           Tuesday, April 11, 2000.

                      KETCHIKAN INDIAN CORPORATION


                               WITNESSES

STEPHANIE RAINWATER-SANDE, PRESIDENT, KETCHIKAN INDIAN CORPORATION
CHARLIE WHITE, GENERAL MANAGER
LANCE COLBY, HEALTH ADMINISTRATOR
DAVID LANDIS, PROGRAMS MANAGER
    Mr. Kingston. The Ketchikan Indian Corporation, Stephanie 
Rainwater-Sande.
    Ms. Rainwater-Sande. Good afternoon, Mr. Chairman. My 
English name is Stephanie Rainwater-Sande, and my Haida name is 
Dat Kan San, which means, asking for something. [Laughter.]
    I am the President of the Ketchikan Indian Corporation, 
known as KIC, a federally-recognized Indian tribe of southeast 
Alaska, with 4,300 members. Here today with me is our general 
manager, Charlie White, our health administrator, Lance Colby, 
and our programs manager, David Landis.
    Thank you for the opportunity to provide testimony on the 
fiscal year 2001 budget request for BIA and IHS. In 1976, KIC 
became a P.L. 93-638 contractor. And in 1993, KIC assumed a 
self-governance compact under the same law. Self-governance has 
been the primary reason that the tribe has grown in membership 
and prosperity.
    I have two illustrations on that. We have shifted the focus 
of our welfare assistance programs towards employment and 
training. KIC was years ahead of policy makers in Washington, 
D.C. with this concept of welfare to work. The coordination and 
efficiencies between this program, higher education and our 
consolidated social service programs, have proven highly 
effective.
    Our administrative and management control systems have been 
strengthened, allowing the tribe to invest funding and prosper. 
This is a godsend to the community because of the economic 
downturn in fishing and timber.
    However, despite all of our efforts and those of this 
Subcommittee, tremendous unmet needs still exist among our 
people, many of whom struggle with extreme poverty and 
hardship. KIC is committed to improving its efforts to 
efficiently and effectively satisfy these unmet needs.
    The next year's funding issues that KIC requests the 
Subcommittee to consider are, another $10 million are needed to 
supplement health care related travel expenses in Alaska, due 
to our unique and extreme conditions. A case in point is in 
Ketchikan, where the only access to an IHS funded hospital 
facility and specialty services is by air travel. In large part 
due to the financial cost and personal toll imposed by this 
outdated IHS health care delivery system, the KIC tribal 
council has been forced to file a contract disputes act lawsuit 
against IHS.
    Because KIC seeks to spend its hospital related fiscal year 
2000 appropriated funds principally at the local Ketchikan 
General Hospital, rather than at the IHS funded Mount Edgecumbe 
Hospital in Sitka, which is 185 air miles away, spending our 
scarce health care dollars in Sitka, rather than in Ketchikan. 
Great cost inefficiencies, unnecessary medical risks and 
needless personal hardships on the patients. The additional 
cost of lodging, delayed treatment and family disruption are 
immense.
    It is important to note that KIC is not a member of the 
regional consortium that operates this hospital. Moreover, 
another portion of KIC's health care funding is already 
withheld for treatment at the Alaska Native Medical Center. We 
ask only that Congress not interfere with the judicial and 
administrative resolution of this pending litigation under the 
contract dispute.
    Secondly, we ask this Subcommittee to support the 
legislative efforts of Representative Don Young and J.D. 
Hayworth to establish contract support cost funding as an 
entitlement rather than at discretionary spending. KIC opposes 
any reallocation of health contract support costs funding on a 
pro rata basis.
    KIC supports IHS policy of promoting stability by not 
reducing contract support costs. This policy should also apply 
to the Bureau of Indian Affairs.
    Thirdly, we ask that fiscal year 2001 bill language be 
included which expressly permits legitimate startup costs from 
prior years to be paid from the 2001 funds. Fourthly, KIC 
supports the $60 million request proposed by the Alaska Native 
Health Board for funding of inflation and population 
adjustments. KIC has seen a patient load increase of 65 percent 
last year, and our IHS dollars buy less each year.
    We ask that the BIA fund 100 percent of identified contract 
support costs. Shortfalls greatly reduce the ability of KIC to 
meet its obligations to administer and manage its compact 
operations. In conclusion, the BIA and IHS funding for travel 
programs falls far short of tribal needs. The growth of funding 
for Indian programs has not kept pace with the rise in basic 
unmet need.
    KIC, like other tribes, uses our own resources to 
supplement our BIA and IHS funding. We also seek to maximize 
administrative efficiency and creatively address the shortfall.
    Thank you once again for the privilege of providing this 
testimony today. If the Committee has any questions about these 
requests, we would be honored to answer them.
    [The statement of Ms. Rainwater-Sande follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Kingston. Thank you, Madam President.
    Mr. Dicks.
    Mr. Dicks. I have no questions.
    Mr. Kingston. Mr. Hinchey.
    Mr. Hinchey. Just one. This situation with these hospital 
costs, is the Indian Health Service unwilling to transfer 
hospital related funding to KIC?
    Ms. Rainwater-Sande. I will let Charlie, our general 
manager, answer.
    Mr. White. Yes, sir, PFAs, as they are called, the funding 
that is related to hospital activities and costs and functions, 
we withdrew from a consortium, as I'm sure you're aware, we 
have consortiums in Alaska, when we were able to do so, and 
took over our own clinic functions. The first year, we 
allocated those fundings to one of the consortiums for hospital 
care in a one year resolution, as required by law. At the end 
of that year, we did not sign another resolution.
    So a year after that, we requested that funding to come 
back to Ketchikan, so we could negotiate an agreement with the 
hospital in Ketchikan to provide those functions. IHS is in 
dispute with that because of the moratorium, Section 314 on 
Alaska adding additional programs and functions. There is a 
moratorium in Alaska on that.
    Mr. Hinchey. A moratorium?
    Mr. White. Yes, Section 314 of the appropriations law, 99 
appropriations law.
    Ms. Rainwater-Sande. I would like to add something on that. 
In Ketchikan, we spent $800,000 at Ketchikan General Hospital 
last year. We have $1.8 million in Sitka at Mount Edgecumbe 
Hospital, and we have funding in Anchorage. I think it's 
ridiculous to have funding in three hospitals.
    We spent two years, a total of close to $300,000 in travel 
costs, to get to the hospitals, which could have been used for 
services in our clinic. So we need to take a look at the 
dollars that we have and use them wisely, make sure that we can 
provide the best services possible for our members.
    Mr. White. If I may, just to add to that, the first part of 
the IHS appeal against that was turned down last week, and we 
are now appealing to the Internal Board of Contract Appeals 
through IHS. If our answers aren't answered the way we feel 
correctly, because we feel Section 314 allows us, as a tribe, 
because it specifically in that section of law gives a date, 
August 27th, 1997, if you were a compactor before that date, 
you are allowed to assume those functions under the law.
    We will continue that appeal process and exhaust it.
    Mr. Hinchey. You're prevented from assuming them now?
    Mr. White. Yes, we are.
    Mr. Kingston. Thank you very much. We appreciate your 
testimony.
                                           Tuesday, April 11, 2000.

                       LOWER ELWHA KLALLAM TRIBE


                               WITNESSES

RUSSELL N. HEPFER, TRIBAL CHAIRMAN, LOWER ELWHA KLALLAM TRIBE
FRANCES CHARLES, VICE CHAIR
    Mr. Kingston. The Lower Elwha Klallam Tribe, Mr. Hepfer.
    Mr. Hepfer. Good afternoon, thank you for your time. My 
name is Russ Hepfer, I am the tribal chairman of the Lower 
Elwha Klallam Tribe. I brought Frances Charles, the Vice Chair 
Person.
    You have written testimony, I just wanted to touch on all 
of them little bit. Most of it has to do with P.L. 102-495, 
which is the Elwha River Ecosystem and Fisheries and 
Restoration Act.
    Mr. Dicks. Mr. Chairman, you will remember this is up near 
Port Angeles, Washington, where we visited the two dams on the 
Elwha River.
    Mr. Hepfer. I am sorry I missed that visit. I was at 
another national meeting.
    Mr. Dicks. The tribe is located right at the mouth of the 
river. So they have a very major interest in what we're going 
to do here, especially with taking out these dams. It is going 
to affect their area very directly.
    Mr. Regula. Yes, I remember that from when we were there.
    Mr. Hepfer. We are also on the western boundary for the ESA 
listing for chinook.
    We understand that $400,000 that was promised by the 
Department of Interior and the Administration request has been 
removed, and we would like to have it put back in so we can 
participate in dam removal. We also need $1 million for the 
Elwha Fish Stock Preservation Channel. This would provide 
habitat for the fish to hide during the actual removal process.
    In the Act, there is $4 million set aside for land 
acquisition. And we would like to request $100,000 additional 
for acquisition costs. We need this for economic development, 
we need land to do this, we are a land-based tribe. With the 
dams in place, the river has straightened itself out. So now 
our hatchery infiltration water won't be there during low flow, 
so we need half a million for water so the hatchery has 
adequate water.
    We have been involved in the Puget Sound shellfish lawsuit. 
It seem like everything is going fine, but we need monies to 
participate and we want to get settled with the private 
landowners and we want to get settled with the shellfish 
growers. But we don't have sufficient funds.
    Recently we have settled out of court with the United 
States Forest Service with regard to road maintenance, 
watershed analysis and habitat restoration. What's been 
happening, the roads up in the watershed have been failing and 
massive landslides going into our streams that are usual and 
customary impacts our fish. What we're asking is sufficient 
funds so that Forest Service can carry out these tasks from the 
lawsuit. Of course, the continued ESA funding along the western 
boundary of the ESA listing.
    Another big important part of our resources is hunting. 
There are big squabbles going on about hunting in Washington 
State. Mostly I think it's the State starting the fighting. We 
need funding to keep up our wildlife program. We have been 
tagging out and doing a lot of data and a lot of research and 
we'd like to keep it going, and with the Point No Point Treaty 
Council.
    We wanted to support the Northwest Portland Area Indian 
Health Board for their year 2001 budget. This gentleman earlier 
was talking about requests for drug and alcohol suicide related 
funds. We would be in total support of that. We have had one 
suicide within the last two weeks directly related to this. We 
would support that.
    And I would like to support the Quinault Indian boundary 
issue and their planned survey.
    Do you have anything to add?
    Ms. Charles. One of the things, I echo all the previous 
governors and chairs as well, in regards to the Indian Health 
Service needs. We are really lacking the funding in that part 
of it. And like Chairman Russ Hepfer said, we did lose a young 
tribal member due to suicide. We are really lacking in alcohol 
resources available for tribal members. We are in support of 
the COPS grants resources. Again, it's a limited resource 
that's available for us in our communities. We are fortunate 
enough to be working with the neighboring communities. And we 
are asking for continued support for that, hopefully cross-
deputizing our officers.
    [The statement of Mr. Hepfer follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Regula. Okay, thank you.
    Mr. Dicks.
    Mr. Dicks. I just want to thank you for your statement and 
for your great patience on our efforts on the Elwha. Finally, 
the dams have been purchased. So we are now moving ahead.
    I want to particularly thank you for the constructive 
approach you have taken on that issue and on shellfish and 
almost everything else. We really appreciate your cooperation.
    Mr. Hepfer. Thank you. If there are any more questions, 
feel free to get hold of us. Thank you.
    Mr. Hinchey. Mr. Chairman, I wonder if any action is going 
to be taken on this request to design and construct a stock 
preservation channel? If the dams are going to be removed, that 
seems like an important thing to do.
    Mr. Hepfer. We agree with that. This wasn't in the Elwha 
Act itself. Since the dams haven't been removed yet, the river 
has just basically straightened itself out. So we came up with 
a plan in some old river bed, that's a side channel. We could 
construct it, and we have a real efficient habitation 
restoration crew that have had success in west end streams. 
It's something that we came up with that is not in the Act. We 
need support on it.
    Mr. Dicks. We will work with you on that.
    Mr. Regula. Thank you.
                              ----------                              

                                           Tuesday, April 11, 2000.

                 NATIONAL CONGRESS OF AMERICAN INDIANS


                                WITNESS

SUSAN MASTEN, PRESIDENT, NATIONAL CONGRESS OF AMERICAN INDIANS
    Mr. Regula. National Congress of American Indians, Susan 
Masten. Welcome.
    Ms. Masten. Good afternoon, Chairman Regula and 
distinguished members of the House Appropriations Subcommittee 
on Interior. My name is Susan Masten, I'm President of the 
National Congress of American Indians and Chairperson of the 
Yurok Tribe of Northern California.
    The member tribes of NCAI are encouraged by this year's 
budget request. If preserved through the appropriation process, 
a $1.2 billion increase will be provided for Federal Indian 
programs. This commitment by the Administration to increase 
funding to Indian programs will better serve Indian communities 
and is a big step toward honoring the Federal Government's 
treaty and trust obligations to Indian nations.
    Indian Country is supportive of the budget request, which 
illustrates the commitment to addressing the acute needs in our 
communities. We look forward to working with Congress to ensure 
that these needs are addressed in a meaningful manner.
    Mr. Chairman, the last time the Federal Government enacted 
similar funding was in the mid-1970s as part of President 
Nixon's tribal self-determination policy. Under this policy, 
tribal government such as the Yurok Tribe, have more control 
over programs and decision making on our reservations. We have 
been able to fulfill needs and solve problems far more quickly 
and efficiently than through one size fits all Federal 
programs.
    Tribal self-determination has been successful and it is now 
time to increase the investment to this proven policy. Since 
the 1970s, Indian people have had the highest population growth 
rate of any group in the United States. And our population is 
outgrowing what little infrastructure we have on our 
reservations.
    Sadly, third world conditions exist today on the majority 
of our reservations. While the President's proposed budget 
recognizes these needs, it is only a first step in addressing a 
long history of inadequate Federal funding to programs in all 
of these areas.
    Mr. Chairman, I have submitted for the record NCAI's 
written testimony that addresses Indian Country's critical 
needs within Interior. Today I will be highlighting some of 
NCAI's priorities for the following areas: For tribal priority 
allocations, NCAI would go beyond the President's request and 
strongly recommends Congress to put more meaningful funding 
into TPA for each tribal government. Because these dollars are 
the core to self-determination policy. They allow tribal 
governments to set our priorities for spending on programs and 
services.
    The unmet need for programs and services for Indian Country 
have been measured at $7.4 billion for BIA and $15.1 billion 
for IHS. This includes $2.8 billion for TPA.
    It is critical that Congress begin to address this unmet 
need. Federal funding for tribal governments is also a matter 
of equity. Indian people living on reservation pay Federal 
taxes just like every other citizen. But tribal governments 
receive little support from Federal funds that go to State 
governments. Often the States refuse to fund services on tribal 
lands, using the excuse that it is the Federal's responsibility 
to meet tribal needs.
    As a result, programs servicing the American Indian and 
Alaska Natives continue to fall far beyond the funding of non-
Indian programs. For Indian education, NCAI applauds the 
Administration for the ongoing investment to Indian students. 
The President's budget proposes a total investment of $506 
million for BIA school operations. This $40 million increase 
allows the BIA to cover additional costs for teachers, 
transportation, and operations resulting from the growing 
student population in Indian Country.
    We support the $6 million that has been proposed for BIA 
funded schools to hire new teachers. NCAI also strongly 
supports the $300.5 million request for BIA education 
construction.
    Regarding economic development, NCAI is very supportive of 
the new markets initiative. We are working with Congress on 
legislation that would provide for tax incentives for 
businesses who invest or locate on Indian Country. We also 
support a $10 million increase for the Office of Indian 
Economic Development.
    For Indian Health Service, the fiscal year 2001 budget 
request provides the largest single year increase since 1992. 
There is still a great shortfall. NCAI requests that a budget 
of no less than $3.6 billion for IHS, in addition, $950.7 
million over last year, is necessary to reach the tribal 
government base needs funding of $15.1 million.
    In conclusion, NCAI urges Congress to increase the 
investment in Indian programs and tribal government 
infrastructure. We believe that the President's fiscal year 
2001 budget request is a positive step in this direction. 
However, we still have a long way to go to bring tribal 
governments up to the level of equitable funding benefiting the 
governments.
    Thank you very much.
    [The statement of Ms. Masten follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Regula. Thank you.
                              ----------


                                           Tuesday, April 11, 2000.

                         CROW TRIBE OF MONTANA


                                WITNESS

DENNIS BIG HAIR, SR., SECRETARY, CROW TRIBE OF MONTANA
    Mr. Regula. Okay, our next witness is the Crow Tribal 
Council, Mr. Big Hair.
    Mr. Big Hair. Thank you, Mr. Chairman. My name is Dennis 
Big Hair, Sr., Crow Tribe, for Clara Nomee, Madam Chairman of 
the Crow Tribe.
    My name is Dennis Big Hair, Sr., Secretary of the Crow 
Tribe of Indians in Montana, and also the chairman of the 
Montana-Wyoming Tribal Leaders Council. I am here today to 
present the Crow Tribe's projection of unmet needs as 
specifically related to the Bureau of Indian Affairs budget at 
Crow Agency, Montana and for the Crow Indian Reservation. I 
have attached the program justifications for all areas of unmet 
needs in the BIA programs, many of which the Crow Tribe manages 
through P.L. 93-638, the Indian Self-Determination Act.
    All our documentation on unmet needs is a priority with the 
Crow Tribe. However, I will begin by saying the Crow Tribal 
Administration, for the last 10 years, has defined education, 
health, economic development, housing, and natural resources as 
top priority. Let me briefly discuss the justification for 
unmet needs in these general areas.
    The HIP program is 300 percent unfunded. We currently have 
545 homes which need renovation, with an additional 20 homes 
which must be replaced. It does not appear the Crow Tribe will 
receive any HIP funds from the regional office for fiscal year 
2000 and who knows for how long.
    Higher education currently needs additional funding for 
approximately 325 students. We currently fund 104 students. The 
Johnson-O'Malley program estimates that approximately 400 
students are uncounted. The formula needs to be increased for 
students to make this a viable program. The formula currently 
is $43 per student, and it should be a minimum of $100. The job 
placement and training programs has needs for additional 
funding for adult vocational students, but also, the tribe 
cannot fund internships, cooperative programs and relocation 
costs in any meaningful plan. The Crow Tribe does not have an 
adult education program to serve the literacy needs of our 
people.
    The Crow Tribe is in need of an integrated resource 
management plan for the reservation natural resources. The 
unmet needs include soil conservationists, land surveyors, soil 
conservation technicians, natural resource specialists and 
technicians, as well as cartographic technicians.
    In forestry, there is an unmet need to substantially 
increase acreage prepared for sale, income which would impact 
many tribal members, bringing additional acres into improved 
production sooner and increase forest health. We need 
additional personnel, overhead costs as well as tribal 
foresters, support staff and forestry trainees.
    The Crow irrigation project has been uncompleted since 
1966. To bring the system to standards of today's technology 
through refurbishment we will need underground ditches, labor 
and material, canal drops and automated gates, additional 
construction for drainage, canal lining to limit seepage and 
concrete pipes.
    Minerals and mining is an office that is needed in order to 
develop these resources and the unmet needs would include new 
staff, overhead, and professional consultations. Water 
resources, these are currently unmet needs for the management 
of the Big Horn River Lake Level/Stream Level and related 
Conservation Districts. The unmet needs would address staffing 
and overhead as well as necessary equipment.
    The tribe funds a natural resource department, which 
includes a parks component. This component has never been 
adequately funded and there exists a great need for a wildlife 
conservation program.
    Environmental management is responsible for NEPA 
compliance, mineral development and water quality on tribal 
trust land. This component is not funded and there is a need 
for a natural resource specialist, soil conservation 
technicians, range conservation technicians, a lead soil 
conservation technician and a physical science technician plus 
related costs.
    The unmet needs related to real estate services are 
outstanding. The Crow Tribe has outlined the various program 
support needs relative to lease compliance, acquisition and 
disposal, titles and records, probates of trust funds, as well 
as TAAMS and real estate appraisals.
    There is a critical need for economic development on the 
Crow Reservation. There is a great need to immediately 
reinstate the U.S. direct loan program and the Indian Business 
Development Program. The construction and implementation of a 
learning cultural museum would enhance profits from tourism, 
education and culture.
    Please also note in the documentation the unmet needs 
related to contract support. Given the funding of unmet needs 
we present, you cannot fail to address the contract support the 
tribe would need to manage these programs.
    I have just touched on some critical areas of unmet needs. 
But I urge you to seriously review our attachment to this 
presentation and consider the overall unmet needs on our 
reservation. Should these unmet needs be met, surely you can 
see how the Crow Tribe can realistically meet the needs of the 
reservation resources, both human and natural.
    Thank you very much for your attention and consideration.
    [The statement of Mr. Big Hair follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Regula. Thank you. Mr. Hinchey.
    Mr. Hinchey. Mr. Big Hair, thank you very much.
    The Johnson-O'Malley program, you estimate that 
approximately 400 students are uncounted? It's on page two, 
higher education.
    Mr. Big Hair. Yes, 104 students, right.
    Mr. Hinchey. I don't follow that.
    Mr. Big Hair. Actually, approximately 200 students and we 
have 104 students, actually we need more funding for higher 
education programs.
    Mr. Hinchey. Thank you very much.
                              ----------                              

                                           Tuesday, April 11, 2000.

                         EASTERN SHOSHONE TRIBE


                                WITNESS

JOHN R. WASHAKIE, CHAIRMAN, EASTERN SHOSHONE TRIBE
    Mr. Regula. Eastern Shoshone, John Washakie. We're happy to 
welcome you.
    Mr. Washakie. Thank you, Mr. Chairman. And the winter has 
come late to the Rocky Mountains and the Wind River Range, so I 
have a cold, and I hope you'll bear with me.
    Let me tell you a little bit about Wind River Indian 
Reservation. We have two tribes there, the Eastern Shoshone 
Tribe and the Northern Arapaho Tribe. We share the same 
reservation, and I think Chairman Ridgely testified this 
morning. So I'll try to keep my remarks comparable to what he 
said, although sometimes we never agree on anything.
    We are a traditional reservation, and by that I mean that 
we have no gaming, we contract very few of the programs with 
the Bureau of Indian Affairs or Indian Health Service. Perhaps 
if we can teach the antelope to put money in a slot machine, 
perhaps we'll go for a compact and provide some economic 
opportunities there.
    The tribe appreciates the opportunity to be here today and 
the tribe appreciates the Administration's request for 
increased funding for Native American programs. We urge 
Congress to accept those requests and include additional 
funding. Today, I would like to request about $80,300,000 in 
appropriations for the Bureau of Indian Affairs and $2 million 
in Indian Health Service. I need to explain that.
    That's done through the unmet need process that starts at 
the agency level and goes up. Both of those are included for 
the Wind River Indian Reservation in either the BIA-TPA request 
for the Rocky Mountain Region. Within that I included the 
specific request for the Eastern Shoshone Tribe, $3,950,000 for 
roads, $10,400,000 for the irrigation project, and $650,000 for 
the agriculture, protection and development. Six hundred fifty 
thousand dollars for the tribal courts, $750,000 for mineral 
resource protection and development, $3,500,000 for housing, 
$200,000 for scholarships and $110,000 for fire protection.
    Within the IHS request, I request $700,000 for 
pharmaceuticals and $1,300,000 in contract health services for 
the Wind River service unit. There is a mistake in that I have 
too many zeroes in that request for the contract health 
service, so if you will strike one of those, it's $1,300,000. 
As I have said, these are determined by the process that has 
been set up for us to submit our unmet needs for our 
reservation.
    I wanted to be direct and right forward with you in telling 
you what our needs are. And I would hope that you would address 
those and specifically the irrigation rehab. We have a very old 
irrigation project there. It started in the late 1800s. Over 
the years, we have only put about $4.5 million into that 
project. Whereas we have a nice Bureau of Reclamation project 
that is within the confines of our reservation, where the 
Congress has put about $77 million into that project. We're 
about equal in size. I think we're 77,000 acres, and they are 
73,000 acres.
    So what we're here today to do is request additional 
funding to rehab a very old project. This request of $10 
million is only the first phase of that project. The project 
started by the tribal members actually digging those ditches 
and later, the Bureau of Indian Affairs developed it into a 
project for us. So I'm here to request that.
    The other one that I would like to highlight is in the area 
of IHS. In IHS, we have had some problems. The tribe requests 
the $2 million in the Indian Health Service for the service 
unit. A separate line item in the amount of $700,000 for 
pharmaceutical needs needs to be added to the budget.
    In fiscal year 2000, the Wind River service unit had a 35 
percent increase in its prime pharmaceutical expenditures. The 
service unit was required to operate in survival mode to cover 
these costs. The tribe also needs an additional $1.3 million in 
contract health services. We contract with two local service 
units. When we go to about a level of 13, we generally utilize 
the other Federal hospitals.
    I would like to thank you. If there are any questions, I'll 
answer them.
    [The statement of Mr. Washakie follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Regula. Mr. Hinchey.
    Mr. Hinchey. How many members do you have, sir?
    Mr. Washakie. There is about 10,000, approximately 10,000.
    Mr. Hinchey. Traditional?
    Mr. Washakie. Yes.
    Mr. Hinchey. Thank you very much.
    Mr. Regula. Are you happy with BIA?
    Mr. Washakie. Am I happy with BIA? As I said, we're a 
traditional reservation. And no, I should say that first. But 
we don't contract that much of it.
    Mr. Regula. Okay.
                              ----------                              

                                           Tuesday, April 11, 2000.

           GRAND TRAVERSE BAND OF OTTAWA AND CHIPPEWA INDIANS


                                WITNESS

GEORGE E. BENNETT, TRIBAL CHAIRMAN, GRAND TRAVERSE BAND OF OTTAWA AND 
    CHIPPEWA INDIANS
    Mr. Regula. The Grand Traverse Band of Ottawa and Chippewa 
Indians of Michigan, Mr. Bennett.
    Mr. Bennett. Good afternoon, Mr. Chairman, members of the 
Committee. My Indian name is Negane Maezee, it means Leading 
Eagle. My English name is George Bennett. Please to be here 
today.
    I'm a veteran of the Korean War, also a Federal retiree 
returned home to help our community. We are the 17th self-
governance tribe in the country. We have about 3,596 tribal 
members. Our main industry is tourism, and we do have gambling 
on our reservation.
    I'm here to make two points. I'd like to summarize my 
presentation. First of all, in 1990, the census was taken. We 
experienced a 12.2 percent undercount on many of our 
reservations. Consequently, when you see President Clinton 
going to Pine Ridge and maybe other communities, you see mass 
poverty.
    I have had our staff do an analysis of this year's budget. 
We believe that there is approximately 2.7 percent needed more 
in that budget across the board for both Interior and non-
Interior agencies.
    Mr. Regula. We agree with that.
    Mr. Bennett. The unmet needs of our communities have 
increased. You've heard countless people come here and discuss 
their many needs that they have out there. One of the unmet 
needs that plagues our State is the U.S. v. Michigan. And you 
will be hearing from Congressmen Camp, Smith, Hoekstra, Stupak, 
Kildee and Conyers, a bipartisan approach to a supplemental 
appropriation to help us get over the hurdle of an oversight by 
the Bureau of Indian Affairs.
    So we are here to ask you to consider that request. You had 
testimony this morning from Faith McGruther from the Chippewa-
Ottawa Fish Management Authority. We're just here to support 
her request.
    I would hope that you would give serious consideration to 
the 2.7 percent increase across the board. I think I'm not here 
just for my own tribe, I'm here for all the tribes. You heard 
Sue Masten talk about the details. I'm here to talk about 
across the board. I am looking at it from a big picture 
standpoint, as I am sure you are.
    So thank you very much. I'll be pleased to answer any 
questions you may have.
    [The statement of Mr. Bennett follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Regula. Thank you. Mr. Hinchey.
    Mr. Hinchey. Thank you very much, sir.
    Mr. Bennett. Thank you.
                              ----------                              

                                           Tuesday, April 11, 2000.

                    INTERTRIBAL AGRICULTURE COUNCIL


                                WITNESS

GREGORY E. SMITMAN, EXECUTIVE DIRECTOR, INTERTRIBAL AGRICULTURE COUNCIL
    Mr. Regula. Okay, the Intertribal Agriculture Council, Mr. 
Smitman. Welcome.
    Mr. Smitman. Thank you. I'm Greg Smitman, I'm the Executive 
Director of the Intertribal Ag Council. I come from Billings, 
Montana. Our organization was founded in 1987 with 84 tribes, 
and our purpose is to promote the Indian use of Indian 
resources in order to better our communities and our economies.
    In this year's budget, the Administration has proposed 
significant increases in a large number of areas. One of the 
ones that affects us is the accounting and land ownership 
records and things like that through their TAAMS programs. But 
there is an opinion vested in this budget to support the basic 
resources of Indian communities, which is the land and the 
water. There is no increase, and there is not even a mention of 
the unmet needs documented by the Bureau of Indian Affairs in 
something like irrigation, which Mr. Big Hair and Mr. Washakie 
just mentioned, of $1.76 billion, documented by the Bureau of 
Indian Affairs.
    We have a problem, and we are concerned, because the 
Department of Interior is the department of the Federal 
Government which is responsible for developing Federal 
resources, BLM, Bureau of Rec, Fish and Wildlife Service, Park 
Service. All those agencies are out there assisting Federal 
land development and making improvement and income off Federal 
minerals, Federal timber, Federal land.
    Yet the same department of the Federal Government charged 
with managing Indian resources for Indian people is not 
investing a penny in improving the basic wealth of these 
people, which is the land and the water.
    We have a couple of proposals to start to change that. In 
1993, this Congress passed the American Indian Agriculture 
Resource Management Act. In that act there are a couple of 
specific things that start the process of improving management. 
One is in Section 104, a requirement that the Secretary of 
Interior analyze his management of Indian lands and compare it 
with his management of other Federal resources, a comparative 
analysis which would give him the ability to make meaningful 
adjustments for the benefit of Indian communities. He has not 
done that in seven years.
    The Congressional Business Office and the Bureau of Indian 
Affairs estimated the cost of that program at $800,000. We're 
asking that you earmark $800,000 from the BIA's trust fund 
improvement programs, to all 100 million of them scattered 
around, so that the Secretary will assess his management of 
Indian lands and compare it with his management of Federal 
resources, so that we have some basis for making an 
improvement.
    We are also asking in that same Act, Section 101 calls for 
the long range resource management plans which Mr. Big Hair 
just spoke about, and the needs on his reservation at Crow. We 
would ask that you consider earmarking again $8 million to 
start that process. No regulations are required, the law is 
self-enacting, the Bureau has programs in place through its 
IRMP process to do it.
    Unfortunately, currently in the IRMP process, the Bureau is 
finishing about six plans a year. With 460 some odd 
reservations, you can see that my grandchildren will be dead 
before that's accomplished in our country.
    We ask for $8 million this year, which is one-third of the 
CBO estimate of that cost, because we think it will take about 
three years to fully implement and complete the process.
    We have two other requests, and you heard both Chairman 
Washakie and Mr. Big Hair speak on the needs in irrigation. The 
Department of Interior and BIA have identified $1.76 billion in 
unmet needs on irrigation projects which were initiated in 
1854, none of which have been completed. The Bureau estimates 
that its current efficiency in irrigation is less than 60 
percent. And 1.1 million acres of land is irrigated under the 
Bureau irrigation projects. For comparison, the entire Colorado 
River only diverts water to irrigate 2 million acres.
    We have a process and projects out there in Indian land 
that are using water, half of which isn't getting to the land 
it's required to get to. And they are diverting virtually as 
much water in the west as the Colorado River diverts.
    We can't ask you to appropriate $1 billion to fix that. 
Because we don't have the staff or the people on board to take 
control of that process. The Bureau has moved its staffing to 
an accounting mode, we have accounting technicians.
    We would ask that you appropriate $10 million to be in 
concert with the tribal leaders budget summary and to 
irrigation operation and maintenance, so that we can start 
rebuilding the technical staff on our projects. Naturally, that 
won't solve all of our problems, but at least it will give us 
some competent technical people on the ground that can write 
the plan so we can do the rehabilitation better.
    As I run out of time, finally, Mr. Chairman, the 
Intertribal Agriculture Council was founded by Congress in 
1987. We were appropriated grants through the Bureau of Indian 
Affairs through 1996. When the Bureau took those huge budget 
cuts, our board of directors voted to not to continue to seek 
Congressional money, because that money more appropriately 
belongs with the Indian tribes and their resources. This year, 
where we again have money, we would ask that our original grant 
of $250,000 be earmarked from within the BIA's irrigation 
budget at the national office to again support the work of the 
IAC.
    [The statement of Mr. Smitman follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Regula. Thank you. Mr. Hinchey.
    Mr. Hinchey. The Intertribal Agriculture Council represents 
exactly whom? I'm not sure I know.
    Mr. Smitman. We were founded by 84 tribes. We currently 
have about 65 member tribes. Our member tribes tend to be 
large, landed reservations. Our tribes own about 82 percent of 
the 56 million acres of trust land in the United States.
    Mr. Hinchey. Typically west, northwest?
    Mr. Smitman. We have tribes from Florida to Alaska and 
Maine, we have Pasamaquoddy, Seminole, out here in the east, 
all the way up through Kuriak in Sea Alaska.
    Mr. Hinchey. Thank you very much.
                              ----------                              

                                           Tuesday, April 11, 2000.

                      WINNEBAGO TRIBE OF NEBRASKA


                                WITNESS

KENNETH W. MALLORY, CHAIRMAN, WINNEBAGO TRIBE OF NEBRASKA
    Mr. Regula. The Winnebago Tribe of Nebraska, Mr. Mallory.
    Mr. Mallory. After being the last on this two page list, I 
am sure you have heard all the issues in Indian Country.
    Mr. Regula. We have another whole page to go.
    Mr. Mallory. I'll just cut to the chase.
    Mr. Regula. That's good.
    Mr. Mallory. Mr. Chairman, and staff of the Appropriations 
Committee, I would like to thank you for the opportunity in 
addressing you. However, my gratitude goes even deeper than 
that, thank you. The last time I appeared before this 
Committee, we had several concerns for funding. We only 
mentioned three of them, because we felt like the others really 
would be of little consequence if we did get a positive 
response to this.
    As a result of those hearings and the positive response, we 
have been able to finish the A and E portion of the Winnebago 
Hospital. We have also set up a schedule for construction 
beginning this summer.
    However, we did not realize as a tribe that we needed to 
come back, even though the funding was appropriated, we didn't 
realize that we had to come back and make that request on a 
yearly basis. So I'm here to request the $12.2 million for 
fiscal year 2001.
    Also as a result of that meeting, we were able to request 
and receive an additional $5 million for the 26 Indian colleges 
throughout the United States. We benefit from the standpoint 
that within a five year period, we were able to become 
accredited as an Indian college. That was a result, again, of 
your positive funding.
    The third request we made at that hearing was for law 
enforcement funding. And I sat here and heard a lot of comments 
about law enforcement. My opinion is that we have well trained 
and educated law enforcement officers. We have well uniformed 
officers. We have officers with good equipment and the vehicles 
to do their job.
    The bad part of this whole situation, or the downside of 
it, is that we have no structures or facilities to accommodate 
law enforcement and criminal justice programs. I am not here 
this year so much to ask for additional funding as I am 
requesting that more of the money that is allocated be used for 
construction to accommodate law enforcement and criminal 
justice programs.
    Mr. Regula. Are you talking about jails, housing, vehicles?
    Mr. Mallory. Jails, courtrooms where we can at least 
prosecute the crime once it's been perpetrated. But those are 
the real issues out in Indian Country. A lot of good funding 
has been set aside for law enforcement programs. Very little of 
that is used for construction. That was my big concern.
    But most of all, like the 1 out of 10, I want to thank you 
for the response we received at our last hearing.
    [The statement of Mr. Mallory follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Regula. We're glad we do something right there. Mr. 
Hinchey.
    Mr. Hinchey. I'm happy to hear that too, Mr. Chairman.
    Mr. Mallory. Sometimes gratitude goes a lot further than 
brevity. Thank you very much.
                              ----------


                                           Tuesday, April 11, 2000.

                    LEVEL OF NEED FUNDED TASK GROUP


                                WITNESS

JAMES ALLEN CROUCH, EXECUTIVE DIRECTOR, CALIFORNIA RURAL INDIAN HEALTH 
    BOARD
    Mr. Regula. California Rural Indian Health Board, Mr. 
Crouch.
    Mr. Crouch. Thank you. My name is Jim Crouch, I'm Executive 
Director, California Rural Indian Health Board. I have with me 
today a number of representatives from the California Rural 
Indian Health Board member tribes and tribal health programs. 
Maybe you all would stand up for a second, to show you our 
interest in the State of California and your work.
    Also with me today and presenting next will be Mr. Joseph 
Saulque, who is Chairman of the California Rural Indian Health 
Board for over the last decade, actually, and also Chairman of 
member program Toiyabe Indian Health.
    I wanted to speak to you today primarily about the Level of 
Need Funded Work Group. California Rural Indian Health Board is 
formally in support of the work of the LNF task group. I was 
fortunate to serve as a member of that group over the last 18 
months. The LNF task group is a result of language that you put 
in the appropriations bill over two years ago, directing the 
Indian Health Service to work with the tribes, to address 
equity.
    Subsequent to that directive, the IHS established LNF task 
group, 16 members representing the 12 areas, tribal leaders 
from around the country. Also we had assistance from the Agency 
for Health Care Policy Research and retained the services of 
the Center for Health Policy Studies, an actuarial firm here in 
the District of Columbia.
    The task group took as its responsibility to answer the 
question, how much money do you need to provide adequate 
personal health care services to the Indian people of the 
United States. There are three basic decisions in the original 
work. One was to choose the Federal employees benefit package 
as the benchmark plan. Secondly was to consider all sources of 
coverage, whether it's Medicaid, Medicare, the new Children's 
Health Insurance Program, VA or private insurance as part of 
the money and the mix for this research. And thirdly, most 
importantly perhaps, in a way, that we continue the theory that 
the Indian Health Services should be provided at no cost to the 
Indian people of this country.
    Phase one of the task group divided the country into four 
population groups: all the Indians in America, all the Indians 
who live in official Indian Country, urban Indians and then 
finally, those active users who are dependent on health care 
services. The result of our phase one work was that we 
ascertained that the IHS currently spends about $1.8 billion of 
the $2.2 billion budget on personal health care services. 
However, using our actuarial approach to this cost problem, we 
identified a $1.2 billion underfunding for personal health care 
services alone.
    Phase two activities began to look at the question of, if 
you just address the question of active users, those people who 
are dependent on the IHS funded services, how much does it cost 
to provide adequate services to them in the specific geography 
and locale in which they are residing. Again, using the 
actuarial firm and approaches, we adjusted the $2,980 per 
person per year amount, based on the local purchasing price and 
the specific geography, the operating unit size or efficiency 
for economies of scale, and then importantly, health status 
indicators.
    The result of that is that 108 service units and operating 
units within the Indian Health Service have less than 60 
percent funding that they need for personal health care 
services. There are only 171 service units in the entire study. 
You can see the vast number of the Indian health care program 
is underfunded.
    The chart showing the distribution of those services 
suggests that there is not equal access to services in the 
Indian Health Service, and that appropriating funds in the 
traditional manner of this agency simply raises this curve up 
without ever correcting the underfunding at the bottom.
    Mr. Regula. Does this result from the fact that facilities 
aren't available some places?
    Mr. Crouch. It's a result of a number of factors. Facility 
construction has been an important way to grow budgets in some 
areas. But in areas like California, that's not happened 
because our population is so dispersed and small. It's a result 
of historic funding and political earmarking.
    But most of all, I think it's a result of not having the 
actuarial studies done necessary to identify that discrepancy 
and funding. In order to flatten this curve, we request that 
you appropriate $288 million for personal health care services 
in this year's budget. I know that exceeds the President's 
request by over $50 million and that his request is spread 
across both facilities and other legitimate CHR and public 
health nursing kinds of needs.
    But I would suggest that personal health care services is 
the core activity of the Indian Health Service, and that equal 
access to coverage is something that we have a right to expect 
from any Federal agency.
    [The statement of Mr. Saulque follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Regula. Okay, thank you.
    You have about a minute left.
    Mr. Saulque. I'm also with the Toiyabe Indian Health 
Project, so I will be part of the next one as well.
    Mr. Regula. Okay, very good.
                              ----------                              

                                           Tuesday, April 11, 2000.

                     TOIYABE INDIAN HEALTH PROJECT


                                WITNESS

JOSEPH SAULQUE, CHAIRMAN, TOIYABE INDIAN HEALTH PROJECT
    Mr. Saulque. I wanted to refer to two things here, with the 
presentation, and that's the epidemiological center. We have 
been around since 1969 providing health care and being involved 
in providing technical assistance and training. We would like 
to be earmarked, if we could, by the Committee, to receive one 
of those centers in California, and then provide those services 
to all the projects in California. Currently, we are working 
with the one in Portland, Oregon.
    The second item is the YRTC, or Youth Regional Treatment 
Centers. We are trying to get those together in California, as 
you specifically heard from the Southern Indian Health Council 
earlier. We are also trying to put a second one together. One 
of the things that we certainly need is some construction funds 
to help do the buildings for those.
    [The statement of Mr. Saulque follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Regula. Are your people close enough that you could be 
located at a central point? They're pretty dispersed. That's a 
big State.
    Mr. Saulque. CRIHB works out of Sacramento, California, 
which is basically the headquarters for the Indian Health 
Service and the Bureau of Indian Affairs. Most of the Indian 
people throughout the State come to that location.
    Mr. Crouch. And as to the YRTC, you will remember that the 
Southern Indian Health Council people were talking about the 
needs in the southern part of the State, where they have 
established an ongoing program. There is a need for 
construction funds to do something in the more northern part of 
the State, because of that large area.
    Mr. Saulque. And to continue with Toiyabe Indian Health 
Project, which is one of the local projects, and a member 
project to CRIHB. My name is Joseph Saulque, and I'm the 
chairman of that project, as well as CRIHB. What we are really 
looking at is along the line of diabetes. We have a high rate 
of diabetes throughout Indian people in California, especially 
in our area. We currently have been able to acquire some 
funding from the California Endowment to put together a 
dialysis center. We certainly have one shift of staff on board 
dialyzing 16 patients.
    Mr. Regula. Is it working well?
    Mr. Saulque. Working well, 16 patients, 3 non-Indian 
patients are part of that group. We have nine patients waiting 
in the wing, if you will, with three of those being non-Indian. 
What we're concerned about is having enough funding to start a 
second shift to start building up to another 16 patients that 
we could provide services for.
    Mr. Regula. So the hospital has room, the limitation is the 
staff?
    Mr. Saulque. Right. We can go up to 48 patients in that 
facility. We have nine machines. We have Dr. Schultze from the 
UCLA Med Centers, our nephrologist in this project. We have the 
facilities, we just need the staff and the funds to continue to 
provide those services to all patients in our community that 
need those services. Currently we're looking at probably a 
budget of an additional cost of $800,000 for that.
    Mr. Regula. Okay, thank you.
    Mr. Saulque. That's the main thing, I guess. The other 
thing I just wanted to mention on BIA just real quickly is that 
in central California, there are 52 tribes working out of one 
BIA agency. And if there's a possibility of some tribes being 
unterminated, some tribes being federally recognized, we could 
go as high as 60 tribes out of that one agency. What we really 
would like to see is the possibility of another agency being 
created.
    Mr. Regula. Where is the existing agency?
    Mr. Saulque. It's in Sacramento, California.
    Mr. Regula. So the people in the south have to travel quite 
a distance.
    Mr. Saulque. The people in the south have their own agency, 
south of the San Bernardino line. Then from San Bernardino to 
say, Mendocino cut off up in the north part, south of Redding, 
is the central California agency jurisdiction. We certainly 
need more than one agency to provide services in that area.
    Finally, the last thing is that the Bureau, I believe, 
submitted a request for somewhere between $10 million and $15 
million to provide staffing and trust shops within their 
agencies. California, our agency is rated one of the top five 
that need those staff to provide the trust services to the 
tribes out in California. We certainly support that request of 
the Bureau.
    Mr. Regula. I think that would to be up to the au to make 
that request.
    Mr. Saulque. They did make that request, and that is their 
decision. They are currently asking us, we're up to $8,000 back 
out of our budget for staff.
    Mr. Regula. They have been very responsive in recent 
months.
    Mr. Hinchey.
    Mr. Hinchey. Where is the dialysis unit located?
    Mr. Saulque. It's located in Bishop, California. We have a 
population of approximately 3,000 Indian people.
    Mr. Crouch. In closing, I would like to urge you to ask for 
a formal briefing on the LNF task group work. Once that process 
is completed, for a consultation between the IHS and the tribal 
governments.
    Thank you.
    Mr. Regula. Thank you.
                              ----------                              

                                           Tuesday, April 11, 2000.

                          CHIPPEWA CREE TRIBE


                                WITNESS

ALVIN WINDY BOY, MEMBER, CHIPPEWA CREE BUSINESS COMMITTEE
    Mr. Regula. Chippewa Cree Tribe, Mr. Boy.
    Mr. Windy Boy. Good afternoon, Mr. Congressman. My name is 
Alvin Windy Boy. And thank you for the opportunity to present 
testimony regarding the President's budget request. I am an 
elected official of the Chippewa Cree Tribe and also----
    Mr. Regula. How big is your tribe?
    Mr. Windy Boy. Five thousand nine hundred ninety-eight 
people. Yahoo. [Laughter.]
    Mr. Regula. Do you have gaming?
    Mr. Windy Boy. No gaming. We are probably about 40 miles 
from the nearest town. The reservation is small.
    Mr. Regula. What's your economy, agriculture?
    Mr. Windy Boy. Agriculture, farming. The reservation is 
about 152,000 acres, of which most predominantly is mountainous 
terrain.
    Most recently, I'm sure we saved the best for last, my 
presentation, Congressman, is one of many. I've got with me the 
staff attorney who has been quite heavily involved in our water 
rights negotiations, of which we're just about there. But that 
word, show me the money, is I guess our last hurdle.
    Health care--I'm the chairman of the Rocky Boy Health 
Board, and also the chairman of the Montana-Wyoming Area Indian 
Health Board, and the vice chairman of the National Tribal 
Self-Governance Advisory Council, of which my tribe is a part.
    The issue I would like to discuss a little is the burden of 
disparity, disparity with regard to health care needs of our 
people. The funding available is significant, especially for 
remote and rural tribes such as ours. Indian people suffer a 
death rate from diabetes that is 249 percent higher than all 
other ethnic groups.
    Mr. Regula. Is it juvenile diabetes as well as adults?
    Mr. Windy Boy. Exactly. Similarly, in Indian Country, the 
pneumonia-influenza death rate is 71 percent higher, and the 
tuberculosis rate is 533 percent higher. Finally, the death 
rate caused by alcoholism is tragically 700 times the national 
average in all other communities. I respectfully request that 
the Subcommittee and Congress recognize the Federal court 
decision of White v. Califano.
    Moreover, the disparity in health status and disparity in 
funding for health care is well documented. The Health Care 
Financing Administration, the DHHS and the Indian Health 
Service has substantiated a huge inequity in per capita 
expenditures in health care for Indian people. This incongruity 
is graphically demonstrated over the past eight years within 
the Indian Health Service receiving about $1,500 per capita, 
while Medicaid and the Bureau of Prisons receive greater than 
$3,000 per capita, and the Veterans Administration receives 
greater than $5,000 per capita. So the disparity is quite 
significant as it relates to Indian Tribes.
    During an historical meeting with tribal leaders and 
presidents held in April, 1994, I had the distinction to be 
asked to sing a praising song of which goes back in my family a 
number of years. At the time, tribes were encouraged to submit 
demonstration projects, as most recently as last year, thanks 
to the help of Senator Burns, Senator Baucus, Senator Conrad 
and Senator Daschle of South Dakota. We were asked to submit 
demonstration projects.
    We did, and thanks to Senator Burns in leading that charge 
and getting a demonstration health disparity project with Rocky 
Boy. We have close to 6,000 enrolled members of my tribe, of 
which about 4,200 live on the reservation and are more so 
moving back. That disparity has, looking at a demonstration 
project, would look at all of my members, whether they live in 
California, Seattle, Florida or New York, and providing them 
some type of health package as a demonstration project.
    And realizing our constitution does have some limitations 
with enrollment, such as, if you are away from the reservation 
for 10 years, you're automatically disenrolled. This 
demonstration project would allow our people to have the 
ability to move back, and also maintain cultural ties.
    I have a number of other issues.
    Mr. Regula. Your statement will be put in the record.
    [The statement of Mr. Windy Boy follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Regula. Thank you.
    Mr. Hinchey.
    Mr. Hinchey. Well, just to observe, Mr. Chairman, that 
there really is a health care crisis on many of these 
reservations and that we have to do our best to deal with this 
situation. I know that you are and have been doing so, Mr. 
Chairman.
    Mr. Regula. We even went above the President's request last 
year. We understand the health problems, and we will do all we 
can. We have a lot of demands on the availability of resources 
in this Committee.
    Okay, you're the last witness unless there's someone here 
that we skipped over. Did we take care of everybody that was 
scheduled to testify?
    Thank you all for coming. As Mr. Hinchey says, we'll do all 
we can.
    The Subcommittee is adjourned.

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                               I N D E X

                              ----------                              

           Public Witnesses and Additional Written Testimony

                                                                   Page
Alamo Navajo School Board, Inc...................................    47
Alaska Native Health Board.......................................   321
American Association of Museums..................................   368
American Dental Association......................................   200
American Indian Higher Education Consortium......................    89
American Psychiatric Association.................................   166
Assiniboine and Sioux Tribes of the Fort Peck Indian Reservation.   437
Association of Navajo Community Controlled School Boards, Inc....   382
Bad River Band of Lake Superior Chippewa Indians.................   142
Black Mesa Community School......................................   318
Blackfeet Tribe, Blackfeet Indian Reservation....................   160
Bristol Bay Area Health Corporation..............................   325
California Rural Indian Health Board, Inc........................   274
Chippewa Cree Tribe of Rocky Boy's Indian Reservation............   286
Chippewa-Ottawa Treaty Fishery Management Authority..............    96
Coalition for Health Funding.....................................   464
Columbia River Inter-Tribal Fish Commission......................   297
Confederated Tribes and Bands of the Yakama Indian Nation........   344
Confederated Tribes of the Colville Reservation..................   398
Confederated Tribes of the Grand Ronde Community of Oregon.......   185
Confederated Tribes of the Warm Springs Reservation of Oregon....   188
Cowlitz Indian Tribe.............................................   360
Crow Tribal Council..............................................   245
Delaware Tribe of Indians........................................   418
Delaware Tribe of Western Oklahoma...............................   356
Dry Creek Rancheria Band of Pomo Indians.........................   414
Eastern Shoshone Tribe...........................................   251
Fond du Lac Band of Lake Superior Chippewa.......................   394
Fort Belknap Indian Community....................................   460
Friends of the Indian Health Service.............................   212
Grand Traverse Band of Ottawa and Chippewa Indians...............   257
Greasewood Springs Community School, Inc.........................   315
Great Lakes Indian Fish & Wildlife Commission....................   402
Hoopa Valley Tribal Council......................................   122
Intertribal Agriculture Council..................................   263
Intertribal Bison Cooperative....................................   425
Intertribal Timber Council.......................................   406
Jamestown S'Klallam Tribe........................................   110
Joslin Diabetes Center...........................................   380
Karuk Tribe of California........................................   218
Ketchikan Indian Corporation.....................................   224
Lac Courte Oreilles Band of Lake Superior Chippewa Indians.......   194
Lac du Flambeau Band of Lake Superior Chippewa Indians...........   441
Lawton Service Unit Intertribal Health Board.....................   470
Level of Need Funded Task Groups.................................   274
Lower Elwha Klallam Tribe........................................   232
Lukachukai Community School, Inc.................................    54
Lummi Indian Nation..............................................   116
Metlakatla Indian Community......................................   333
Narragansett Indian Tribe........................................   364
National American Indian Court Judges Association................   352
National Congress of American Indians............................   238
National Indian Child Welfare Association........................    61
National Indian Education Association............................    82
National School Board Association................................   376
Native American Fish & Wildlife Society..........................    24
Native American Rights Fund......................................   446
Navajo Nation....................................................     3
Navajo Preparatory School, Inc...................................   301
Nez Perce Tribe..................................................   172
Nisqually Indian Tribe...........................................   294
Northern Arapaho Business Council................................    30
Northern Cheyenne Tribe..........................................    41
Northwest Indian Fisheries Commission............................   129
Northwest Portland Area Indian Health Board......................    34
Pascua Yaqui Tribe...............................................    10
Pinon Community School Board, Inc................................   308
Port Gamble S'Klallam Tribe......................................    68
Pribilof Island Aleut Community..................................   421
Pueblo of Acoma..................................................    17
Pueblo of Isleta.................................................   178
Pueblo of Laguna.................................................   206
Puyallup Tribe of Indians........................................   154
Quinault Indian Nation...........................................   103
Ramah Navajo School Board, Inc...................................   312
Red Lake Band of Chippewa Indians................................   386
Rock Point Community School of the Navajo Nation.................   337
Sauk Suiattle Indian Tribe.......................................    75
Seattle Indian Health Board......................................   467
Seminole Tribe of Florida........................................   329
Southern Indian Health Council, Inc..............................   148
Spokane Tribe of Indians.........................................   433
Squaxin Island Tribe.............................................   454
Stockbridge-Munsee Community Band of Mohican Indians.............   372
Sycuan Band of the Kumeyaay Nation...............................   458
Tlingit and Haida Indian Tribes of Alaska........................   135
Toiyabe Indian Health Project, Inc...............................   280
United Keetoowah Band of Cherokee Indians in Oklahoma............   348
United Sioux Tribes of South Dakota..............................   390
United Tribes Technical College..................................   410
Upper Lake Pomo Rancheria........................................   341
Ute Indian Tribe of the Uintah and Ouray Reservation.............   304
Viejas Indian Reservation........................................   450
Winnebago Tribe of Nebraska......................................   269
Yurok Tribe......................................................   429

                                <greek-d>
</pre></body></html>
